<html>
<title> - THE FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION (NATO)</title>
<body><pre>[Senate Hearing 107-764]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-764
 
      THE FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION (NATO)

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2002

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
82-912 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

               Judy A. Ansley, Republican Staff Director

                                  (ii)

  



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

      The Future of the North Atlantic Treaty Organization (NATO)

                           february 28, 2002

                                                                   Page

Grossman, Hon. Marc I., Under Secretary of State for Political 
  Affairs........................................................    15
Feith, Hon. Douglas J., Under Secretary of Defense for Policy....    25
Ralston, Gen. Joseph W., USAF, Commander in Chief, United States 
  European Command...............................................    30

                                 (iii)


      THE FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION (NATO)

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Landrieu, Reed, E. Benjamin Nelson, Warner, McCain, Inhofe, 
Roberts, and Sessions.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; and Michael J. McCord, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Edward H. Edens IV, professional 
staff member; and George W. Lauffer, professional staff member.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, Jennifer Key, Thomas C. Moore, and Nicholas W. West.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Jeffrey S. Wiener, assistant to 
Senator Landrieu; Elizabeth King, assistant to Senator Reed; 
Peter A. Contostavlos, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Brady King, assistant 
to Senator Dayton; Benjamin L. Cassidy, assistant to Senator 
Warner; Christopher J. Paul, assistant to Senator McCain; 
George M. Bernier III, assistant to Senator Santorum; Robert 
Alan McCurry, assistant to Senator Roberts; Douglas Flanders 
and Charles Cogar, assistants to Senator Allard; James P. 
Dohoney, Jr., assistant to Senator Hutchinson; Arch Galloway 
II, assistant to Senator Sessions; and Derek Maurer, assistant 
to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony on the future of the 
North Atlantic Treaty Organization (NATO). In just 9 months, 
NATO heads of state and government will meet in Prague to make 
a decision on enlargement of the Alliance and to focus on a 
number of other crucial areas.
    In our invitation letters to the witnesses, Senator Warner 
and I asked them to comment on NATO enlargement issues; on the 
role of NATO in the global fight against terrorism; the 
organizational and transformational changes, if any, that NATO 
needs to make; the technological and capabilities gap that has 
developed between the United States and the other members and 
how that gap should be addressed; the NATO-Russia relationship 
and how the ``NATO at 20'' concept should be implemented; how 
an enlarged NATO could function effectively as a military 
organization; and any other issues that our witnesses consider 
relevant to the future of NATO.
    Depending on whom you talk to, NATO's glass is either half-
full or half-empty. Some on both sides of the Atlantic have 
raised concerns about the future roles and missions of NATO and 
NATO's relevance in the post-September 11 world. Some have even 
cited NATO's invocation of Article V for the first time in its 
history and the numerous offers by NATO members to participate 
in the U.S.-led Operation Enduring Freedom in Afghanistan as a 
factor demonstrating NATO's weakness because the United States 
has not seen fit to take up most of those offers.
    I am reminded of a statement by NATO Secretary General Lord 
Robertson upon the conclusion of the meeting of NATO's heads of 
state and government in June of last year that: ``NATO's 
credibility is its capability.'' He made that statement to 
exhort the Alliance's European members to spend more wisely on 
defense. That exhortation has not borne fruit, because Lord 
Robertson said publicly last month: ``The truth is that Europe 
remains a military pygmy.''
    To put the issue in some context, the $48 billion annual 
increase requested by President Bush for the defense budget 
constitutes 150 percent of the total defense spending of the 
United Kingdom or France, the next largest NATO member states' 
defense budgets after the United States.
    I must admit that I am from the glass is half-full camp. I 
am a strong supporter of NATO, the most successful alliance in 
the history of the world. NATO successfully deterred an attack 
by the former Soviet Union and also, very importantly, helped 
to keep the peace among the nations of Western Europe for 5 
decades.
    In recent years, NATO forces fired shots in anger for the 
first time in its history and brought a negotiated end to the 
conflict in Bosnia. NATO conducted an air war against Serbian 
security forces and reversed ethnic cleansing for the first 
time in history. Even though the United States carried out the 
bulk of the Kosovo air campaign, I believe it was the moral 
strength and cohesion of 19 sovereign nations that led to the 
successful conclusion of the conflict.
    At the present time, the Alliance is conducting three 
peacekeeping operations in the Balkans: Bosnia, Kosovo, and 
Macedonia. The Europeans are providing the bulk of the forces 
for these operations and the overwhelming majority of the civil 
assistance and financial support for those countries. Pursuant 
to NATO's invocation of Article V in response to the horrendous 
terrorist attacks on the United States on September 11, NATO 
airborne early warning aircraft were deployed to patrol the 
skies over America and NATO's standing naval forces were 
deployed to the eastern Mediterranean at the United States' 
request.
    But the fact remains that NATO must address a number of 
crucial issues no later than the November Prague summit.
    Today we begin our consideration of all of these issues 
with three administration witnesses. I want to welcome Under 
Secretary of State for Political Affairs, Marc Grossman; Under 
Secretary of Defense for Policy, Doug Feith; and the Commander 
in Chief, U.S. European Command, and NATO's Supreme Allied 
Commander-Europe, General Joe Ralston. It is good to have all 
three of you before us again.
    Before I call on Senator Warner, I want to extend a warm 
welcome to Rudolph Petan, who is the Chairman of the Committee 
for Defense of the National Assembly of the Republic of 
Slovenia. I am wondering, if he is in the room, whether he 
would stand and be recognized.
    It is nice to have you with us. We understand your 
ambassador is also with you and there may be some other 
ambassadors from other countries who are with us here today. I 
do not know all of them. I wonder if all the ambassadors who 
are here would please stand and be recognized. Nice to have you 
all with us.
    I wonder if you could tell us what countries you are from, 
please.
    Romanian Ambassador. Romania.
    Slovenian Ambassador. Slovenia.
    Lithuanian Ambassador. Lithuania.
    Chairman Levin. Nice to have you all.
    Senator Warner, let me first thank you for pressing the 
urgency of this hearing. It is a very important hearing, as you 
have pointed out to me, and I am delighted now to call upon 
you.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I 
commend you on your statement. I will ask that my entire 
statement be placed in the record, along with the statement of 
Senator Thurmond, and I shall give portions of it now.
    I begin by stating, consistent with your opening statement, 
that our comments are not to be interpreted in any way other 
than with the greatest respect for NATO and our constructive 
concern with regard to its future. I want to make that very 
clear. I have been singled out as a critic since I took a 
strong stance during the last debate about NATO expansion. I 
hope not to take that stance in the future and will do so only 
if I believe that those steps have to be taken here in the 
Senate.
    I asked the chairman to schedule this hearing because I 
would not desire to see the Senate faced with a fait accompli 
some time late next year, and we have to just simply say a yes 
or a no. This committee authorizes, and the Appropriations 
Committee appropriates, enormous sums of money for NATO. I feel 
that Congress should be a partner that is consulted, 
particularly this year when we are going to consider the 
enlargement issue.
    I hope our two witnesses, Secretary Grossman and Secretary 
Feith, can assure this committee, Congress, and most 
particularly the Senate, given its advise and consent role with 
regard to treaties and international agreements, that we will 
be made a partner in the consultations and the deliberations 
with regard to the expansion issues and any change with regard 
to the missions of NATO.
    With that in mind, I now pose several questions at the 
outset. I join the chairman in asking: What is the future role 
and mission of NATO in a world where threats to NATO members 
are now non-state in many respects, in the form of terrorism, 
through global syndicates and organizations, and other threats 
that were never envisioned at the time the NATO charter was 
drawn up?
    The question is: Is NATO beginning to equip itself with 
regard to these new threats? General, I hope you can comment on 
that. You have observed, as have others in your position, the 
magnificent performance of our forces, the forces of Great 
Britain and other nations in the Afghan region. The special 
operations teams--15, 20-member teams, highly trained to go in 
and perform a mission--which the chairman and I observed in our 
visit to that region in November are a perfect example.
    Now, that is something that NATO should begin to envision. 
No longer are we faced with one division up, one division in 
reserve. That type of warfare is most unlikely. I am not saying 
that it should be totally eliminated from your operational 
plans, but it is most unlikely. This type of operation 
capability that we have witnessed in Afghanistan would be 
needed by NATO if it were to be engaged to repel these global 
threats of terrorism.
    The chairman referred to the technological gap. It is 
growing and it is of great concern. You quoted Secretary 
General Robertson. I would like to give a little larger quote. 
We know Lord Robertson very well. The chairman, members of this 
committee, and I have met with him regularly when he was the 
Defense Minister for the United Kingdom. He has done a 
brilliant job, I think, in his role as Secretary General. Let 
me quote him: ``The United States must have partners who can 
contribute their fair share to operations which benefit the 
entire European Atlantic community. But the reality is . . . 
hardly any European country can deploy usable and effective 
forces in significant numbers outside their borders and sustain 
them for months or even years, as we all need to do today. For 
all Europe's rhetoric and annual investment of over $140 
billion by NATO's European members, we still need U.S. help to 
move, command, and provision a major operation. American 
critics of Europe's military incapability are right. So, if we 
are to ensure that the United States moves neither towards 
unilateralism nor isolationism, all European countries must 
show a new willingness to develop effective crisis management 
capabilities.''
    I know of no initiative here in the Senate towards any 
unilateralism or isolationism. I do not know how he selected 
those rather strong words. But we have an obligation to our 
taxpayers in the country who are contributing significant sums, 
and to the men and women in uniform who are posted to the NATO 
commands, to make sure that this remains a viable organization 
and is worthy of our contributions.
    History reflects the importance of the U.S. presence on the 
European continent. There may be old jealousies and 
animosities, but we have, as a Nation, kept a steady hand to 
reconcile differences between those countries that go back for 
generations. I think they recognize that and that we wish to 
remain a partner--not a big brother, a partner--in this 
operation.
    Now, as to the potential future enlargement, we welcome the 
ambassadors and others who will be following the proceedings in 
the Senate. I fully appreciate and respect the desire of your 
nations to be assessed as fairly and objectively as possible as 
this question of enlargement comes up.
    I think we have to step back and say, is it really time to 
move forward with any significant enlargement when internally 
we recognize certain problems, from equipment to missions? 
Would it not be better just to let this round pass by, take our 
house and put it in order, and then begin to look to the future 
for such enlargement as we feel is necessary?
    My concerns with NATO expansion have not changed 
substantially since the full Senate last debated the issue in 
1998 because, if anything, the problems revealed by the Kosovo 
operation in 1999 have increased my apprehension about the 
future rounds. I start from the basic premise that NATO is 
first and foremost a military alliance. That is why NATO was 
founded. That is why it continues today. Nations should be 
invited to join NATO only if there is a compelling military, 
not political, rationale for additional members and only if 
those additional members will make a positive military 
contribution to the Alliance.
    In my view that case has yet to be made for the nine 
nations currently seeking consideration. We must always keep in 
mind that any country joining NATO will be extended the 
protection of Article V of the NATO charter, which states: ``An 
armed attack against one or more of them in Europe or North 
America shall be considered an attack against them all.'' That 
article was proudly invoked for the first time following the 
attacks on the United States on September 11.
    This security guarantee is the most solemn commitment any 
nation can make. Are the people willing to risk U.S. military 
troops and expend significant taxpayer dollars to defend the 
nine additional nations seeking NATO membership pursuant to 
Article V? That is the fundamental question.
    If NATO expands beyond its current 19 members, some fear--
and I share that fear--that the Alliance will become 
increasingly inefficient and indecisive, a mini-United Nations 
for Europe, but a United Nations without a strong military 
capability. We saw the Kosovo operation. We saw how 19 members 
worked on those issues. You add 9, you get to 28. Does that 
make the Alliance an almost unmanageable command challenge from 
a military perspective?
    I say this only because of my sincere respect for the tens 
of thousands of men and women who have proudly served in NATO 
and the very large commitments of funds from their respective 
nations. General Ralston, what number commander are you in the 
history of NATO?
    General Ralston. Thirteenth.
    Senator Warner. Thirteenth commander.
    Senator Lieberman. Lucky 13.
    Senator Warner. In the annals of military history of the 
western world, there are times when there is a great regiment 
or a great division and when that nation can no longer support 
that regiment or division, rather than let it atrophy or change 
in some way, they proudly, as we say in the military, retire 
the colors. Maybe we should consider proudly retiring the 
colors of NATO and start over again and figure out what it is 
we need by way of an organization and such military 
capabilities to meet the future threats, and therefore preserve 
the integrity and the traditions of this organization which so 
many have given their lives and their careers to make it what 
it is. I think that is something that fundamentally we ought to 
take a look at.
    I thank you, Mr. Chairman.
    [The prepared statements of Senator Warner and Senator 
Thurmond follow:]

               Prepared Statement by Senator John Warner

    Mr. Chairman, I thank you for scheduling this important hearing on 
the future of the NATO Alliance and the military implications of 
further NATO expansion. As I said in my January 3 letter to you 
recommending early hearings on NATO expansion, this is an important 
issue that deserves serious and thorough review by the Senate. Today, 
we begin the committee's consideration of this critical issue.
    The broad issue before us this morning is the future of NATO--in my 
view, the most valuable security alliance in the history of the United 
States, if not the world. In light of the events of the past several 
years, and particularly events since September 11, NATO is now 
confronted with some fundamental questions about its future:

        <bullet> What is the future role and mission of NATO in a world 
        where threats to NATO members are now primarily non-state 
        global threats, such as global terrorist organizations?
        <bullet> Is NATO equipping to meet the asymmetric threat?
        <bullet> Will NATO be able to operate as an effective military 
        alliance if NATO's European members continue not to make the 
        critical investments in defense that the United States is 
        making?
        <bullet> Are the other 18 nations in NATO concerned with the 
        technological gap between the United States and their nations 
        and do they plan to address this problem?
        <bullet> Is bigger better--what are the compelling reasons to 
        expand?

    Let me quote from NATO Secretary General Robertson's recent speech 
on NATO's future at the recent Wehrkunde Conference in Munich:

        ``The United States must have partners who can contribute their 
        fair share to operations which benefit the entire Euro-Atlantic 
        community. . . But the reality is . . . hardly any European 
        country can deploy useable and effective forces in significant 
        numbers outside their borders, and sustain them for months or 
        even years as we all need to do today. For all Europe's 
        rhetoric, and annual investment of over $140 billion by NATO's 
        European members, we still need U.S. help to move, command and 
        provision a major operation. American critics of Europe's 
        military incapability are right. So, if we are to ensure that 
        the United States moves neither towards unilateralism nor 
        isolationism, all European countries must show a new 
        willingness to develop effective crisis management 
        capabilities.''

    Against this backdrop of questions on NATO's future is the issue of 
the further enlargement of NATO--which will be a main focus of the 
Prague Summit in November. Currently nine nations are under 
consideration for NATO membership. My question is this: should we be 
considering dramatically expanding what is fundamentally a military 
alliance at the same time we are trying to define NATO's future mission 
and address critical shortfalls in current NATO member military 
capabilities and spending? Should NATO not get its own house in order 
before considering further expansion?
    My concerns with NATO expansion have not changed substantially 
since the full Senate last debated this issue in 1998. If anything, the 
problems revealed by the Kosovo operation in 1999 have increased my 
apprehension about future rounds of NATO enlargement.
    I start from the basic premise that NATO is first and foremost a 
military alliance. That is why NATO was founded; that is why it 
continues today. Nations should be invited to join NATO only if there 
is a compelling military rationale for additional members, and only if 
those additional members will make a positive military contribution to 
the Alliance. In my view, that case has yet to be made for the nine 
nations currently seeking NATO membership.
    We must always keep in mind that any country joining NATO will be 
extended the protection of Article V of the NATO charter which states, 
``An armed attack against one or more of them in Europe or North 
America shall be considered an attack against them all.'' That article 
was invoked for the first time following the attacks on the United 
States on September 11.
    This security guarantee is the most solemn commitment any nation 
can make. Are the American people willing to risk U.S. military troops 
and expend taxpayers' dollars to defend the nine additional nations 
seeking NATO membership? This will be a hard sell, given the declining 
defense budgets of our current NATO allies and the meager military 
contributions that could be made by the nine aspirant countries.
    If NATO expands beyond its current 19 members, some fear that the 
Alliance may become increasingly inefficient and indecisive--a mini-
United Nations for Europe. We witnessed some of the problems involved 
in operating by consensus during the Kosovo air operation. So the 
question is, will the addition of up to nine new member states--for a 
total of 28 nations--make that problem potentially unmanageable from a 
military perspective?
    NATO is an alliance that has worked well for over 50 years, beyond 
the expectations of its founding fathers. Before we make a decision to 
enlarge the Alliance further, we need to carefully review and study all 
possible ramifications of expansion. We begin that process today.
    Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman.
    Mr. Chairman, I join you in welcoming our distinguished panel. I 
especially want to welcome General Ralston, who has appeared before 
this committee numerous times and has always provided incisive and 
beneficial testimony.
    As the United States focuses on the events of September 11 and its 
role in the 21st century, so must NATO refocus its role. This fall, 
NATO will hold a summit in Prague that in my judgment will redefine the 
Alliance's 21st century role and mission in post-Cold War conflicts. In 
my judgement, a significant objective of the conference must be the 
restructuring of Europe's military capabilities that have fallen behind 
ours. Secretary General Lord Robertson stated in a recent article: ``I 
want Europe to share the military burden, because it is in our 
interests for Europe to play a stronger role in the trans-Atlantic 
partnership, and take on more defense and security responsibilities. My 
aim is for the European countries, in NATO and the [European Union], to 
have a military capacity that better reflects their political and 
economic might.''
    Mr. Chairman, I applaud the Secretary General's comments and hope 
our European allies will heed his words.
    Mr. Chairman, I look forward to the panel's testimony and a 
continued strong NATO.

    Chairman Levin. Senator Warner, thank you for your very 
important and heartfelt statement.
    While we are considering the expansion of NATO, I notice 
that our witness table is shrinking.
    Before I call on our witnesses, let me see if any of our 
colleagues would like to give an opening statement.
    Senator Lieberman.

            STATEMENT OF SENATOR JOSEPH I. LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. I appreciate it. I 
do have a statement which I would ask be included in the 
record. I thank you for holding the hearing. I thank our 
witnesses, and I thank Senator Warner for his thoughtful 
statement. I know that in some sense his concern about the 
Freedom Consolidation Act of 2001, a bill of which I am a co-
sponsor, has engendered this hearing, and that is appropriate 
and constructive.
    I certainly agree with him that as the administration makes 
these momentous decisions, Congress and the Senate particularly 
should be fully involved, not afterward, but as policy is being 
formulated.
    I, as my sponsorship of this bill indicates, have a 
different point of view here, with all respect. If I may try to 
briefly state it historically, NATO is the greatest military 
Alliance in the history of the world, created after the Second 
World War, for the central purpose of defending Western Europe 
and the values of freedom that we share with our European 
allies from Soviet threat, from at the worst Soviet invasion.
    I think NATO also always had another purpose, which was to 
be a unifier of Europe and the U.S., and particularly Europe 
post-war, to create a structure in which the nations of Europe 
who had fought one another would build a community together. Of 
course, it has done that magnificently.
    But we have come a long way. We obviously won an 
extraordinary victory over the Soviet Union in the Cold War. I 
know that there are some ways in which history tells us that 
when the reasons that motivated the creation of an alliance no 
longer exist that the alliance withers. While we were 
victorious in the Cold War, it seems to me that the purpose of 
sustaining European unity within itself, now on a broader 
scale, as the Berlin Wall falls and the movement of freedom, 
our values, spread to the East across Europe, that remains a 
very strong purpose.
    Also, the Alliance takes on broader regional and global 
responsibilities for security and in doing so is a tremendous 
asset to the United States, as the sole superpower in the 
world. In some ways my own feeling is that NATO has evolved 
since the Berlin Wall collapsed, and it has evolved in its 
mission. Its history has drawn it to go to places where its 
founders never could have imagined it would have gone, all in 
pursuit--and this is my most important point, to me anyway--of 
the values that motivated the creation of NATO in the first 
place, which are the protection, advancement, and spread of 
freedom.
    On the military part, I want to trace developments here. 
For years, physical defense of member nations' home soil as 
defined in Article V of the North Atlantic Treaty has been at 
the core of our Alliance. That mission changed in the 1990s 
with Bosnia and then Kosovo, as NATO applied appropriate force 
outside, although just outside, its immediate borders for the 
common good of stability in Europe and to advance ideals, 
certainly anti-genocidal ideals, that emerged naturally from 
the Second World War.
    Now we have taken an additional turn in response to the 
horrific attacks on the U.S. of last September 11, where NATO 
invoked Article V for the first time in its history, responding 
to attacks on our soil by supporting a war against an enemy 
half a world away from the United States--hard for the founders 
of NATO to have conceived of.
    But I think this evolution in our Alliance is both 
realistic and healthy and very much in advancement of the 
values that NATO was founded on. Technology has obviously 
collapsed geographical distinctions to the point that today a 
plot conceived anywhere in the world can pose just as serious a 
threat to NATO's members' security as an aggressive military 
movement by a nearby neighbor nation.
    I think NATO has to accept that new reality, has accepted 
that new reality, and has to embrace a more expansive 
geographical understanding of its mission. That is why I am a 
co-sponsor of the Freedom Consolidation Act. I believe NATO 
membership should be open to a large number of nations. If it 
is, NATO can become an even more potent protector of trans-
Atlantic and global security from threats that include 
terrorism.
    It can be a better facilitator of regional conflict 
resolution and a more influential incubator of democracy. 
Expanding NATO to countries that are mentioned in the act that 
I referred to--Estonia, Latvia, Lithuania, Slovenia, Slovakia, 
Bulgaria, and Romania--is a way to secure for as far as we can 
see forward the historic victory of American ideals that we won 
in the Cold War.
    Do we accept responsibilities thereby? Yes, we do. But I 
think that they are worth accepting. I believe that any 
democratic European--and I stress--any democratic European 
nation that meets NATO's criteria and can be a net contributor 
to the security of the United States and of the Alliance as a 
whole should be admitted to NATO, hopefully this November at 
the meeting in Prague.
    I look forward to hearing how the administration is 
assessing the candidates. I look forward to working with the 
administration on this, and I am anxious to hear today how the 
administration intends to involve the Senate and the House in 
these deliberations approaching the Prague summit.
    Thanks, Mr. Chairman, for giving me the opportunity to say 
that.
    [The prepared statement of Senator Lieberman follows:]

           Prepared Statement by Senator Joseph I. Lieberman

    I welcome Under Secretary of State Grossman, Under Secretary of 
Defense Feith, and NATO Supreme Commander General Ralston, and thank 
them for their service to our Nation.
    Our subject is the North Atlantic Treaty Organization--an alliance 
of free, democratic nations--unique in human history for its 
characteristics and its success. Today, the Alliance's principled 
strength not only protects the peace and freedom of the transatlantic 
community, but contributes to building a world that is ever more free, 
more democratic, and more prosperous. Partner states are learning from 
NATO and striving to emulate the Alliance's standards of military 
professionalism, transparent civilian control of military power and 
resources, and the legal and civil foundations of popular legitimacy.
    NATO is a set of indispensable tools for the security of member 
states. Through its history, the Alliance has undergone stresses and 
strains. Like a marriage, a political and military alliance among free 
nations requires work and compromise. The United States and its allies 
have overcome earlier differences, but we confront new strains today: 
an alleged ``divergence of values''; budgetary decisions between costly 
defense transformation and the demands of diverse and aging societies; 
and the need to conceive of defense differently in light of terrorists' 
previously inconceivable brutality. Our changing relations with former 
adversaries and the violent acts of new antagonists put the 
transatlantic Alliance at a crossroads with regard to strategy and 
mission, capabilities and the will to use them. We and our allies can 
thrash out our differences over these matters as we have in the past, 
as an alliance of partners. We cannot succeed if our manner of 
communication deteriorates to that of a superpower and its satellites. 
I look forward to being reassured by our witnesses that we will avoid 
that fate. Apart from the quality of our interaction within NATO, we 
have important policy issues on which I would like to comment briefly.
    Like the United States on a bilateral basis, the NATO Alliance is 
engaged in a crucial partnership with the Russian Federation. We cannot 
contain the proliferation of missile technology or prevent transfers of 
plutonium or chemical or biological weapons agents to potential 
terrorists or aggressors without Russian cooperation at many levels. 
Russia can help in combating terrorism in much of Central Asia and 
beyond. Russia's peacekeeping assets and experience complement the 
Alliance in multilateral missions along the periphery of NATO's area of 
responsibility. I trust our witnesses today will lay out the thinking 
in the administration and at Alliance headquarters on how the proposed 
NATO-Russia Council and other NATO mechanisms involving Russia might be 
used in the coming years.
    For years, physical defense of member nations' home soil, as 
defined under Article V of the North Atlantic Treaty, has been the core 
of our Alliance. That mission changed with Bosnia and then Kosovo, as 
NATO applied appropriate force just outside its immediate borders for 
the common good of stability in Europe.
    The awful events of September 11 prompted further evolution, as 
NATO invoked Article V, responding to the attacks on American soil by 
supporting a war against an enemy half a world away from the United 
States. This evolution in Alliance thinking is realistic and healthy. 
Technology has collapsed geographical distinctions to the point that 
today, a plot conceived in North Africa, South America or Southeast 
Asia can pose just as serious a threat to NATO members' security as an 
aggressive military movement by a nearby nation. I believe NATO must 
accept this new reality and embrace a more expansive geographical 
understanding of its mission.
    Moreover, Alliance members must close the growing gap in armed 
forces capabilities between the United States and our European NATO 
partners. As we know from our experience in Kosovo, the gap isn't just 
lingering, it is widening. Allowing it to persist threatens Europe's 
security, puts a disproportionate burden on the United States, and 
creates an awkward imbalance in the Alliance. America's military is the 
best in the world for a simple reason: we spend a lot to train our 
forces and to buy the sophisticated weapons systems they employ in 
combat. The administration's proposed level for military spending for 
fiscal year 2003 exemplifies our ongoing commitment to defense. I look 
forward to hearing from Secretary Feith and General Ralston about how 
plans for spending and transformation of U.S. capabilities relate to 
our role in NATO. But my strongest message is for our allies: It's time 
for all NATO nations to overcome internal political resistance and make 
a priority of upgrading and transforming their capabilities.
    I hope we will hear in detail today how the administration is 
persuading our allies to invest much more in capabilities geared toward 
likely future missions and interoperability. But political will and 
commitment drive capabilities. Frankly, we must also ask: Do our allies 
agree with us on the nature of the threats we face and on what missions 
are likely? Is the Alliance united on the use of collective military 
force to combat instability in the broadest transatlantic region, 
instability arising from terrorism or regional aggression?
    Finally, Mr. Chairman, I note that today's hearing responds to the 
request of Senator Warner to examine the Freedom Consolidation Act of 
2001, a bill I co-sponsor, and the larger question of U.S. policy 
toward admitting new members to the Alliance. I believe NATO membership 
should be open to a large number of nations. If it is, NATO can become 
an even more potent protector of transatlantic and global security from 
threats including terrorism, a better facilitator of regional conflict 
resolution, and a more influential incubator of democracy. Any 
democratic European nation that meets NATO's criteria and can be a net 
contributor to the security of the United States and of the Alliance as 
a whole should be admitted. I support welcoming into NATO at the Prague 
summit as many candidate nations as meet these criteria. Estonia, 
Latvia, Lithuania, Slovenia, Slovakia, Bulgaria, and Romania have made 
impressive progress in that direction. I look forward to hearing how 
the administration is assessing the candidates and working with them to 
improve their democratic institutions and military capabilities. I hope 
we will also hear today how the administration is working with allies 
to achieve a consensus on enlargement before the Prague summit. 
Finally, I am interested in how Croatia and other Partnership for Peace 
member countries may advance their relationships with the Alliance.

    Chairman Levin. Thank you, Senator Lieberman.
    Did Senator Warner want to be recognized?
    Senator Warner. Our colleague stated quite accurately that 
I did block the passage by the Senate of the Freedom 
Consolidation Act of 2001, and I did so not because of specific 
objections to the proposed legislation, but the procedural 
manner in which it was being handled. Namely, it was the last 
day of the session, there were not more than two or three 
Senators on the floor, and therefore it should not have been 
acted upon by the United States Senate on what we call the 
unanimous consent calendar, where we just accept it without any 
debate, without any hearings.
    I think this is deserving of very careful consideration by 
the entire Senate. Perhaps this hearing will suffice, but if 
not additional hearings should be ordered so that we can 
consider it, and then have some presentation and debate on the 
floor of the Senate before we adopt it.
    Senator Lieberman. Thanks, Senator Warner. I absolutely 
agree, and I think this is very constructive.
    Chairman Levin. We will continue on our early bird venture.
    Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. I thank you, Mr. Chairman.
    In 1999 when I approached the issue of NATO enlargement, I 
said: ``I am concerned that the organization is now at a fork 
in the road. One path leads to continued relevancy and 
continued success, the other leads to disunity and a loss of 
direction and also relevance.''
    Today I share the Senator from Virginia's concern. I am 
even more concerned with the future of NATO. It was created, as 
has been said and will be said by virtually everyone, as a 
defensive alliance and remained so through the end of the Cold 
War. But because of a myriad of reasons, the military 
capability gap, which does exist, current and emerging 
worldwide threats, lack of a direct threat to the continuing 
viability of Europe, the emergence of the European Union (EU) 
and its military capability or the lack of it, the very growth 
of NATO membership, I question whether NATO is or can remain 
purely a defensive alliance.
    There is going to be a great deal of pressure to continue 
to think of NATO for what it was during the last 50 years--I 
have that prejudice--a defensive Alliance of like-minded 
nations focused on a common threat. No matter how loudly we 
proclaim that NATO remains what it was and its formula for past 
success guarantees continued success, it seems to me we must 
face the fact that NATO has changed and will continue to 
change.
    Now, how the transformed NATO fits into our notion of vital 
national interest must be explored and examined--that is why we 
are having this hearing. Certainly what has not changed is that 
the United States must remain linked to our allies in Europe.
    That is not the question or the issue. If NATO is no longer 
primarily a defensive Alliance, then I would challenge any 
Senator to take a look at the strategic concept adopted two 
springs ago, at the 50-year anniversary of NATO, and read the 
obligations of what we now have in that strategic concept. I 
question seriously whether many Senators have read that and 
know of our obligations in regards to this organization.
    Will it remain viable and will it remain relevant? That is 
the question, Mr. Chairman, and I thank you for holding the 
hearing.
    I do want to say one other thing. Senator Dick Lugar has to 
be one of the strongest supporters of NATO that I know of in 
Congress. When he speaks people listen. He is a recognized 
expert and observer in regards to foreign policy. He recently, 
on the 19th of January, delivered a very hard-hitting speech to 
NATO in Brussels, and he said: ``If NATO does not help tackle 
the most pressing security threat to our countries today, a 
threat I believe is existential because it involves the threat 
of weapons of mass destruction, it will cease to be the premier 
Alliance it has been and will become increasingly marginal. As 
important as they are, neither NATO enlargement nor NATO-Russia 
cooperation is the most critical issue facing our Nation today. 
That issue is the war on terrorism. NATO has to decide whether 
it wants to participate in this war. It has to decide whether 
it wants to be relevant in addressing the major security 
challenge of our day.''
    That is a pretty strong warning, strong words from one of 
the Senate's most pro-NATO Senators. I think it is food for 
thought. I look forward to the questions and I thank the 
witnesses.
    Chairman Levin. Thank you, Senator Roberts.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. I want to 
welcome Secretary Grossman, Secretary Feith, and particularly 
welcome General Ralston, who is a great leader of our forces in 
Europe. Thank you, Joe, for being here.
    I was particularly struck by Senator Warner's questions 
which are fundamental to the consideration of all of these 
issues. Although some on the panel have reached a conclusion 
one way or the other, I think for many the issue is still 
subject to debate and questioning. But those questions, 
Senator, are profound and very important.
    NATO was created, as we all know, as both a military and a 
political alliance, predominantly a military alliance in its 
first several decades, I think, particularly focused on, as 
Senator Roberts said, the defense of Europe. It was a defense 
from a foreign threat, if you will, or at least an external 
threat, the Soviet Union, and also from internal disputes, 
which had cast Europe into two major world wars.
    All of that has changed fundamentally in the last several 
years. Indeed, it is appropriate at this crossroads that we 
talk about the new mission of NATO and a new vision for NATO. I 
think we have to approach it with a recognition of the changes 
and also with the questions that Senator Warner alluded to 
about its character today: Is it primarily a military alliance, 
or has it become a political alliance? Is it a way in which we 
can expand the values of the United States, or is it something 
that is more of an operational military arrangement?
    These are the issues I think we will confront over the next 
several months as we consider the issue of expansion. There is 
no avoiding, one, the issue, nor, two, the reality that an 
alliance of some form, be it political more than military or 
military more than political, is in the best interests of the 
United States.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. Let me inquire of 
the chair, we are doing opening statements now and then what 
are we going to have in the way of rounds?
    Chairman Levin. Depending on how long their statements are, 
I hope the first round would be perhaps 8 minutes long.
    Senator Inhofe. I would like to make a brief opening 
statement. General Ralston, I have had a chance to be over 
there where we are training, visiting the hospital at Lansduhl, 
talking to these kids when they are coming back. Without 
exception, they all said--they have this spirit of patriotism 
and this drive--that they all want to get back to their units, 
they all want to make a career. So you have done a wonderful 
job over there in instilling this in them.
    I particularly remember a young lady whose name was Stennis 
and she was on the U.S.S. Stennis by coincidence. She had an 
accident in a refueling operation. You are familiar with this. 
She ended up going overboard and crushing her lungs, and yet 
she was anxious to get back.
    I see all this as it relates to NATO. I say the same thing 
to Secretary Feith. You and I were in the Fletcher conference 
as participants together, and I remember you said NATO would be 
one of your great challenges. I would hope that during your 
opening statements, during this meeting, that we can talk about 
what effect the expansion of NATO is going to have on our tempo 
of operations (OPTEMPO).
    I listened to Senator Lieberman and I greatly respect him, 
but I disagree with the statement that they can be a net 
contributor to the security of the United States. I am not sure 
that they have the capability of doing that militarily and 
politically.
    We were divided on our participation in both Bosnia and 
then in the Balkans, and I think it was because of NATO. That 
was the argument that was used to get us in there. My concern 
was at that time we were down to about one-half the force 
strength that we had been during the end of the Persian Gulf 
War, and can we really expect to maintain that OPTEMPO? I am 
not sure just how many Guard and Reserve we have over there 
right now, but they cannot sustain that level. We all know 
that.
    The budget was deficient in two areas, military 
construction and force structure. So I am concerned about how 
our participation in the expansion of NATO will affect our 
capability to meet our own strategy, and that is to defend 
America.
    Those are the concerns I have shared with you privately 
before, and I hope we get a chance to address them in this 
hearing.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Ralston, it is a pleasure to have you here on this 
side of the water this week. Last week we spent time on your 
side in Brussels. I appreciate very much the information that 
you were able to provide to us as we spoke that time about NATO 
and the future of NATO.
    Of course, Secretary Feith, I welcome you back, and 
Secretary Grossman. I am very interested in your comments, your 
thoughts about the future of NATO, and particularly as to the 
future relationships in the world. We are talking about 
membership in effect, but at the same time it is clear we are 
talking about mission, and we are talking about capacity, 
contribution of members. We may have to redefine 
``contribution'' in terms of ability of allies to be able to 
fight the kind of war that we just finished fighting in 
Afghanistan.
    With the technology that we are facing and the 
transformation of the military as we move forward, it seems 
clear to me based on what I have learned and continue to see, 
that our technology and our ability in the United States 
perhaps supersedes the ability of others to have that kind of 
technology. Whether it is precision bombs or whatever it may 
be, we seem to lead that way.
    My concern about NATO and expanding it is a little similar 
to what I heard Senator Warner say. That is that expanding it 
may mean bringing individuals in, and perhaps it is on the 
basis of having allies, having friends, being supportive of 
democracy, and moving forward in that direction. But is that 
the same direction that we want to go for mutual defense, or 
would we be expanding the obligation of the United States to 
include others if we are going to have the preeminent role in 
providing the technology, particularly as it relates to the 
percent of our budget, the GDP, that we are investing in 
defense spending, on a comparative basis to our friends and our 
allies in other parts of the world?
    Contributions can come in all flavors. Clearly, passing the 
plate to expand the capacity of technology and the cost of 
technology from some of those who may not be in a position to 
do much technology on their own and would like to support the 
United States in the effort that we have for technology. I am 
not recommending that. I am suggesting that there may be all 
kinds of ways to define contribution and the relationship.
    Before we make a decision about expanding any kind of 
membership, I think we in fact do have to have an idea of what 
the mission is and what the expectation is of all the members 
to the mission. Lest it be said that we are being unilateral, I 
think it is important for us to ask as part of the obligation 
that we have, are we expanding our role disproportionately to 
the process by expanding the number of members in the 
organization?
    Does it become a mini-United Nations? Should it become like 
that? I am not suggesting for a minute that we ignore it or we 
scrap it, but I do think that we have to have it well-defined 
before we decide whether we add other members.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Chairman Levin.
    I am really proud of the nations that desire to join NATO. 
It is a thrill to see these countries with whom not long ago we 
had hostile relationships, who were nothing like a democracy, 
totalitarian and oppressing their people in so many different 
ways. So it is a positive event in the world that we have an 
opportunity to discuss whether or not NATO should include them.
    I share some of the concerns that have been raised about 
the broadening of the mission of NATO. Exactly what does it 
stand for? What does it mean? We are talking about immigration, 
ethnic cleansing, crime, economic issues. Are those now going 
to be part of the treaty? I am concerned about that. Others 
have expressed that better than I.
    My comments at this point would be: This is a good 
development; whatever we do, we need to affirm our commitment 
to seeing these nine nations and others develop economically 
and politically, develop their security, and enhance their 
personal quality of life in those countries, which in the long 
run will advance our national interest.
    One of my specific concerns, however, is that as the group 
gets larger I will want to inquire of you what the power of one 
nation is. What power does that nation have to block an 
otherwise unanimous vote or unanimous agreement? I remember 
distinctly during the Kosovo war that we had to have nations 
vote on targets of our United States Air Force as we carried 
that through, and I remember the commander of that air campaign 
testified with some emotion in this committee that had they 
been allowed to be more aggressive as he recommended from the 
beginning, the war would have ended much sooner, with much less 
loss of life.
    This unanimous agreement caused us to be less effective in 
ending the war promptly and it exacerbated the loss of life. 
That is one of my concerns.
    Thank you, Mr. Chairman, for this hearing.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Landrieu.

             STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you. I will be brief.
    Let me say from the opening that I am supportive of the 
expansion of NATO and think it is a most positive development 
that our Alliance that has served this country and this world 
so well would want to expand. I do acknowledge, though, along 
the lines of what Senator Roberts said and according to Senator 
Lugar's statement, that the threat has fundamentally changed. 
Therefore, the purpose of the Alliance needs to also change and 
to be brought into more focus for the challenges today.
    I think the threat of terrorism is something that, while 
the United States can fight unilaterally, we would be much more 
effective fighting within the structure of an Alliance. Just 
because the threat has changed, which is obvious, the need for 
alliances I think is greater today than at almost any time, and 
I mean that.
    Second, I also think the expansion should be focused on 
providing strategic strength to the Alliance. Looking to the 
south in terms of the strategic expansion, as you can see from 
the map, would be something that we need to keep in focus.
    Finally, what Senator Nelson mentioned I think is 
important, and that is the capability gap between the members.
    Those are some of the things that I am interested in.
    Chairman Levin. Thank you very much, Senator Landrieu.
    Now our witnesses. Secretary Grossman.

 STATEMENT OF HON. MARC I. GROSSMAN, UNDER SECRETARY OF STATE 
                     FOR POLITICAL AFFAIRS

    Mr. Grossman. Senator Levin, Senator Warner, other members 
of the committee: First of all, let me say what an honor and a 
privilege it is for me to be here. I know I speak on behalf of 
my colleagues that we are very glad to have this conversation, 
to have this consultation, to have this hearing about where 
NATO is headed, what we want for NATO, and, as Senator Warner 
said, how to make sure that the Senate of the United States is 
a partner in trying to figure this out with us.
    Mr. Chairman, with your permission I also have a statement 
for the record. I would like to use part of it and, with the 
permission of General Ralston and Under Secretary Feith, if I 
might give a broad overview of where we stand. Then, of course, 
they would each make a statement, and we would be very glad to 
answer any questions anybody might have.
    Chairman Levin. All the statements will be made part of the 
record in their entirety.
    Mr. Grossman. Thank you, sir.
    Before I do anything else, though, I want to make sure that 
I thank you and so many other Members of the Senate for what 
you have done, are doing, and I know will do to continue to 
support NATO, as many of you have said, the greatest alliance 
in history. Senator Warner, that very much includes 
constructive criticism. They get it from us, they get it from 
you.
    I have had the good fortune to take advice and consent from 
all of you over the years and I believe we always made better 
decisions because of it.
    When I remember--and Senator Roberts and Senator Warner 
talked about it--to the debate in 1998 and 1999, I recall the 
importance of Senator Kyl's amendment. I recall the work that 
many Senators did in this committee and in other committees, 
including Senator Helms, Senator Biden, and, as Senator Roberts 
said, Senator Lugar. For my part, Senator Warner and Mr. 
Chairman, I can tell you that we will be in closest possible 
consultation with the Senate, not when this is all over, but as 
much as possible in advance.
    Mr. Chairman, you said in your invitation letter that we 
come to you at a time when people on both sides of the Atlantic 
are asking questions about the future of NATO. Some people run 
away from this debate. I welcome this debate. I think NATO 
governments, our Senates, our Houses, our Parliaments, our 
people, ought to be talking about the future of NATO. That is 
what a democratic military, political, and security policy is 
all about.
    We all know the future of NATO has been debated before, and 
we have always come back to the fundamentals: values matter, as 
Senator Lieberman said; collective defense matters; 
capabilities matter; the trans-Atlantic relationship matters; 
and because NATO has always adapted to the challenges that have 
been before it, I believe NATO matters.
    Before I try to answer some of the questions, Mr. Chairman, 
in your invitation letter, I ask you to consider three 
quotations. First quotation: Winston Churchill, Fulton, 
Missouri, March 5, 1946: ``From Stettin in the Baltic to 
Trieste on the Adriatic, an iron curtain has descended across 
the continent. Behind that line lie all the capitals of the 
ancient states of Central and Eastern Europe: Warsaw, Berlin, 
Prague, Vienna, Budapest, Belgrade, Bucharest, and Sofia.''
    The second quotation: Vaclav Havel in Prague July 1, 1991: 
``Prague, once the victim of the Warsaw Pact, has become the 
city where the Warsaw Pact met its end as an instrument of the 
Cold War.''
    Third: President George Bush, Warsaw, June 15, 2001: ``All 
of Europe's democracies from the Baltics to the Black Sea and 
all that lie in between should have the same chance for 
security and freedom and the same chance to join the 
institutions of Europe as Europe's old democracies have.''
    I think we have come a long way and, like Senator Sessions, 
I believe these are positive developments.
    Let me state clearly, as you have all said, that the North 
Atlantic Treaty Organization remains a fundamental pillar of 
America's foreign and defense policy. As President Bush's 
speech in Prague shows, we want NATO to succeed. I believe that 
this Alliance should be an even more effective tool in our 
world after the 11th of September, and I have come to the 
conclusion that NATO is more important after the 11th of 
September and not less important.
    The attacks of September 11 and NATO's rapid and steadfast 
response prove NATO's continuing value. As many Senators have 
said, invoking Article V for the first time in NATO's history 
sent a clear message that the Alliance is united and determined 
to defeat terrorism.
    We greatly value NATO's collective response as well as the 
contribution of individual allies to Operation Enduring 
Freedom, to the International Security Assistance Force in 
Kabul, and, as the chairman said, NATO Airborne Warning and 
Control Systems (AWACS) have logged over 2,600 hours patrolling 
the skies over American cities. As he also pointed out, NATO's 
ships patrol the eastern Mediterranean and all NATO allies have 
provided blanket overflight rights, access to ports and bases, 
refueling assistance, and stepped-up intelligence efforts.
    Fifty years of cooperation through NATO made natural the 
participation of allied and partner forces in these operations. 
General Ralston and also Under Secretary Feith will take you 
through more detail of that.
    I come back to my conclusion that September 11 has brought 
home to all of us the new threats and the challenges that we 
face. That is why when NATO foreign ministers met together in 
Brussels last December they agreed to intensify common efforts 
to meet new threats, first from terrorism and second from 
weapons of mass destruction. When President Bush meets with 
allied leaders in Prague, we expect that allies will be ready 
to approve a program of action to enhance NATO's ability to 
deal with these and other threats.
    I am confident that NATO will respond to these challenges 
because NATO has adapted successfully in its history. As the 
chairman pointed out, since the end of the Cold War, NATO has 
been key to the stability of the Euro-Atlantic area. A round of 
enlargement began to erase the line that Stalin had drawn 
across Europe. NATO acted to end the war in Bosnia, NATO 
responded to end murder in Kosovo, and NATO has built new 
partnerships with countries interested in NATO membership in 
the Euro-Atlantic area.
    In your statements, you talked about the future of NATO and 
what was foreseen in the future. I want to try a quotation out 
on you. Speaking in 1950 following a NATO meeting in Brussels, 
Dean Acheson said this: ``The attitude we take is that we and 
our allies are moving ahead with courage and with determination 
to build our common strength. We regard dangers as common 
dangers, and we believe they can and must be met with common 
strength. We are taking the policy that we are going forward 
with vigor and determination and with courage and we reject any 
policy of sitting quivering in a storm cellar waiting for 
others to decide what fate they may prepare for us.''
    Although he might have been talking about a different 
threat at that time, I believe that is tremendous foresight for 
the United States as we face issues of terrorism and weapons of 
mass destruction.
    The 11th of September made clear that the world is far from 
safe and secure. Czech President Havel, if I could quote him 
again, who will host the Prague summit in November, said that 
September 11 alerted us to the evil existing in this world. I 
would say from our perspective, we still reject the policy of 
quivering in a storm cellar.
    I agree with Senator Landrieu that in this world allies are 
indispensable if we are to defeat new threats posed by 
terrorists and hostile states seeking weapons of mass 
destruction.
    I think we should be honest about this: NATO faces many 
challenges. I guess I would put myself in the glass half full 
or even a little bit more than half full camp. We can meet 
these challenges. I think the Prague summit will mark a crucial 
step in our effort to shape this Alliance for a new century.
    There are three themes that we would like to present to 
you: first, we ought to ensure that NATO has the new 
capabilities needed to meet today's threats; second, we ought 
to extend NATO's membership to more of Europe's new 
democracies; and third, we ought to intensify NATO's 
relationship with Russia, with Ukraine, and with other 
partners. New capabilities, new members, new relationships.
    Let me start first with new capabilities, because clearly 
from your comments and from our beliefs that is where we have 
to start. If the Prague summit is only a summit about expansion 
or only a summit about new partnerships, we do not believe it 
will be a success. It has to also be a summit about new 
capabilities, because the required effort to improve NATO's 
capabilities to meet 21st century threats is key to our ability 
to go forward.
    Senator Roberts talked a little bit about the NATO 
strategic concept. I think this goes back to a great deal of 
foresight by people who worked on the strategic concept both, 
sir, in 1991 and in 1999. The strategic concept in 1991 said 
that ``Alliance security interests can be affected by other 
risks of a wider nature, including the proliferation of weapons 
of mass destruction, disruption of the flow of vital resources, 
and acts of terrorism.''
    The 1999 strategic concept reiterated this recognition and, 
I think, took a step forward by saying that ``There are new 
risks to Euro-Atlantic peace and stability that become clear: 
oppression, ethnic conflict, proliferation of weapons of mass 
destruction, and the global spread of weapons technology and 
terrorism.''
    The growing capabilities gap between the United States and 
Europe is the single most serious long-term problem facing 
NATO. I know that General Ralston and Under Secretary Feith 
will address this issue. You both quoted Secretary General 
Robertson, and we want to support the efforts that he is making 
to improve NATO's capabilities. I can assure you that from our 
perspective this will be a centerpiece of the Prague summit.
    Let me talk for a moment, if I could, about new members. As 
I said, our second goal for Prague is to continue the process 
of building a united Euro-Atlantic community by extending 
membership to those democratic European countries who have 
demonstrated their ability to defend the principles of 
democracy, individual liberty, rule of law, and are ready to 
make a military contribution.
    As President Bush observed last year in Warsaw: ``Yalta did 
not ratify a natural divide. It divided a living 
civilization.'' This process of enlargement to Europe's new 
democracies, launched in 1997, in my view has begun to fulfil 
its promise and has brought us closer to the vision of NATO's 
founders for a free and united Europe.
    But I believe our work is not yet done. In his first 
meeting with the allies last June, President Bush secured a 
consensus to take concrete historic decisions at Prague to 
advance enlargement. He made clear to allies and aspirants his 
belief that NATO should not calculate how little we can get 
away with, but how much we can do to advance the cause of 
freedom.
    Since President Bush spoke, we have been working closely 
with allies and the nine current aspirant countries to 
strengthen their military preparations and their societies, so 
that these aspirants who will be asked to join NATO will add to 
NATO's strength and its vitality. In fact, today an inter-
agency team led by Ambassador Burns is finishing a consultation 
in each one of these countries, where we have been very clear 
with them what is to be required to meet NATO standards.
    I want to repeat, Senator Warner, Senator Levin, and 
others, that we look forward to close and continuing dialogue 
with the members of this committee and others as we approach 
these historic decisions. The Senate has great responsibility 
on this question, and we want to work with you to forge a 
united approach to enlargement.
    Some people have asked whether since the 11th of September 
enlargement should remain a priority. I think I can speak on 
our behalf and the President's behalf to say that the answer to 
that question is yes. The events of September 11 have 
reinforced the importance of even closer cooperation and 
integration between the United States and the democracies of 
Europe.
    As you have said in your first round of statements, you are 
rightly concerned about the capabilities and contributions that 
potential new allies will bring to this Alliance. All nine 
aspirants know that NATO involves serious commitments and 
solemn responsibilities. Many have already demonstrated this, 
both in the Balkans and in Afghanistan. I would particularly 
point out a statement from the Vilnius Group, the group where 
these countries get together and consult, meeting in Sofia last 
October, when they declared their shared intention to fully 
support the war against terrorism and to act as allies of the 
United States of America.
    We believe that NATO enlargement is a means of achieving 
NATO's core purposes and will contribute to NATO's continuing 
dynamism and the core security institutions of the Euro-
Atlantic area. We look forward to the closest possible 
consultation with Congress on this subject and, if the Alliance 
does offer new invitations, to the debate in the Senate on that 
proposition.
    Third, if I could talk for just a moment about new 
relationships. Our third goal in Prague is also aimed at 
advancing NATO's core principles, those principles that say 
that we ought to live in peace with all peoples and promoting 
stability in the Euro-Atlantic area. As we work to complete the 
vision of a united Europe of which Winston Churchill once 
observed ``no nation should be permanently outcast,'' we should 
continue to reach out and expand cooperation and integration 
with all of NATO's partners.
    NATO and Russia have taken steps to give new impetus and 
direction to their extensive cooperation in the aftermath of 
September 11. President Bush's vision is of a Russia fully 
reformed, fully democratic, closely bound with the rest of 
Europe, and which is able to build partnerships with European 
institutions, including NATO.
    At the most recent ministerial meeting in Brussels, allies 
agreed to create a new NATO-Russia body separate from the North 
Atlantic Council to facilitate joint decisions and actions in 
areas of common concern between NATO and Russia. We have been 
working intensively with allies to develop this new body, and I 
report to you that we expect to have it in place by the time of 
the Reykjavik NATO ministerial meeting this May.
    This so-called ``At 20'' relationship will offer Russia, 
not the guarantee, but the opportunity to participate in 
shaping the developments of cooperative mechanisms in such 
areas that the allies choose, such as counterterrorism, civil 
emergency preparedness, air space management, and joint 
training and exercises.
    Let me be clear: ``At 20'' will not give Russia a veto over 
NATO actions in any area. It is not a back door to NATO 
membership. It will not infringe on NATO prerogatives. NATO 
members will continue to make any decision by consensus on any 
issue. The NATO-Russia Council will be fully separate from the 
North Atlantic Council, which will continue to meet and make 
decisions, as it always has, on the full range of issues and on 
NATO's agenda.
    While forging these new relationships with Russia, our 
cooperative vision for NATO embraces all of NATO's partners, 
including Ukraine, countries in the Caucasus, Central Asia, and 
our Mediterranean dialogue partners.
    Mr. Chairman, nearly 53 years after its creation, NATO 
remains the core of the United States' commitment to Europe and 
the bedrock of our security and stability in this dangerous 
world. I think Secretary Powell made this point well when he 
observed that ``The value of NATO can be seen by the fact that 
10 years after the Cold War nations are still seeking to join 
the Alliance, not to leave it.'' NATO's fundamentals--its 
values, its common commitment to defend freedom--remain sound.
    President Bush has a profound respect for NATO's 
achievements and a determination to strengthen it for the 
future. As you have all pointed out, we and our allies have 
much work ahead of us, but I believe also an historic 
opportunity, because a Europe whole, free, and at peace, which 
is something that we used to talk about as a goal, is now fast 
becoming a reality.
    As we look to our agenda in Prague of new capabilities, new 
members, and new relationships, we look forward to consulting 
closely with the members of this committee to ensure that NATO 
will meet the challenges of today and tomorrow as successfully 
as it has met the challenges of the past.
    I thank you very much, sir.
    [The prepared statement of Mr. Grossman follows:]

              Prepared Statement by Hon. Marc I. Grossman

    Senator Levin, Senator Warner, members of the committee, it is an 
honor and a privilege to be here. I thank you for the opportunity to 
address the Senate Armed Services Committee and especially to sit on 
this panel with my friends and colleagues, Doug Feith and Joe Ralston.
    Before I do anything else, let me thank you and so many other 
Members of the Senate for what you have done, are doing and, I know, 
will do to continue to support NATO, the greatest Alliance in history. 
I have had the privilege and good fortune to consult with you and take 
your advice over the years on NATO. We have always made better 
decisions because of it.
    When I remember the work we did in getting ready for the last round 
of NATO enlargement, I recall the Kyl Amendment and the work that so 
many Senators did both in this committee and in the Foreign Relations 
Committee, including Senator Helms, Senator Biden, and Senator Lugar. I 
know we will have as much useful dialogue and consultation in the 
future.
    As you say in your invitation letter, Mr. Chairman, I come before 
this committee at a time when some on both sides of the Atlantic are 
asking questions about the future of NATO. I welcome this debate. Our 
governments, our parliaments, and our publics ought to talk about the 
future of NATO. That is what democratically supported foreign and 
defense policy is all about. The future of NATO has been debated before 
and we have always come back to the fundamentals: values matter. 
Collective defense matters. Capabilities matter. The transatlantic 
relationship matters. Because NATO has always adapted to meet new 
challenges, NATO matters.
    Before I try to answer some of the questions posed in your letter 
of invitation and speak to some of the current debate about NATO taking 
place in Europe and the United States, I ask you to step back with me 
for just a moment and realize how far we have come. Think about these 
three quotations:
    First: Winston Churchill, Fulton, Missouri, March 5, 1946: ``From 
Stettin in the Baltic to Trieste in the Adriatic, an iron curtain has 
descended across the Continent. Behind that line lie all the capitals 
of the ancient states of Central and Eastern Europe. Warsaw, Berlin, 
Prague, Vienna, Budapest, Belgrade, Bucharest, and Sofia, all these 
famous cities and the populations around them lie in what I must call 
the Soviet sphere.''
    Second: President Vaclav Havel, in Prague on July 1, 1991: 
``Prague, once the victim of the Warsaw Pact, became the city where the 
Warsaw Pact met its end as an instrument of the Cold War.''
    Third: President George Bush, Warsaw, June 15, 2001: ``All of 
Europe's democracies, from the Baltics to the Black Sea and all that 
lie between, should have the same chance for security and freedom--and 
the same chance to join the institutions of Europe--as Europe's old 
democracies have.''
    The North Atlantic Treaty Organization remains a fundamental pillar 
of our foreign and defense policy. As President Bush's speech in Prague 
shows (and it is worth reading again as we enter into the critical 
months before the Prague Summit), we want NATO to succeed. The Alliance 
must be an effective tool in the world after September 11.
    NATO is not less important after September 11, it is more 
important.
  21st century nato: new capabilities, new members, new relationships
    The attacks of September 11 and NATO's rapid and steadfast response 
prove NATO's continuing value. Invoking Article V for the first time in 
its history, NATO sent a clear message that the Alliance is united and 
determined to defeat terrorism.
    We greatly value NATO's collective response, as well as the 
contributions of individual allies to Operation Enduring Freedom and 
the International Security Assistance Force. NATO AWACS have logged 
over 2,600 hours patrolling the skies above American cities, and NATO 
ships patrol the Eastern Mediterranean. All NATO allies have provided 
blanket overflight rights, access to ports and bases, refueling 
assistance, and stepped up intelligence efforts.
    Fifty years of cooperation through NATO made natural the 
participation of Allied and partner forces in Operation Enduring 
Freedom and the International Security Assistance Force. Allied and 
partner contributions to Operation Enduring Freedom include extensive 
air reconnaissance, refueling, cargo, and close air support missions, 
an array of special forces missions, specialized nuclear, biological, 
and chemical weapons units, mine clearing units, medical units, and an 
array of allied ships on patrol. Almost all of the contributors to the 
International Security Assistance Force, currently led by Britain and 
we hope to be followed by Turkey, are either current allies, potential 
future allies, or NATO partner countries who have been training and 
exercising with NATO in the Partnership for Peace. Altogether these 
allies and partners have deployed nearly 4,000 troops to Afghanistan.
    September 11 has brought home to us all that we face new threats 
and new challenges. That is why NATO ministers at their meeting in 
Brussels last December agreed to intensify common efforts to meet the 
threats from terrorism and weapons of mass destruction that all allies 
face. When President Bush meets with allied leaders in Prague later 
this year, we expect that allies will be ready to approve a program of 
action to enhance NATO's ability to deal with these and other threats.
    I am confident that NATO will respond to these challenges, just as 
it has responded to every challenge that has come its way. I say this 
because, contrary to the myth of NATO as a Cold War relic struggling to 
define its role since the fall of the Berlin Wall, NATO has adapted 
effectively throughout its history. From integrating West Germany in 
the 1950s to responding to Soviet missile build-ups of the 1960s and 
1970s, to the INF debates in the 1980s and the ultimate demise of the 
Warsaw Pact in the 1990s, NATO has responded to new threats while 
seizing opportunities to foster stability and security.
    Since the end of the Cold War, NATO has been key to the stability 
and security of the Euro-Atlantic area. A round of enlargement began to 
erase the line Stalin drew across Europe. NATO responded to end murder 
in Kosovo. NATO acted to end a war in Bosnia-Herzegovina. NATO has 
built new patterns of cooperation through a Permanent Joint Council 
with Russia, NATO-Ukraine Commission, the Partnership for Peace and the 
Euro-Atlantic Partnership Council.
    As we consider the future of NATO, the words of one of its founders 
over half a century ago still offer guidance on the road ahead. 
Speaking in December 1950 following a NAC meeting in Brussels, Dean 
Acheson observed:
    ``The attitude which we take is that we and our allies are moving 
ahead with courage and with determination to build our common strength. 
We regard dangers as common dangers and we believe that they can and 
must be met by common strength. We believe that they need our help in 
order to maintain their security and that we need their help. . . 
Therefore, we are taking a policy of going forward with vigor and with 
determination and with courage. We are rejecting any policy of sitting 
quivering in a storm cellar waiting for whatever fate others may wish 
to prepare for us.''
    The September 11 attacks made clear that the world is far from safe 
and secure. Czech President Vaclav Havel, who will host the Prague 
Summit, observed that September 11 ``alerted us to the evil existing in 
this world. We still reject the policy of quivering in a storm cellar. 
In this dangerous world, allies are indispensable if we are to defeat 
new threats posed by terrorists and hostile states seeking weapons of 
mass destruction. Those who suggest that NATO is no longer essential 
ignore the fact that NATO derives its strength from the common purpose 
of defending our people and our values.
    NATO faces many challenges. The Prague Summit will mark a crucial 
step in our effort to shape an Alliance for the new century. Our agenda 
will be threefold:

        <bullet> ensuring NATO has the new capabilities needed to meet 
        today's threats to our people,
        <bullet> extending NATO's membership to more of Europe's newer 
        democracies, and
        <bullet> intensifying NATO's relationship with Russia, Ukraine, 
        and other partners.

    New capabilities. New members. New relationships. It is no accident 
that this new agenda parallels NATO's founding goals as set out in the 
1949 Washington Treaty--to safeguard the freedom, common heritage and 
civilization of our peoples, live in peace with all peoples and 
governments, and promote the stability and well-being of the North 
Atlantic area.

                            NEW CAPABILITIES

    The required effort to improve NATO's capabilities to meet 21st 
century threats will build on work done since the end of the Cold War. 
NATO's strategic concept recognized as early as 1991 that ``Alliance 
security interests can be affected by other risks of a wider nature, 
including proliferation of weapons of mass destruction, disruption of 
the flow of vital resources, and actions of terrorism and sabotage.''
    The 1999 Strategic Concept reiterated this recognition, noting that 
``new risks to Euro-Atlantic peace and stability were becoming 
clearer--oppression, ethnic conflict, the proliferation of weapons of 
mass destruction, and the global spread of weapons technology and 
terrorism.''
    The growing capabilities gap between the United States and Europe 
is the most serious long-term problem facing NATO and must be 
addressed. NATO allies need flexible, sustainable forces, able to move 
long distances in a hurry and deliver overwhelming firepower on 
arrival. Today, the United States has the vast preponderance of such 
forces. Other allies, by comparison, have only limited capabilities in 
critical areas such as lift, precision weapons, intelligence and 
surveillance platforms, and protection of forces against biological and 
chemical agents. NATO Secretary General Robertson is committed to 
bridging the gap between the U.S. and European allies, and will make 
this a centerpiece of the Prague Summit. We welcome these initiatives 
and will continue to urge allies to refocus their defense efforts, if 
need be by pooling their resources to do collectively what they are 
unable to do individually. If our allies are serious about bridging 
this gap, however, they must be prepared to do much more to improve 
their capabilities.''

                              NEW MEMBERS

    Our second goal for Prague is to continue the process of building a 
united Euro-Atlantic community by extending membership to those 
democratic European countries who have demonstrated their determination 
to defend the principles of democracy, individual liberty, and the rule 
of law, their desire to promote stability, and their resolve to unite 
their efforts for collective defense.
    As the President observed last year in Warsaw, ``Yalta did not 
ratify a natural divide, it divided a living civilization.'' He made it 
clear that his goal is to erase the false lines that have divided 
Europe and to ``welcome into Europe's home'' every European nation that 
struggles toward democracy, free markets, and a strong civic culture. 
The process of enlargement to Europe's new democracies launched in 1997 
has fulfilled NATO's promise and brought us closer to completing the 
vision of NATO's founders of a free and united Europe. But our work is 
not done.
    The President affirmed his belief in NATO membership for ``all of 
Europe's democracies that seek it and are ready to share the 
responsibilities that NATO brings.'' In his first meeting with allies 
last June, the President secured a consensus to take concrete, historic 
decisions at Prague to advance enlargement. He made clear to allies and 
aspirants his belief that NATO ``should not calculate how little we can 
get away with, but how much we can do to advance the cause of 
freedom.''
    Since the President spoke, we have been working closely with allies 
and the nine current aspirant countries to strengthen their 
preparations so that the aspirants who may be asked to join will add to 
NATO's strength and vitality. Today, a team led by Ambassador Burns is 
completing a series of visits to all nine current aspirant countries to 
reinforce the importance of addressing key reform priorities in the 
months before Prague. We look forward in the months ahead to a close 
and continuing dialogue with the members of this committee and others 
as we approach these historic decisions. You have great responsibility 
on this question. It is our goal and expectation that, working with 
you, we will be able to forge a solid and united approach to 
enlargement and build an equally strong consensus with the Alliance.
    Some have asked in the aftermath of September 11 whether 
enlargement should remain a priority. The President's answer is 
``yes.'' The events of September 11 have reinforced the importance of 
even closer cooperation and integration between the United States and 
all the democracies of Europe. If we are to meet new threats to our 
security, we need to build the broadest and strongest coalition 
possible of countries that share our values and are able to act 
effectively with us. With freedom under attack, we must demonstrate our 
resolve to do as much as we can to advance its cause.
    Members of this committee will rightly ask what capabilities and 
contributions potential new members will bring to the Alliance. The 
Washington Treaty makes clear that states invited to join NATO should 
be in a position to further the principles of the treaty and contribute 
to the security of the Euro-Atlantic area. This is the standard that we 
and our allies will apply as we approach decisions at Prague. All nine 
aspirants know that NATO involves serious commitments and solemn 
responsibilities. Many have already demonstrated their determination to 
contribute to Euro-Atlantic security and stability. The Vilnius Group, 
meeting in Sofia last October declared their shared intention to 
``fully support the war against terrorism'' and to ``act as allies of 
the United States.'' Individually, aspirants have responded as de facto 
allies offering overflight rights, transit and basing privileges, 
military and police forces, medical units and transport support to U.S. 
efforts. Most will participate in the International Security Assistance 
Force in Afghanistan. Prior to September 11, most aspirant countries 
had contributed actively to NATO efforts to prevent further hostilities 
in the Balkans.
    We believe that NATO enlargement is a means of achieving NATO's 
core purposes, and will contribute to NATO's continuing dynamism as the 
core security institution in the Euro-Atlantic area. Enlargement will 
also widen the circle of democracies and expand the zone of stability 
and security through the Baltics and the Balkans. Not to embrace 
countries that have overcome years of communist dictatorship and have 
proven their ability and willingness to contribute to our common 
security would be to abandon the very principles that have been NATO's 
source of strength and vitality. We look forward to the closest 
consultations with Congress on this subject, and if NATO does offer new 
invitations, to the debate in the Senate on that proposition.

                           NEW RELATIONSHIPS

    Our third goal for Prague is also aimed at advancing NATO's core 
principles--those of living in peace with all peoples and promoting 
stability in the Euro-Atlantic area. As we work to complete the vision 
of a united Europe from which, Winston Churchill once observed, ``no 
nation should be permanently outcast,'' we must continue to reach out 
and expand cooperation and integration with all of NATO's partners.
    NATO and Russia have taken steps to give new impetus and direction 
to their extensive cooperation in the aftermath of September 11. 
President Bush's vision is of a Russia ``fully reformed, fully 
democratic, and closely bound to the rest of Europe,'' which is able to 
build partnerships with Europe's great institutions, including NATO.
    At the most recent ministerial meetings in Brussels, allies agreed 
to create a new NATO-Russia body--the NATO-Russia Council--that will 
facilitate joint decisions and actions in areas of common concern 
between NATO and Russia. We have been working intensively with allies 
in Brussels to develop this new body, which we expect to have in place 
by the time of the Reykjavik NATO ministerial this May.
    This so-called ``At 20'' relationship will offer Russia the 
opportunity to participate in shaping the development of cooperative 
mechanisms in areas that the Alliance chooses, such as counter-
terrorism, civil emergency preparedness, airspace management, and joint 
training and exercises. ``At 20'' will not give Russia the ability to 
veto NATO actions in any areas. It is not a back door to NATO 
membership. Nor will it infringe on NATO prerogatives. NATO members 
will continue to take any decision by consensus on any issue. The NATO-
Russia Council will be fully separate from the NAC, which will continue 
to meet and make decisions as it always has on the full range of issues 
on NATO's agenda.
    While forging new links with Russia, our cooperative vision for 
NATO embraces all of NATO's partners, including Ukraine, countries in 
the Caucasus and Central Asia, and Mediterranean Dialogue partners. In 
fact, NATO is the only institution that can unite the continent in 
security cooperation, and remains the nexus for broadening and 
deepening Euro-Atlantic security.
    We are particularly determined to focus NATO's partner activities 
on countries of Central Asia that have played such constructive roles 
in the war against terrorism. The Partnership for Peace and EAPC have 
been successful vehicles for integration, but we believe that much more 
can be done to expand cooperation between NATO and these countries.
    Nearly 53 years after its creation, NATO remains the core of the 
United States commitment to Europe and the bedrock of our security and 
stability in a still dangerous world. Secretary Powell made this point 
best in his confirmation hearings when he observed that ``the value of 
NATO can be seen by the fact that 10 years after the Cold War, nations 
are still seeking to join the Alliance, not to leave it.'' NATO can 
meet new threats, building cooperation with former enemies, and 
ensuring stability in Southeast Europe, giving time for this region to 
become a part of the European mainstream. NATO's fundamentals--its 
shared values, and common commitment to defend freedom--remain sound.
    President Bush has a profound respect for NATO's achievements and a 
determination to strengthen it for the future. We and our allies have 
much work ahead, but also an historic opportunity to achieve our goals 
of defending, integrating, and stabilizing the Euro-Atlantic area and 
continuing to strengthen this greatest of alliances. A Europe whole, 
free and at peace is a goal fast becoming a reality. As we look to 
Prague and our agenda of new capabilities, new members, and new 
relationships, we look forward to working closely with the members of 
this committee to ensure that NATO will meet the challenges of today 
and tomorrow as successfully as it has those of the past.
    Thank you.

    Chairman Levin. Thank you, Secretary Grossman.
    Secretary Feith.

STATEMENT OF HON. DOUGLAS J. FEITH, UNDER SECRETARY OF DEFENSE 
                           FOR POLICY

    Mr. Feith. Thank you. Mr. Chairman, Senator Warner, members 
of the committee: I appreciate this opportunity to discuss the 
future of NATO with you.
    As happens from time to time and especially since the 
West's victory in the Cold War, questions arise about NATO's 
relevance and, as Senator Warner raised the question this 
morning, about the justification for its perpetuation. I agree 
that such questions are useful. It is not a good idea to take 
our larger institutions for granted. It is salutary to review 
the Alliance's rationale and examine its institutions.
    Today we perform this review in light of the lessons of 
September 11; lessons about key vulnerabilities of our country 
despite our conventional military power; lessons about new 
types of threats; lessons about the global nature of our 
military responsibilities; lessons about surprise, 
unpredictability, and the necessity for the United States 
military to be adaptable and flexible; and lessons about the 
value of our community of allies and friends around the world.
    NATO and our NATO allies responded to the September 11 
attack quickly, loyally, and usefully. NATO showed that it can 
adapt and respond to unforeseen challenges. Less than 24 hours 
after the terrorist attack against America, our NATO allies, as 
has been pointed out by many of you, invoked for the first time 
in history Article V, the collective defense provision of the 
Alliance's 1949 treaty.
    Soon after that NATO took steps to assist us in the war. 
For example, seven NATO airborne warning and control system, 
AWACS, aircraft are now patrolling U.S. skies, protecting 
Americans at home, and freeing up the U.S. AWACS fleet for 
important work abroad.
    Individual NATO allies and partners are contributing to the 
war effort and to the post-Taliban reconstruction and security 
effort in Afghanistan. Some of the allies' contributions have 
come through the formal mechanisms of the Alliance and some 
outside those structures. But all should be appreciated as the 
fruit of more than 50 years of joint planning, training, and 
operations within the Alliance.
    NATO's core mission remains, as it should, the collective 
defense of its members, as stated in Article V. But NATO will 
continue to adapt to deal with new threats and to capitalize on 
its strengths.
    The Prague summit, the first in the new millennium for 
NATO, is scheduled for November of this year. At the summit the 
United States hopes to accelerate NATO's transformation, 
stressing, as Secretary Grossman said, new capabilities, new 
members, and new relationships. President Bush has reaffirmed 
the U.S. aspiration to promote a Europe whole and free. In 
Warsaw last June he declared: ``I believe in NATO membership 
for all of Europe's democracies that seek it and are ready to 
share the responsibility that NATO brings. As we plan the 
Prague summit, we should not calculate how little we can get 
away with, but how much we can do to advance the cause of 
freedom.''
    Mr. Chairman, we recognize that enlargement of the Alliance 
is not an exercise free of risks and difficult judgments. 
People of experience and wisdom warn of the dangers of making 
the Alliance excessively unwieldy. They do not want the 
Alliance to dilute its military capabilities through expansion 
and they are concerned about NATO's relations with important 
neighbors. They want to ensure that any enlargement will 
strengthen NATO's ability to perform its essential defense 
mission. They want to ensure that the commitment of new members 
to the Alliance's principles and work will be enduring and 
fulfillable.
    These are prudent cautionary considerations and they are 
informing the administration's enlargement strategy. We think 
NATO can enlarge, indeed should, in ways that will serve the 
national security interests of the United States and of our 
current allies. A Europe united on the basis of democratic 
principles, the rule of law, respect for individual rights, and 
other tenets of the Alliance will be better able to resist and 
defeat terrorist threats and other threats.
    The U.S. Government believes that an enlarged Alliance that 
conducts joint defense and operational planning, promotes 
interoperability, and encourages realistic training exercises 
will be a more effective partner in answering global security 
challenges.
    The aspirant countries have made impressive contributions 
to NATO-led operations in Bosnia and Kosovo. In 2001, seven of 
the nine NATO aspirants made force contributions to NATO 
operations in Kosovo and eight of the nine to NATO operations 
in Bosnia.
    They have also shown much-appreciated solidarity with the 
United States through their contributions to Operation Enduring 
Freedom. They have conducted themselves as we want our allies 
to act. For operations in Afghanistan, the aspirants have 
provided troops, intelligence, over-flight rights, access to 
bases, and public diplomatic support.
    As the administration deliberates on specific candidacies, 
the Defense Department will be assessing the state of the 
aspirants' military structures, their implementation of defense 
reform, the readiness of military units dedicated to NATO 
missions, and the military value the aspirant countries can add 
to NATO.
    The transformation of NATO's capabilities can and should 
proceed hand in hand with its enlargement. This is the greatest 
challenge for the Alliance in the coming years. NATO operations 
in Bosnia and Kosovo, as has been commented on by several of 
you, exposed collective Alliance shortfalls in the capabilities 
most relevant to modern warfare. They also exposed a disturbing 
and growing capabilities gap between the United States and its 
allies.
    We heard encouraging rhetoric in the 1999 Washington 
summit, but by and large have seen meager results. The widening 
capabilities gap not only weakens the Alliance's military 
potential, it could in time erode NATO's political solidarity.
    In our view the Alliance needs to focus on a few 
priorities, including: Defending its forces and populations 
against weapons of mass destruction; doing a better job of 
getting allies' forces to the fight; ensuring that allies' 
forces can communicate easily with one another without fear of 
eavesdropping or jamming by their adversaries; and improving 
allies' contributions to modern fast-paced and more precise 
combat operations.
    We cannot transform NATO's capabilities overnight, but we 
cannot afford to settle for business as usual. As we encourage 
allies to spend more on defense, it is even more important that 
we get them to spend smarter. The Joint Strike Fighter program 
is a model of cooperation and efficiency involving the United 
States and several allies.
    A third goal for the Prague summit is strengthening NATO's 
relationship with Russia and revitalizing its relations with 
other partners. We are working hard with our allies to enhance 
the NATO-Russia relationship. I was in Moscow on Monday and 
discussed this with the representatives of the Russian defense 
ministry.
    The best way to proceed, we think, is to build a record of 
success on practical projects that benefit everyone involved. 
We believe that this effort can dissipate vestigial fears in 
Russia that NATO threatens its security. We also think that 
fostering engagement with Russia can induce further democratic, 
market, and military reform in that country and contribute to 
improved Russian relations with its neighbors. In short, we 
view the NATO-Russia relationship as complementing our direct 
efforts to establish a new framework of U.S.-Russia relations.
    As we build the NATO-Russia relationship and as the 
Alliance and Russia work together where we can, it is essential 
that NATO retain its ability to decide and act independently on 
important security issues. We are conscious of the importance 
of protecting alliance solidarity and effectiveness. As 
Secretary Grossman has pointed out, the North Atlantic Council 
will decide by consensus on the form and substance of our 
cooperation with Russia. Russia will not have a veto over 
Alliance decisions, and NATO-Russia cooperation will not be 
allowed to discourage or marginalize other partners. We are 
confident that we can respect these safeguards as we improve 
NATO's ties to Russia.
    The Partnership for Peace is a NATO success story, having 
produced practical cooperation between the allies and 27 
partners from Europe through Central Asia. We want to maintain 
and strengthen partnership programs beyond Prague, especially 
in ways that increase the partners' ability to operate with 
NATO in crisis response operations. We should not be surprised 
if, following invitations to some number of aspirants at 
Prague, other partners step forward to declare interest in NATO 
membership.
    In conclusion, Mr. Chairman, for over 50 years, as has been 
stated and restated here as a sign of the widespread 
appreciation of this point and its importance to the Senate, to 
the NATO, and to the United States in general, NATO has not 
only been a successful alliance, but perhaps the most 
successful alliance in history. This year we have an 
opportunity to enlarge and transform it, to help ensure that 
future generations of our Euro-Atlantic community, which I view 
as the core of the community of the world's democratic states, 
are ready and able to secure their freedom.
    Thank you.
    [The prepared statement of Mr. Feith follows:]

              Prepared Statement by Hon. Douglas J. Feith

    Mr. Chairman, Senator Warner, members of the committee. I 
appreciate the opportunity to discuss with you the future of NATO.
    As happens from time to time, especially since the West's victory 
in the Cold War, questions arise about NATO's relevance. Such questions 
are useful. We shouldn't take large institutions for granted. It is 
salutary to review the Alliance's rationale and examine its 
institutions.
    Today, we perform this review in light of the lessons of September 
11: lessons about key vulnerabilities of our country despite our 
conventional military power; lessons about new types of threats; 
lessons about the global nature of our military responsibilities; 
lessons about surprise, unpredictability and the necessity for the U.S. 
military to be adaptable and flexible; and, lessons about the value of 
our community of allies and friends around the world.
    In his statement to NATO defense ministers last June, Secretary 
Rumsfeld listed terrorism first among the types of new threats facing 
the Alliance. The others he mentioned were cyber-attack, high-tech 
conventional weapons, and ballistic and cruise missiles armed with 
weapons of mass destruction. Three months later, on September 11, the 
first of these anticipated threats materialized with awful impact in 
New York and Washington.
    NATO and our NATO allies responded to the September 11 attack 
quickly, loyally and usefully. NATO showed it can adapt and respond to 
unforeseen challenges.
    Less than 24 hours after the terrorists' attack against America, 
our NATO allies invoked, for the first time in history, Article V--the 
collective defense provision--of the 1949 NATO Treaty. Soon thereafter, 
NATO took a series of steps to assist us in the war against terrorism. 
For example, seven NATO Airborne Warning and Control System (AWACS) 
aircraft are now patrolling U.S. skies, relieving us of a significant 
burden and freeing up the U.S. AWACS fleet for important work abroad. 
Individual NATO allies and partners are contributing to the war effort 
and to the post-Taliban reconstruction and security effort in 
Afghanistan. Some of the allies' contributions have come through formal 
Alliance structures and some outside those structures. All those 
contributions, however, should be appreciated as the fruit of more than 
50 years of joint planning, training and operations within the NATO 
Alliance.
    NATO's core mission remains, as it should, the collective defense 
of its members, as stated in Article V. But NATO will continue to adapt 
to deal with new threats and to capitalize on its strengths in the 
current era. The Prague Summit--NATO's first in the new millennium--is 
scheduled for November of this year. At that Summit, the United States 
hopes to accelerate NATO's transformation, stressing three themes: new 
members, new capabilities, and new relationships.

                              ENLARGEMENT

    President Bush has reaffirmed the U.S. aspiration to promote a 
Europe ``whole and free.'' In Warsaw last June, he declared: ``I 
believe in NATO membership for all of Europe's democracies that seek it 
and are ready to share the responsibility that NATO brings. . . . As we 
plan the Prague Summit, we should not calculate how little we can get 
away with, but how much we can do to advance the cause of freedom.''
    Mr. Chairman, we recognize that enlargement of the Alliance is not 
an exercise free of risks and difficult judgments. People of experience 
and wisdom warn of the dangers of making the Alliance excessively 
unwieldy. They do not want the Alliance to dilute its military 
capabilities through expansion and they are concerned about NATO's 
relations with important neighbors. They want to ensure that any 
enlargement will strengthen NATO's ability to perform its essential 
defense mission. They want to ensure that the commitment of new members 
to the Alliance's principles and work will be enduring and fulfillable.
    These are prudent cautionary considerations and they are informing 
the administration's enlargement strategy. We think NATO can enlarge--
indeed should--in ways that will serve the national security interests 
of the United States and our current allies. A Europe united on the 
basis of democratic principles, the rule of law, respect for individual 
rights and the other tenets of the Alliance will be better able to 
resist and defeat terrorist threats and other threats. The U.S. 
Government believes that an enlarged Alliance that conducts joint 
defense and operational planning, promotes interoperability, and 
encourages realistic training exercises will be a more effective 
partner in answering global security challenges.
    The aspirant countries have made impressive contributions to NATO-
led operations in Bosnia and Kosovo. In 2001, seven of the nine NATO 
aspirants made force contributions to NATO operations in Kosovo and 
eight of the nine to NATO operations in Bosnia. They have also shown 
much-appreciated solidarity with the United States through their 
contributions to Operation Enduring Freedom. They have conducted 
themselves as we want our allies to act. For operations in Afghanistan, 
the aspirants have provided troops, intelligence, over-flight rights, 
access to bases, and public diplomatic support. As the administration 
deliberates on specific candidacies, the Defense Department will be 
assessing the state of the aspirants' military structures, their 
implementation of defense reform, the readiness of military units 
dedicated to NATO missions, and the military value the aspirant 
countries can add to NATO.

                             TRANSFORMATION

    The transformation of NATO's capabilities can and should proceed 
hand-in-hand with its enlargement. This may be the gravest challenge 
for the Alliance in the coming years. NATO operations in Bosnia and 
Kosovo exposed collective Alliance shortfalls in the capabilities most 
relevant to modern warfare; they also exposed a disturbing--and 
growing--capabilities gap between the United States and its allies. We 
heard encouraging rhetoric at the 1999 Washington Summit, but by-and-
large have seen meager results. The widening capabilities gap not only 
weakens the Alliance's military potential, it could in time erode 
NATO's political solidarity.
    In our view, the Alliance needs to focus on a few priorities, 
including: defending its forces and populations against weapons of mass 
destruction; doing a better job of getting allies' forces to the fight; 
ensuring that allied forces can communicate easily with one another 
without fear of eavesdropping or jamming by their adversaries; and 
improving allies' contributions to modern, fast-paced, and more precise 
combat operations.
    We cannot transform NATO capabilities overnight, but we cannot 
afford to settle for ``business as usual.'' As we encourage allies to 
spend more on defense, it is even more important that we get them to 
``spend smarter.'' The Joint Strike Fighter program is a model of 
cooperation and efficiency involving the United States and several 
allies.

                           NEW RELATIONSHIPS

    A third goal for the Prague summit is strengthening NATO's 
relationship with Russia and revitalizing its relations with other 
partners.
    We are working hard with our allies to enhance the NATO-Russia 
relationship. The best way to proceed, we think, is to build a record 
of success on practical projects that benefit everyone involved. We 
believe that this effort can dissipate vestigial fears in Russia that 
NATO threatens its security. We also think that fostering engagement 
with Russia can induce further democratic, market and military reform 
in that country and contribute to improved Russian relations with its 
neighbors. In short, we view the NATO-Russia relationship as 
complementary to our bilateral efforts to establish a new framework of 
United States-Russia relations.
    As we build this enhanced relationship, and as the Alliance and 
Russia work together where we can, it is essential that NATO retain its 
independent ability to decide and act on important security issues. We 
are conscious of the importance of protecting Alliance solidarity and 
effectiveness. The North Atlantic Council will decide, by consensus, on 
the form and substance of our cooperation with Russia. Russia will not 
have a veto over Alliance decisions. NATO-Russia cooperation will not 
be allowed to discourage or marginalize other partners. We are 
confident that we can respect these safeguards as we improve NATO's 
ties to Russia.
    The Partnership for Peace is a NATO success story, having produced 
practical cooperation between the allies and 27 partners from Europe 
through Central Asia. We want to maintain and strengthen partnership 
programs beyond Prague, especially in ways that increase the partners' 
ability to operate with NATO forces in crisis response operations. We 
should not be surprised if, following invitations to some number of 
aspirants at Prague, other partners step forward to declare interest in 
NATO membership.

                               CONCLUSION

    Mr. Chairman, for over 50 years, NATO has been a successful 
alliance, perhaps the most successful alliance in history. This year, 
we have an opportunity to enlarge and transform NATO to help ensure 
that future generations of our Euro-Atlantic community--the core of the 
community of the world's democratic states--are ready and able to 
secure their freedom.

    Chairman Levin. Thank you, Secretary Feith.
    General Ralston.

STATEMENT OF GEN. JOSEPH W. RALSTON, USAF, COMMANDER IN CHIEF, 
                 UNITED STATES EUROPEAN COMMAND

    General Ralston. Thank you, Mr. Chairman, Senator Warner, 
and members of the committee. I will be brief. I would like to 
talk to you for a moment about European Command (EUCOM) as well 
as NATO.
    Starting off, I would like to thank the committee for your 
support of our budget request for last year and 2002. When I 
was here, I told you my number one priority was for the 
military construction and the facilities that our people live 
and work in in EUCOM. For the first time in a decade, you 
reversed the trend of declining spending and you gave us about 
$360 million, and that is much appreciated by every soldier, 
sailor, airman, and marine in the European theater.
    In our budget request for 2003, once again my top priority 
is the facilities that our people live and work in and I 
request your continued support in that regard.

                              USEUCOM AOR
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Mr. Chairman, if I could direct your attention to this 
chart that we have over here. I think it helps to remind us 
about European Command, and it may be a bit misnamed. It 
includes the countries not only of Europe, but most of Africa 
that you see in green and some very important Middle Eastern 
countries, including Israel, Syria, and Lebanon. There are 91 
countries in total in the European Command area of 
responsibility (EUCOM AOR).
    We have about 115,000 troops there to do that. That is 8 
percent of the active duty military strength that we have. I 
would just like to give you my opinion that 8 percent is not 
excessive for half the countries of the world in which we are 
responsible for maintaining stability.
    I would also like to remind the committee that as we speak 
this morning EUCOM is involved in five ongoing combat 
operations. First, we have our pilots flying over northern 
Iraq. Just before I came to this hearing this morning I got a 
call that our pilots were fired upon and attacked this morning, 
and we responded by taking out some air defense sites that are 
there.
    We have the operations ongoing in Bosnia and Kosovo, as 
well as the Former Yugoslav Republic of Macedonia. I would like 
to talk about one of those for a moment, if you could give me 
my next chart.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                        BALKANS TROOP COMMITMENT

    Sometimes we need to remind ourselves of the progress that 
has been made in Bosnia. Troop levels are not the only 
indicator, but troop levels are dependent upon the situation on 
the ground. As you remember, we went into Bosnia with 60,000 
troops 6 years ago. Americans made up 20,000 of that. We were 
33 percent of the effort. Every 6 months we take a look at how 
we are doing, what is the situation on the ground, and we 
adjust the troop level to correspond to that.
    Today we have less than 18,000 total troops. The U.S. is 
about 17 percent of that effort. When I testified before this 
committee last year, we had 4,400 Americans in Bosnia. Today we 
have a little over 3,000. Next month we should be at 2,500. My 
recommendation back to the North Atlantic Council for this fall 
will be about 1,800 Americans. That will be less than 10 
percent of what we started.
    I believe that that represents the progress that is being 
made on the ground in Bosnia, and we have tried to adjust our 
troop levels accordingly.
    NATO's commitment to stability in the Balkans and its 
September 12 invocation of Article V clearly demonstrate the 
flexibility of the Alliance. Much has been said already about 
the NATO AWACS and the Standing Naval Forces Mediterranean. I 
will not repeat that. I might like to add that several NATO 
allies as well as other nations in our area of responsibility 
have provided intelligence, they have frozen terrorist 
financial assets, and they have detained suspected terrorists 
in their respective countries. I might add that in the European 
theater over 1,500 terrorists have been arrested and taken off 
the street in the past 90 days.
    They have provided basing and overflight rights and other 
forms of key support in our global efforts to combat terrorism. 
NATO nations provided cargo aircraft and manpower and expertise 
to prepare and load cargo pallets for shipment in support of 
our efforts in Afghanistan. Some contributed directly to the 
strike missions in Afghanistan, and several countries in the 
EUCOM area of responsibility are contributing to our 
stabilization efforts there.
    I might say a word about NATO's Partnership for Peace 
program. Sometimes that does not get the attention I think that 
it deserves. To give you an example, every time we have a NATO 
meeting in Brussels of secretaries of state or secretaries of 
defense or chairmen of the joint chiefs equivalent, it is not 
only the 19 NATO nations that meet and do the business, but we 
reset the table and we set the table at 19 plus 27. That is 19 
NATO nations plus 27 Partnership for Peace nations. That is 
several times a year at the very highest levels of our 
Government we are meeting and interacting with these people.
    I think it is no surprise that when the United States 
needed Uzbekhistan for our efforts in Afghanistan that 
Uzbekhistan has been a member of Partnership for Peace and 
their foreign minister, their defense minister, their chairman 
of the joint chiefs equivalent have been interacting with their 
NATO counterparts for many years. I think that was very much 
important in their decision to support the United States in our 
effort.
    Mr. Chairman, that is all I have. I am certainly prepared 
to answer any questions you might have.
    [The prepared statements of General Ralston follow:]

           Prepared Statement by Gen. Joseph W. Ralston, USAF

    The North Atlantic Treaty established an Alliance that has endured 
over half a century. During its first 40, NATO manifested the political 
will and military capability to deter Soviet expansionism, and that 
deterrence worked. It provided for the rearmament of Germany within a 
framework acceptable to her wartime foes. It solidly linked, through 
forward presence and nuclear deterrence, the United States to the 
security of Western Europe. The stable security environment, combined 
with the Marshall Plan, facilitated a rapid economic recovery and the 
subsequent growth of Western Europe into our largest trading partner. 
Meanwhile, the Soviet Union, its planned economy overtaken by the 
vibrant markets of the Alliance, crumbled and collapsed.
    Without a common foe, some commentators argued, NATO would lose its 
reason for existence, yet the member nations chose to continue their 
Alliance, and to transform and adapt it to new circumstances. Massive, 
static conventional defenses were reduced and made more mobile. 
Numerous newly independent nations looked to NATO as a source of 
stability in an uncertain, new world order, and as a bastion of 
democratic experience. These countries were linked to NATO through the 
North Atlantic Cooperation Council, followed by the establishment of 
the Partnership for Peace program (PfP) and the Euro-Atlantic 
Partnership Council.
    The end of the Cold War bipolar order unleashed nationalist, 
ethnic, and religious tensions resulting in widespread outbreaks of 
violence. NATO's relevance in the face of these new threats was 
reaffirmed by its stabilization of ethnic conflict in the Balkans. The 
operational employment of NATO forces to solve a major European 
security problem in the Balkans, outside of NATO's perimeter, confirmed 
the enduring value of the Alliance. The inclusion of partner nations in 
Balkan operations underscores the payoff of PfP, both in the reform of 
former communist militaries and in the relief of the manpower burden on 
NATO.
    An unexpected dimension of NATO's security guarantee, and its 
relevance to U.S. security, came to worldwide attention after September 
11. America's NATO allies agreed to invoke Article V of the North 
Atlantic Treaty, considering the attack on New York and Washington as 
an attack against them all. A dramatic manifestation of this support is 
the deployment of part of NATO is Airborne Early Warning and Control 
Force to patrol America's skies. Additionally, NATO's standing naval 
forces are patrolling the Mediterranean to prevent terrorist movement 
and thereby impede the ability of terrorist groups to organize and 
orchestrate operations against the U.S. or our European allies.
    Thousands of allied troops are supporting Operation Enduring 
Freedom in the CENTCOM theater. Allies, and partners as well, have 
granted access to their airspace and facilities. Less visible but 
equally important is the enhanced information sharing occasioned by the 
invocation of Article V, which has provided numerous leads in the 
global war on terrorism. In sum, the Alliance continues to play an 
enormously valuable role for the United States.
    NATO began with 12 members, adding Greece and Turkey in 1952, 
Germany in 1955, Spain in 1982, and Poland, Hungary, and the Czech 
Republic in 1999. Article X of the North Atlantic Treaty provides for 
the accession of further European states. To be invited, members must 
unanimously agree that a candidate would adhere to the principles of 
the treaty and contribute to the security of the North Atlantic area. 
The record of the three newest members bears on the desirability of 
further enlargement.
    At the time of the 1999 accession, an interagency review estimated 
10 years would be required for full integration. The integration 
processes that we would expect to be accomplished in the first 3 years 
have been largely successful; the new members are fully engaged in the 
NATO defense planning process, manning the majority of their NATO staff 
positions, and are committed to making progress toward providing the 
forces and resources that NATO is asking of them. Despite the progress 
to date, we are learning that some long-term efforts, such as 
development of a non-commissioned officer (NCO) corps or major weapons 
systems acquisitions, will take longer, perhaps even a generation, 
before completion.
    The defense budgets for each of the new members have remained 
strong since accession despite domestic economic challenges. For 
example, the Czech Ministry of Defense was the only ministry to be 
spared cuts during their recent 2 year-long recession, and Poland's 6-
year defense plan guarantees defense spending at 1.95 percent of GDP. 
According to the Secretary of Defense's 2001 report on allied burden 
sharing, the Czech Republic, Poland, and Hungary, respectively, are 
ranked 6th, 8th, and 11th in terms of defense spending as a percentage 
of GDP in relationship to the other NATO members. While all three 
defense budgets will continue to face pressure from competing 
ministries, clearly the three new members have demonstrated the will to 
support national defense.
    The Czech Republic, Poland, and Hungary, thanks to their similar 
backgrounds, have proven to be excellent mentors to the current round 
of NATO aspirants. They are working to extend peace and security 
eastward. The Poles are particularly active with military-to-military 
contacts with Lithuania. The Czechs are active with the Slovaks and 
Lithuanians, and plan to contribute an artillery battalion to the 
2,500-strong Slovak-Polish-Czech Peacekeeping Brigade, expecting to be 
ready for duty by 2005.
    All three nations have made substantial contributions to ongoing 
operations, particularly in the Balkans. They supported Operation 
Allied Force by providing bases, airfields, and transit rights for NATO 
troops and aircraft. Their combined Stabilization Force (SFOR)/Kosovo 
Force (KFOR) troop contribution has historically averaged nearly 2,000 
troops. In response to NATO's April 2000 call for additional Reserve 
Forces, the Poles quickly sent an additional 700 troops. This planned 
60-day KFOR rotation lasted more than 5 months. More recently, the 
Czechs contributed an additional 120-man contingent to support 
Operation Essential Harvest in Macedonia.
    The three new members are making hard choices about where to spend 
their limited defense dollars, while maintaining the momentum they have 
established. We are watching their progress closely, and find 
significant challenges lie in areas such as developing a viable NCO 
corps, implementing an integrated planning, budgeting, and procurement 
process, and modernizing their inventory of Soviet-era equipment. 
Meeting these challenges will require significant monetary investment. 
Equally important, but not as costly, is continued exposure to Western 
schools and training, which will help them adapt to Western style 
thinking, leadership, and especially decisionmaking.
    Elected officials in all three countries face competing priorities 
for resources while their social systems and economies are still in 
transition. They must carefully prioritize, focus on their long-term 
goals, and avoid short-term expedient solutions. The key to success is 
sustained national will; only that can ensure the new member nations 
continue to progress in NATO integration.
    With each round of enlargement, the issues of cost, defensibility, 
and military capability are justifiably debated. As reported by the 
Congressional Budget Office, the addition of Poland, Hungary, and the 
Czech Republic to NATO reduced the U.S. share of the civil budget from 
23.3 percent to 22.5 percent, and the military budget from 28.0 percent 
to 26.2 percent. The U.S. share of the NATO Security Investment Program 
(NSIP) budget fell from 28.3 percent to 25.2 percent. The allies share 
the common costs of the 1999 enlargement, which NATO has estimated at 
$1.5 billion over 10 years, through the military budget and the NSIP. 
Of those costs, $1.3 billion is for infrastructure improvements that 
are to be paid by the NSIP. The U.S. share of that cost would be 
approximately $400 million--or roughly one-fourth over 10 years. The 
payoff resides partly in having airfields and logistics facilities able 
to support NATO and U.S. operations and exercises. Readiness also 
improves given the greater freedom of maneuver allowed our forces 
exercising in these countries.
    An additional, discretionary cost borne by the United States is the 
financing of purchases of U.S. equipment and training through security 
assistance. The President's request for fiscal year 2003 Foreign 
Military Financing (FMF) and International Military Education and 
Training (IMET) combined for the new members is just under $41 million. 
These Department of State grant funds support important Department of 
Defense initiatives to improve new member defense capabilities and 
enhance interoperability with U.S. forces, while providing U.S. access 
to new member militaries, governments, and bases. Thus, this sum could 
be seen as an investment, especially since the FMF funds return to the 
American defense industry in the form of equipment purchases. (IMET 
funds also return to the U.S. through the purchase of training and 
education.) I have provided some preliminary considerations, but other 
DOD organizations will provide authoritative cost forecasts for the 
upcoming round of enlargement.
    We must also consider the potential cost of not enlarging. The 
aspirant nations have put forth a strong effort in good faith toward 
becoming members, and have taken political positions in support of the 
Alliance in recent conflicts. Their elected officials have made 
membership an important part of their public agenda and sought to 
increase public support for NATO. From a military standpoint, the 
outstanding cooperation and support we have enjoyed in terms of troop 
contributions to ongoing operations and the use of infrastructure and 
transit rights could be jeopardized.
    President Bush has endorsed enlargement in principle, as did the 
heads of state of the other allies at last June's informal summit. The 
enlargement of NATO is ultimately a political, not a military decision. 
A country with a relatively weak military may still be a productive 
addition to the Alliance for strong political reasons alone. A case 
could also be made where a country with a strong military may not be a 
productive addition due to political concerns. There are nevertheless 
valid military considerations bearing upon suitability for membership.
    The nine aspirant nations have made considerable progress under the 
NATO Membership Action Plan (MAP) established in 1999. They have agreed 
to pursue Partnership Goals related to the MAP within the PfP Planning 
and Review Process. The Partnership Goals integrate lessons learned 
from the previous round of enlargement and the tenets of the NATO 
Defense Capabilities Initiative (DCI), providing a roadmap toward 
reform. NATO has provided the aspirants with feedback on their progress 
through assessments of both their accomplishment of Partnership Goals 
and their MAP annual national plans. U.S. European Command (USEUCOM) 
has conducted in-country assessments of aspirants' progress at the 
direction of the Secretary of Defense.
    The aspirants have a common legacy of authoritarian Communist 
defense planning that was unaccountable to the public. They have 
dedicated considerable effort to producing new national strategy 
documents in a transparent way, to garner public and parliamentary 
support. The aspirant militaries can be broken down into two main 
categories: those who inherited a burden of obsolete Warsaw Pact 
equipment and imbalanced personnel structures, and those who had to 
build armed forces from scratch. Romania, Bulgaria, and Albania fit 
clearly into the first category, and Slovakia to a lesser degree, since 
it began its existence as an independent nation in 1993, obtaining a 
disparate mix of one-third of the Czechoslovak armed forces.
    The Baltics fit clearly into the second category, having been 
stripped bare of all equipment and infrastructure upon the departure of 
Soviet forces. Similarly, Slovenia and Macedonia did not inherit any 
part of the Yugoslav armed forces upon independence. Aspirants with 
legacy militaries have struggled to downsize equipment and personnel 
while restructuring their forces according to their new strategic 
situation. Aspirants without legacy militaries have struggled to 
recruit sufficient qualified personnel and acquire a coherent mix of 
equipment.
    Areas of concern to both categories, on which they have made good 
progress, include English language capability, legal arrangements in 
support of operations, the ability to secure classified information, 
infrastructure to support NATO deployments, NCO corps development, and 
quality of life for troops. All are financially constrained in their 
reform efforts by small defense budgets, which compete with other 
national reform priorities.

                     ASPIRANT MILITARY CAPABILITIES

    As EUCOM's military contribution to the political decision making 
process regarding which aspirants the United States will support for 
admission to NATO, we have been tasked to provide the Secretary of 
Defense and the President with an assessment of each aspirant's current 
military posture. The aspirant countries have worked to develop their 
military capabilities, based on lessons learned in the previous round 
of NATO enlargement (Czech Republic, Poland, and Hungary) and through 
participation in Operation Enduring Freedom, SFOR, KFOR, PfP, and the 
MAP. In making our assessment of their progress and current status, 
EUCOM has focused on four primary areas: strategy and force structure, 
defensive capabilities, legal and legislative issues, and security 
procedures. Following is a general description of the criteria EUCOM is 
using to examine the aspirants in each of these four areas.
    Strategy and Force Structure. Sound national security and military 
strategy documents, effective interagency resource management, 
rationalized force structures, personnel management, and English 
language capability are top-level indicators of military potential. The 
capstone national strategy documents with public and parliamentary 
support are at various levels of development and approval, with no 
obvious stragglers. Planning, programming, and budgeting system-type 
resource planning is being implemented slowly.
    Military force structure is currently being revised to combine 
immediate reaction, rapid reaction, and main/territorial defense 
forces, with national resources, to include funding, focused on the 
first two. In all cases, transition requires painful personnel 
restructuring, and its success will be indicative of a sound National 
Military Strategy. Personnel management includes accession, knowing 
what specialists you have and need, a balanced rank structure, an 
effective NCO corps, quality of life, and professional education. These 
are building blocks of a quality force. Similarly, English language is 
the foundation of interoperability. All have made excellent progress in 
training key individuals during the last few years.
    Defense Capabilities. Defense capabilities, aligned according to 
the NATO DCI categories, are the heart of preparedness, and proof of 
sound planning and budgeting. The bottom line is: can they deploy a 
reasonably sized force, sustain it, communicate with it, protect it, 
and fight effectively with it? Deployability and mobility, particularly 
by air and sea, are generally weak areas for all aspirants. 
Sustainability and logistics, to include the nation's ability to 
support its deployed forces and to support NATO deployments on its 
national territory (host nation support, air transport handling, 
airfield, road, rail, and port infrastructure), vary among the 
aspirants.
    Effective engagement includes a basic ability to fight, on the 
offense and defense, in varying conditions of daylight, weather, 
terrain, etc. The aspirants have focused funding on equipping and 
training elite units in the short-term, expanding to the entire force 
in the long-term. In evaluating an aspirant's ability to engage 
effectively, we closely examine the capabilities of their land, air, 
and maritime forces. Air forces are expensive, and flying hours have 
been under-funded, resulting in degraded training. All aspirants have 
marginally effective air forces. Survivability of forces and 
infrastructure ensures the military can continue to fight once 
attacked. Survivability and engagement capabilities vary among the 
aspirants.
    Consultation, Command, and Control (a NATO term synonymous with 
U.S. C\4\), through reliable and secure communication and information 
systems strengthen the effectiveness and interoperability of forces. 
Aspirants have been investing in this area and have benefited from 
comprehensive C\4\ studies accomplished by USEUCOM and the USAF 
Electronic Systems Center. Most have demonstrated progress in 
establishing centralized C\4\ planning. Most aspirants can monitor 
their airspace, but have limited ability to enforce their airspace 
sovereignty. The U.S.-funded Regional Airspace Initiative has provided 
modern Air Sovereignty Operations Centers to all aspirants except 
Macedonia and Albania.
    Wrapping up defense capabilities, EUCOM assessed the aspirants' 
ability to deploy a small (company-sized) light infantry unit in 
support of NATO and their ability to sustain, protect, communicate, and 
fight with that force. NATO considers this size effort to be the lowest 
common denominator of capability that would be expected of any NATO 
aspirant.
    Legal and Legislative. Aspirants are aware that legal obstacles to 
reinforcement of, or transit by NATO forces, as well as to deployment 
of national forces in support of NATO, can be prejudicial to accession. 
All have resolved or are in the process of resolving these obstacles.
    Security. Another area of interest is the ability to protect 
classified information. The aspirants have fairly strict traditions 
regarding classified handling and are making good progress in the 
establishment of national authorities and policies, investigative 
clearance-granting services and document registries. Security of 
communications and information systems is generally weaker than 
physical and personnel security. Information assurance programs are at 
varying levels of development and progress.
    The military assessments of the aspirants, based on these criteria, 
continue to be updated. It would be premature at this point to publicly 
release relative comparisons or rankings.

                               CONCLUSION

    It is important to reaffirm that NATO's overarching objective of 
opening up the Alliance to new members is to enhance stability in 
Europe as a whole, more than to expand NATO's military influence or 
capabilities or to alter the nature of its basic defense posture. 
Clearly, the aspirants have focused their efforts on areas crucial to 
the previous NATO enlargement, as identified through the MAP process
    The steady integration record of Poland, Hungary, and the Czech 
Republic indicates further enlargement can be successfully managed. 
While being cognizant of the dollar cost of enlargement, we should keep 
in mind the potential costs of delaying enlargement. NATO remains 
relevant and viable in the post-September 11 world, and the aspirant 
nations offer limited but improving military capabilities and 
infrastructure to the Alliance. I will be pleased to provide the 
committee with any additional information it may require on this or 
other matters of concern.
                                 ______
                                 
           Prepared Statement by Gen. Joseph W. Ralston, USAF

                              INTRODUCTION

    Mr. Chairman, distinguished members of the committee, it is my 
privilege to appear before you as Commander in Chief, United States 
European Command (USEUCOM), to discuss the posture of U.S. forces in 
our theater. Since I last testified, USEUCOM has successfully promoted 
stability, strengthened ties with countries throughout the theater and 
maintained its ability to fight and win in armed conflict against all 
types of enemies--including asymmetric threats like terrorism. We have 
been able to do this because of your support in the past, and our 
ability to continue these efforts depends wholly upon your continued 
support in the future.
    The USEUCOM area of responsibility (AOR) encompasses a vast 
geographic region covering over 14 million square miles of the globe. 
It includes 91 sovereign nations stretching from the northern tip of 
Norway to South Africa, and from the Atlantic seaboard of Europe and 
Africa to parts of the Middle East and beyond the Black Sea. Our AOR's 
astonishing diversity encompasses the full range of human conditions: 
some nations are among the wealthiest of the world, while others exist 
in a state of abject poverty; some are open democracies with long 
histories of respect for human liberties, while others are 
dictatorships or failed states. Above all, USEUCOM's AOR is dynamic 
with new opportunities and new challenges regularly emerging.
    USEUCOM's missions are themselves complex and dynamic. The men and 
women of the Command operate throughout Europe, Africa, the Levant, the 
waters of the Mediterranean, and in the skies over Iraq. They serve in 
the Balkans in support of North Atlantic Treaty Organization (NATO) 
peace operations, and support the war on terrorism from locations 
throughout the theater. Through their presence, we maintain commitments 
to our regional friends and allies and clearly demonstrate our intent 
to preserve and protect our national interests. We do all of this with 
minimal force presence and a moderate level of resources.
    We also represent the U.S. contribution to NATO and promote U.S. 
leadership within that vital organization. Far from a Cold War relic, 
NATO's prompt invocation of Article V for the campaign against 
terrorism demonstrated the strategic flexibility that makes it as 
relevant today as it was 50 years ago. USEUCOM supports NATO's 
Partnership for Peace (PfP) program with active bilateral and 
multilateral relationships across Western and Central Europe, as well 
as the area formerly within the Soviet Union. This security cooperation 
contributes to the extraordinary democratic progress many nations have 
achieved both militarily and politically. This interaction also helps 
counter both conventional, coercive threats and international terrorism 
by helping to ensure that our respective strategies are complementary. 
By ensuring access, interoperability and intelligence cooperation, our 
efforts have dramatically expanded the range of options available to 
the President and Secretary of Defense. A similar process, adapted to 
subregional conditions, helps maintain stability in the Middle East and 
North Africa. All of these efforts depend on USEUCOM's core 
capability--conducting rapid and decisive military operations across 
the spectrum of conflict. When called, USEUCOM stands ready to step up 
to a conflict and win it.
    The horrific events of 11 September 2001 and shortly thereafter 
acutely remind us of the conventional, chemical, biological, and, 
potentially, nuclear terrorist threats that exist throughout the world. 
At the same time, emerging opportunities within the theater are 
allowing us to more effectively combat these threats to Americans both 
abroad and at home. Indeed, several nations within our AOR have 
provided intelligence, basing and overflight rights and other forms of 
key support in our global efforts to combat terrorism. Without an 
aggressive and continuous security cooperation program, many of these 
opportunities would not have been possible. The continued pursuit of 
these opportunities will allow us to more effectively accomplish our 
most important mission--the protection of the American people and our 
way of life.
    To successfully prosecute the global campaign against terrorism in 
Europe and Africa while remaining postured to meet emerging threats 
across the spectrum of conflict, we particularly need your support in 
four critical and interrelated areas--all of which are closely tied to 
our supporting infrastructure. These four critical areas are force 
protection; the sustainment, restoration and modernization (SRM) of our 
existing infrastructure; new military construction (MILCON); and 
modernization of our outdated command, control, communications, and 
computers (C\4\) infrastructure.
    Force protection is a fundamental concern and takes on an added 
dimension in this theater because our forces' training, day-to-day 
operations and off-duty and family time are spent on foreign soil. We 
have realigned resources to assist in perimeter defense and reallocated 
intelligence assets to more aggressively pursue analysis of terrorist 
organizations and share intelligence with coalition partners and 
allies. But still more needs to be done, and we need your continued 
assistance in addressing force protection shortfalls. We also need your 
support for continued, revitalized investment in the sustainment, 
restoration, and modernization (SRM) of our existing infrastructure, as 
well as new military construction. Our ability to project American 
power, protect our forces and provide our service members with an 
appropriate quality of life all depend on the health of our 
installations and facilities. Finally, we need your help in modernizing 
our woefully outdated command, control, communications, and computers 
infrastructure. I will expand upon each of these needs later in this 
statement, but first I would like to update you on our strategic vision 
for the theater, our ongoing operations and security cooperation 
initiatives, and some of the high-profile issues and unique challenges 
we encounter in our area of responsibility.

             STRATEGIC VISION OF THE U.S. EUROPEAN COMMAND

    Consistent with the 2001 Quadrennial Defense Review, USEUCOM 
envisions maintaining and posturing a force that will assure U.S. 
allies and friends in our AOR, dissuade potential adversaries, deter 
threats and counter coercion, and, if necessary, decisively defeat any 
adversary.

        <bullet> Assure Allies and Friends: The presence of potent U.S. 
        forces served as a visible guarantee of U.S. commitment during 
        the long years of the Cold War. In today's security 
        environment, visible military presence lends credibility to 
        U.S. policy declarations that would not otherwise be 
        achievable. Because ``we are here,'' our allies and friends are 
        assured that they can count on us and they take our national 
        positions into account in their own political and military 
        decision processes. Likewise, a potential aggressor is less 
        likely to be deceived about U.S. commitment and resolve.
        <bullet> Dissuade Potential Adversaries: Against the backdrop 
        of continuing U.S. modernization and transformation, the 
        forward presence and activity of U.S. forces is a powerful 
        deterrent to potential aggressors who might contemplate a 
        military challenge against us or our friends and allies. U.S. 
        unilateral, Alliance, and coalition capability is so clearly 
        superior that most potential aggressors are dissuaded from 
        committing resources to a manifestly hopeless competition. 
        However, there remain asymmetric threats in the world today 
        that may not be influenced by our superior conventional 
        military capability alone. To dissuade these potential 
        adversaries we must continue to develop new, cooperative 
        capabilities to deter, and if necessary, defeat asymmetric 
        threats.
        <bullet> Deter Threats and Counter Coercion: Despite our 
        efforts to dissuade potential adversaries, a regime or group 
        may convince itself that the U.S. will not respond to 
        aggression because of a lack of will or interest, or 
        commitments elsewhere. USEUCOM is ready to respond with actions 
        to disabuse such actors of their mistaken impression and 
        simultaneously prepare for conflict should a miscalculation be 
        translated into action against us.
        <bullet> Decisively Defeat Any Adversary: History shows that 
        periodically, at unexpected times and places, we are confronted 
        with actual aggression. Whether military or non-military, 
        conventional or unconventional, proportional or asymmetric, 
        these threats can be highly destructive. USEUCOM stands ready 
        to face and defeat any aggression in our AOR.

              U.S. EUROPEAN COMMAND STRATEGIC FUNDAMENTALS

    To achieve the USEUCOM vision, we focus on four strategic 
fundamentals: security cooperation, forward presence, readiness and 
joint training, and interoperability.
Security Cooperation
    Our strategic vision is best achieved in concert with allies, 
partners and friends, and USEUCOM aggressively pursues a number of 
programs that create conditions for coordinated, combined military 
action. An example of this cooperative effort includes the commitment 
made by Turkey during Operation Enduring Freedom to use its airspace, 
bases and Special Forces units to assist in the war against terrorism. 
Other NATO allies, as well as many non-NATO partners, have contributed 
personnel and equipment to the fight against terrorism, the closely 
associated humanitarian relief effort, or both. Our in-theater presence 
and day-to-day military interaction with both our NATO allies and non-
NATO partners was key to bringing this commitment to fruition. Other 
security efforts in theater include working with our friends throughout 
Africa to improve their peacekeeping capabilities, increasing military 
cooperation with Russia, and developing new relationships with 
countries of the Caucasus region. These efforts have protected and 
strengthened important U.S. economic and security interests, while 
assuring our European friends that the U.S. remains committed to 
European security.

Joint Training and Interoperability
    Not only must we be concerned with our interoperability with our 
partners in the theater, we must also be concerned with 
interoperability among our own Armed Services. By exploiting the 
symbiotic relationship between interoperability and joint training, we 
capitalize on the opportunities to improve our readiness. Accordingly, 
USEUCOM's training program, based on established mission requirements 
and driven by training objectives, emphasizes both joint (multi-
service) and combined (multi-national) exercises within available 
resources.
    Although we have made substantive progress in materiel and 
equipment interoperability among the services, information 
interoperability remains a major challenge. As the technologies that 
allow us to exchange information improve, it is important that we be 
able to understand this information. We gain this level of information 
interoperability through common systems architecture and through 
practice in our joint and combined training and exercise events.

Forward Presence
    Without a forward presence in Europe our activities in Africa, 
Eastern Europe, and the Caucasus would be logistically and financially 
prohibitive. The forward presence of strike platforms; intelligence, 
surveillance and reconnaissance (ISR) assets; amphibious units; and 
Special Forces is vital to our ability to conduct timely and effective 
military operations. Make no mistake, our ability to rapidly respond to 
crises is critical to the stability of our AOR. Our location, literally 
``one ocean closer'' to many places of conflict, uniquely situates 
USEUCOM as a strategic platform from which to rapidly project forces to 
protect American interests. In the past year, our forces have been used 
to both deter aggression and demonstrate U.S. resolve.

Readiness
    The readiness of USEUCOM's assigned forces is our most significant 
contribution to national security. Our security cooperation efforts 
help sustain readiness by providing valuable training opportunities 
while strengthening interoperability and relationships with those 
alongside whom we may meet future threats. These activities help shape 
the international environment by incorporating other nations and 
improving our multinational expertise in the region. They also improve 
our ability to respond unilaterally or in concert with other nations, 
and they prepare us for the uncertain regional requirements of the 
future. Thanks to the support of Congress, forces assigned to this 
theater are well-prepared for their current operations. The Command's 
forces are fully engaged and continue to rely upon augmentation and 
Reserve Forces to carry out our many diverse missions. Dedicated young 
men and women valiantly executing a wide variety of operations to 
support our national strategy make up the heart of our theater readiness.

                           CURRENT OPERATIONS

    Over the last year, the Nation called upon USEUCOM to demonstrate 
its readiness by conducting a wide range of operations across the range 
of military operations.
Operation Enduring Freedom
    Following the events of 11 September, USEUCOM, in a cooperative 
effort with U.S. Central Command (USCENTCOM), has played a significant 
role in operations associated with the war on terrorism in Afghanistan. 
Every USEUCOM component has provided invaluable personnel, equipment, 
and logistics support to this effort. Tons of supplies and pre-
positioned equipment have been pushed rapidly forward to support 
operations at remote locations. Ramstein Air Base, Germany served as a 
vital staging base for U.S. Transportation Command (USTRANSCOM) 
aircraft executing humanitarian assistance airdrop missions that 
provided approximately 2.4 million rations in 197 sorties over a 3-
month period. On 15 November, three C-17s operating out of Ramstein Air 
Base dropped over 105 tons of humanitarian supplies, including wheat, 
blankets and daily rations in Afghanistan--the largest single drop in 
history. Incirlik Air Base, Turkey also played a critical role, 
supporting these C-17 air mobility missions with a forward based KC-135 
aerial refueling capability. Additionally, Incirlik served as a 
logistics hub for USCENTCOM bound humanitarian assistance missions 
coming through USEUCOM's AOR, allowing those aircraft to deliver 
thousands of pounds of humanitarian supplies. Those missions engendered 
support within the population of Afghanistan for the U.S. cause and 
undermined support to the Taliban.
    USEUCOM has received and coordinated critical support from our NATO 
allies in the war on terrorism. For more than 50 years, NATO looked 
east, perfecting plans to rapidly move forces to reinforce Europeans 
allies and halt aggression. It is an irony that the first time NATO 
invoked Article V of the Washington Treaty, it was to send forces west 
to help secure U.S. skies in the aftermath of the 11 September attacks. 
NATO Airborne Early Warning (NAEW) aircraft have been patrolling the 
skies over North America, replacing U.S. Airborne Warning and Control 
System (AWACS) that have deployed in support of Operation Enduring 
Freedom. NATO's Standing Naval Forces have also deployed to the Eastern 
Mediterranean. Germany and Canada provided cargo aircraft and the 
essential manpower and expertise to prepare and load cargo pallets for 
shipment. Berlin also provided additional force protection personnel 
from the German Army and National Police Force to guard key U.S. 
facilities in Germany. The United Kingdom contributed directly to 
strike missions in Afghanistan, and several countries, including the 
UK, Germany, France, Spain, Italy, the Netherlands, Norway, Denmark, 
Portugal, Belgium, Canada, Greece, and Turkey have indicated their 
willingness to assume prominent roles in the post-conflict 
stabilization effort.
    Our non-NATO partners in Europe have provided similar assistance. 
Bulgaria's enthusiastic support of OEF serves as a case in point. Like 
Ankara, Sofia provided basing rights for our tanker aircraft that 
refuel the humanitarian flights. Romania, Sweden, and Finland have also 
offered to assist in post-conflict stabilization. In short, while the 
capabilities of each European nation are different, all can contribute 
to this effort, and virtually all have. Some nations contributed 
directly to the military strikes in Afghanistan, while others extended 
over-flight rights, froze terrorist financial assets, and detained 
suspected terrorists in their respective countries. USEUCOM has been, 
and continues to be, center stage in coordinating these efforts among 
our allies and friends in the AOR.
Operation Northern Watch
    The Combined Joint Task Force (CJTF) Operation Northern Watch 
(ONW), consisting of forces from the U.S., Turkey and the United 
Kingdom, continues to enforce the Northern No-Fly Zone (NNFZ) over Iraq 
and monitor Iraqi compliance with applicable U.N. Security Council 
resolutions. These missions are dangerous and complex, and in the last 
year, Iraqi air defense challenges to these missions have become more 
frequent. Coalition forces have taken all available force protection 
measures. Saddam Hussein's strategy of eroding international support 
for applicable U.N. resolutions may be threatened by new international 
appreciation for the dangers of terrorism and rogue states. USEUCOM 
will continue to play a prominent role in enforcing the NNFZ and in 
ensuring Iraq's compliance with U.N. resolutions.
Balkan Operations
    One of the greatest challenges to peace, stability, and democracy 
in Europe is the integration of the Balkan states into the rest of the 
continent, an objective the U.S. shares with our allies. Prospects for 
regional stability have improved due to the international community's 
focused and unified efforts. Recent developments, like the Former 
Yugoslav Republic of Macedonia (FYROM) parliamentary approval of the 
Framework Agreement and the peaceful provincial elections in Kosovo, 
have increased regional stability.
    We continue to scrutinize both the size and structure of U.S. 
forces deployed to the Balkans, both unilaterally and as part of NATO's 
Six Month Reviews (SMR). Operation Joint Forge continues to enforce the 
General Framework Agreement for Peace (GFAP) by providing military 
presence in Bosnia-Herzegovina to deter hostilities, promoting a stable 
environment, and supporting a transition to civil authority. In Bosnia, 
force numbers have been reduced from 60,000 when the mission began, to 
just over 17,000 personnel. Europe as a whole has endeavored to live up 
to its personnel and financial commitments of support to Balkan 
operations. Thirty-two nations contribute forces to the Stabilization 
Force (SFOR), with the 28 European nations comprising 80 percent of the 
combined force. The U.S. has reduced its troop commitment from over 
20,000 (33 percent of the total force) in 1996 to 3,100 (approximately 
18 percent) today. The way ahead in Bosnia remains contingent upon the 
international community's ability to build civil institutions, reduce 
and restructure indigenous armed forces, and promote the rule of law. A 
key provision is the establishment of a competent Bosnian Police Force. 
An international police presence is also required to assist Bosnian 
police and provide in extremis protection to international personnel. 
Further reductions in troop strength through the biannual NATO SMR are 
possible.
    Apprehending the remaining war criminals is an important aspect of 
reestablishing the rule of law throughout the Balkans, and this remains 
among SFOR's highest priorities. Within Bosnia, SFOR is continually on 
the alert for fugitives indicted by the International Criminal Tribunal 
for the Former Yugoslavia (ICTY), or for information that might lead to 
their apprehension. By the ICTY's figures, the effort to bring war 
criminals to justice has been successful. Since the Tribunal's 
inception, 116 individuals have been publicly indicted with 30 still at 
large--the vast majority of whom have not been heard from in a number 
of years. There is little information available on the remaining few, 
but we do know those still alive reside outside SFOR's mandated area; 
rarely, if ever, enter Bosnia; and take extraordinary, potentially 
violent precautions to remain free. When actionable intelligence is 
available we act to detain these individuals. In addition to military 
action, some of the accused have also come into custody through the 
efforts of various national police forces and voluntary surrenders. 
Many of the accused known to be alive and at large reside in locations 
where the governments might be motivated to cooperate with the 
international authorities through political or economic inducements. 
This has arguably been successful in the past, with the most notable 
example that of the arrest, imprisonment, and subsequent extradition of 
Slobodan Milosevic to The Hague.
    Operation Joint Guardian remains the lynchpin supporting NATO 
military operations in Kosovo (KFOR). KFOR has just under 35,000 troops 
deployed in Kosovo which is 4,000 less than when I testified to this 
committee last year. This force is drawn from 34 nations, including 
Russia, and, as in Bosnia, the Europeans have stepped up to this 
commitment with 31 European countries deploying over 80 percent of the 
total force. The U.S., with approximately 5,200 troops in Kosovo, 
provides around 15 percent of the force. Despite the cessation of 
active hostilities in the FYROM, sporadic violence still erupts 
throughout the region. Although the number of violent actions appears 
to be declining, KFOR continues to require a significant military 
presence for the foreseeable future to deter renewed hostilities.
    The international community has made substantial progress in laying 
the foundation for returning the rule of law to Kosovo, and, just as in 
Bosnia, this is where an exit strategy must begin. The United Nations 
Mission in Kosovo (UNMIK) police force is currently supported by 51 
nations. Additionally, the Organization for Security and Cooperation in 
Europe's (OSCE) Kosovo Police Service School (KPSS) has graduated over 
4,000 multi-ethnic officers since its inception in September 1999. The 
U.N. policing plan is on target and continues to put officer graduates 
alongside UNMIK veteran contract officers. The ultimate goal of this 
endeavor is to replace the U.N. contract police force entirely, turning 
law enforcement responsibilities over to the citizens of Kosovo. On the 
other side of the equation, UNMIK has published more than 100 
regulations with the force of law. They have also appointed more than 
400 local judges and prosecutors, with five district courts and some 
lower courts in operation. Finally, 11 international judges and five 
international prosecutors have been appointed to the district courts, 
and an international judge now sits on the Supreme Court.
    The FYROM faces daunting new challenges with regard to its current 
political and security situation. The government of FYROM recently 
concluded a political settlement through a U.S./EU/NATO-brokered 
Framework Agreement (FWA) with the country's four leading political 
parties. This FWA successfully met the NATO-established preconditions 
for facilitating the voluntary disarmament of the National Liberation 
Army (NLA), called Operation Essential Harvest. NATO's North Atlantic 
Council determined that a NATO mission, termed Operation Amber Fox, 
would provide an in extremis extraction force to support OSCE and EU 
monitors following Operation Essential Harvest. On 15 November 2001, 
the FYROM Parliament ratified the FWA, which institutionalized 
constitutional reforms. The return of FYROM security forces to crisis 
regions is proceeding in coordination with EU and OSCE monitors.
    One dynamic at work that raises concerns for all U.S. and NATO 
forces in the Balkans is the presence of elements with ties to 
international terrorist networks. Although to date no U.S. forces in 
the Balkans have been attacked, the region has surfaced as a potential 
trouble spot in our war against terrorism. Accordingly, we have 
developed an aggressive, regional counterterrorism program that 
includes U.S. and Alliance military forces, our respective national 
agencies and, to the maximum degree possible, the local Balkan 
governments. We are using tactical counterintelligence and human 
intelligence (HUMINT) capabilities to great effect in identifying 
terrorist network operations and curtailing them throughout the region. 
Continuing to invest in HUMINT and engaging the population to develop 
information on potential threats and their intentions is important both 
to peace and stability operations in the Balkans and to our global 
counterterrorism efforts.
Operation Focus Relief
    Although now complete, Operation Focus Relief is a clear example of 
a USEUCOM success story in Africa. The impetus for Operation Focus 
Relief was the near collapse of the United Nations Aid Mission in 
Sierra Leone (UNAMSIL) in early 2000. The U.S. committed to train and 
equip military forces from West African nations in the essential skills 
required to participate in U.N. Chapter VII peacekeeping operations in 
Sierra Leone. In the fall of 2000, Special Forces under the operational 
control of Special Operations Command, Europe, began training and 
equipping light infantry battalions from Nigeria, Ghana and Senegal to 
meet the challenges posed by antigovernment forces in Sierra Leone. 
U.N. officials have acknowledged the performance of the U.S. trained 
troops, and the situation in Sierra Leone has improved. Initiatives 
like OFR train Africans to help themselves, reduce the potential need 
for U.S. troops to be deployed to the continent, and provide a valuable 
opportunity for military-to-military interaction and the promotion of 
democratic values in an area of increasing importance to U.S. global 
interests. OFR and operations like it are a worthwhile investment.

                    MILITARY COOPERATION ACTIVITIES

    Beyond current operations, USEUCOM remains engaged in a wide range 
of cooperative security and military activities designed to strengthen 
our strategic partnerships and better prepare us to meet future crises.
Defense Cooperation and Security Assistance
    Defense cooperation and security assistance programs are vital to 
attaining foreign policy and national security objectives. These 
programs promote interoperability with U.S. forces and help to build 
professional, capable militaries in friendly and allied nations. 
Through 40 Offices of Defense Cooperation (ODC), we are in partnership 
with U.S. embassies throughout the theater conducting military security 
cooperation in support of U.S. objectives, to include promoting an 
international coalition capable of fighting terrorism.
    Foreign Military Financing (FMF) provides irreplaceable resources 
for modernizing the military forces of our friends and allies, and has 
been essential to U.S. influence during the dynamic transformation of 
Central and Eastern Europe and key African partners. FMF assists 
nations without the means to acquire U.S. military goods, services and 
training and provides access to U.S. expertise in defense restructuring 
and management. These programs, designed to promote interoperability, 
are essential to our coalition operations. A priority this year is 
restoring FMF to Turkey, an indispensable ally who has demonstrated the 
value of its geo-strategic position in virtually all of our on-going 
operations.
    Likewise, Foreign Military Sales (FMS) of $4.5 billion in fiscal 
year 2001 to Europe demonstrate the continued primacy of Trans-Atlantic 
defense relationships to U.S. security interests. FMS encourages 
interoperability between U.S. and European forces, maintains a strong 
U.S. presence in the development and implementation of the Defense 
Capabilities Initiative (DCI), and helps modernize the militaries of 
new friends and partners in ways critical to our security interests. We 
have worked closely with the Defense Security Cooperation Agency and 
the services to ensure that USEUCOM's priorities are reflected in the 
fiscal year 2003 budget request.
International Military Education and Training (IMET)
    IMET is perhaps our greatest tool for promoting long-term 
beneficial change in foreign militaries, as foreign military and 
civilian leaders encounter firsthand the American civil-military 
culture. IMET focuses on professional development, the role of the 
military in a democratic society and English language training. In 
fiscal year 2001, the program trained almost 1,450 military and 
civilian international students in U.S. military schools. In Sub-
Saharan Africa, IMET is particularly important as it provides 
educational opportunities that emphasize and reinforce civilian control 
of the military, which contributes to domestic stability. The increase 
in IMET funding for fiscal year 2002 is absolutely the right course of 
action, providing a great return for a relatively small investment.
Partnership for Peace (PfP)
    NATO's PfP program continues to meet its goal of deepening 
interaction, extending stability in Eastern Europe, providing 
consultation mechanisms for participants who feel threatened, assisting 
in the pursuit of democratic reforms, and preparing nations for 
possible NATO membership. Besides underpinning strategic stability in 
Central and Eastern Europe, the program provides a basis for 
cooperation with Central Asian states supporting our war on terrorism. 
By including partner nations in NATO combined joint task force (CJTF) 
exercises, we have increased coalition interoperability, which now 
allows partner nations to contribute to NATO operations in the Balkans 
and provide structure for regional security initiatives.
Regional Centers for Security Studies
    The George C. Marshall European Center for Security Studies is at 
the forefront of our regional security cooperation efforts in Western 
and Central Europe as well as Eurasia. A jointly funded U.S. and German 
venture, the Center strengthens security cooperation among European 
nations and serves as an indispensable institution for bilateral and 
multilateral activities, and military and civilian exchanges throughout 
the region. The Marshall Center is an important part of our interaction 
with Russia. In fact, the Center's largest participating nation is 
Russia (147 individuals), with Romania second (127), and Ukraine third 
(125). Over 6,000 military and civilian leaders from North America, 
Europe and Eurasia have participated in Marshall Center programs since 
1994. As a result, the Center has helped nations develop national 
security strategy documents, restructure crisis management programs, 
improve their defense management resource processes, properly balance 
military expenditures, and undertake responsible defense reforms. 
Marshall Center graduates continue to move into positions of 
increasingly greater influence. They now include over 50 Ministers/
Deputy Ministers of Defense, Chiefs/Deputy Chiefs of Defense, cabinet 
officials, parliamentarians, ambassadors, and flag officers.
    Building on the success of the Marshall Center, the Africa Center 
for Strategic Studies (ACSS) was established in December 1999. ACSS 
provides a series of seminars, symposia, conferences, and outreach 
programs designed to promote good governance and democratic values in 
the African defense and security sectors. The Center conducted two 
seminars in fiscal year 2001, the first in Gabon during February and 
the second in Ghana during August. In the absence of a permanent site 
on the African continent, ACSS currently rotates the location of its 
seminars. Once ACSS is permanently located in Africa, it will be 
continuously and more effectively involved with the countries on the 
continent. The Center verifies America's long-term commitment to work 
with our partners in Africa, while enhancing our national strategy 
through relatively low-cost, high-impact engagement opportunities.
    The mission of the Near East South Asia Center for Strategic 
Studies (NESA CSS) is to enhance stability by providing an academic 
environment where regional strategic issues can be addressed, 
partnerships fostered, defense related decision-making improved, and 
cooperation strengthened among military and civilian leaders from the 
region and the U.S. Located at the National Defense University in 
Washington, NESA CSS held its inaugural event 31 October 2000. Since 
its inauguration, the center has conducted three executive or senior 
executive level seminars, as well as a short seminar focusing on 
National Missile Defense. After 11 September, NESA CSS initiated a 
``Washington Seminar Series'' on counterterrorism to foster a coalition 
to deal with this threat. Like ACSS and the Marshall Center, NESA CSS 
provides a low cost, high-impact engagement opportunity that solidifies 
America's commitment to work with Near East and South Asian partners in 
a way that supports our national strategy and objectives.
African Crisis Response Initiative
    The African Crisis Response Initiative (ACRI) is a security 
cooperation activity designed to enhance the training and operational 
capabilities of African militaries for increased participation in 
multinational humanitarian relief and peacekeeping operations. The 
program is managed jointly by the Department of State and the 
Department of Defense (DOD), with USEUCOM designated by DOD as the 
executive agent for all military training. ACRI has trained militaries 
in eight African nations to date. The goal of ACRI is to 
institutionalize self-sustaining military skill sets and crisis 
response capabilities within African militaries. ACRI trained forces 
could be offered by their governments for peacekeeping and humanitarian 
operations upon request by the United Nations, the Organization of 
African Unity, subregional African organizations, or other 
multinational coalitions. ACRI works to shape the African military 
culture by promoting professional and apolitical militaries, 
reinforcing respect for human rights and providing a strong example of 
democratic, civil-military relations. Because ACRI promotes stability 
and security in a volatile region, USEUCOM supports continuing the 
program to include adding new partner nations and assisting current 
partners in sustaining proficiency. We should also expand the 
relationship with subregional organizations and increase crisis 
response capabilities at the multinational level.

                             THEATER ISSUES

    Each unified command has its own high visibility issues within its 
geographic boundaries. This section addresses the most prominent of 
those in the USEUCOM area of responsibility.
U.S. Support to NATO
    U.S. funding commitments to NATO are based on obligations agreed to 
at the North Atlantic Council (NAC), composed of representatives from 
each of the member nations. Shortfalls in U.S. funding for NATO have 
been chronic in the past and have only served to erode American 
credibility and thwart our national programs while forcing DOD to 
divert monies from other mission essential areas. I encourage Congress 
to recognize that full funding of our NATO commitments will help ensure 
the full execution of national programs, as well as the continued 
security and stability of Europe.
NATO Enlargement
    NATO membership addresses a major preoccupation of Central European 
states with their national security by extending the common defense 
guarantee of Article V. While NATO has successfully evolved into an 
organization capable of conflict prevention and management, the 
Alliance's invocation of Article V following the 11 September terrorist 
attacks and the many contributions of NATO allies and aspirants to the 
counterterrorism effort, have demonstrated that NATO's collective 
defense role maintains value. Indeed, the war on terrorism has provoked 
new thinking about NATO's role in the future, as well as the benefits 
of admitting new members given the tremendous support of the aspirant 
nations in the wake of the attack. Nine nations--Albania, Bulgaria, 
Estonia, Latvia, Lithuania, the Former Yugoslav Republic of Macedonia, 
Romania, Slovakia, and Slovenia--all aspire to an invitation to join 
the Alliance during the Prague summit in November of this year. 
President Bush affirmed strong U.S. support for the open door policy, 
underscoring that the U.S. ``will be prepared to make concrete, 
historic decisions with allies to advance NATO enlargement'' at Prague.
    Ultimately, political factors and allied consensus will determine 
each aspirant's suitability for membership. As our military 
contribution to this process, USEUCOM has provided detailed defense 
assessments of each aspirant's military readiness to the Pentagon. The 
nine aspirants have greatly benefited from U.S.-funded defense reform 
studies and the NATO Membership Action Plan (MAP) with its associated 
Partnership Goals in addressing these challenges. These mechanisms have 
provided a valuable roadmap toward democratic military reform and 
interoperability.
Defense Capabilities Initiative
    The objective of the Defense Capabilities Initiative, launched at 
NATO's 1999 Washington summit, is to ensure the effectiveness of 
multinational operations across the full spectrum of Alliance missions. 
The Initiative's two primary thrusts, improving national capabilities 
and exploring means to pool capabilities, allow our allies and partners 
to enhance interoperability, take advantage of economies of scale, and 
afford participation to those countries that lack the resources to act 
alone. The Defense Capabilities Initiative contains 58 classified 
objectives in 5 broad categories: deployability and mobility, 
sustainability and logistics, effective engagement, survivability, and 
command and control.
    In June 2001, a North Atlantic Council Defense Ministers Session in 
Brussels acknowledged progress in some Defense Capabilities Initiative 
areas, but noted a number of critical and long-standing deficiencies in 
others. Emphasizing the political, diplomatic, and economic advantages 
afforded by multilateral operational capability, NATO Secretary-General 
Lord Robertson has repeatedly encouraged improved capabilities by two 
means: more efficient use of available resources, and when necessary, 
increased funding.
European Security and Defense Policy (ESDP)
    The EU remains committed to developing a common ESDP among its 
members, and the 11 September attacks have enhanced that commitment. 
Clearly, this is a positive development. In our view, ESDP can 
strengthen Europe's security posture as long as it is achieved in a 
manner that is complementary to NATO, not in competition with it. Both 
U.S. and NATO interests are best served by a relationship with the EU 
that results in transparency and cooperation. Accordingly, U.S. 
leadership must continue to assist efforts to harmonize NATO and EU 
policies and avoid duplication of command, control, communications, 
computers and intelligence (C\4\I) structures and processes. NATO's 
Supreme Headquarters Allied Powers Europe (SHAPE) should continue to 
play the central role in military planning to meet crises and 
contingencies. Likewise, if the EU were to create a duplicate planning 
headquarters, it would only serve to make it more confusing to develop 
coherent plans and hence, complicate the process of gaining the 
consensus needed to act. The EU should also seek to avoid investing 
limited resources in ESDP capabilities that are redundant with, as 
opposed to complementary to, NATO capabilities. Equally important is 
avoiding the imposition of dual mission requirements on units and 
resources already stretched thin. The best way to do this is to give 
the Deputy Supreme Allied Commander a robust role as strategic 
coordinator for both NATO and EU-led operations.
Missile Defense
    The evil of terrorism is a real global threat, with certain radical 
groups and nations willing to utilize any available weapon of mass 
destruction to further their cause. As potentially hostile states work 
to develop long-range missiles to coerce and threaten countries in 
North America and Europe, we must be prepared to respond to the worst 
possible threats. As the President has made clear, we must have a 
missile defense capability that protects not only the U.S. and our 
deployed forces, but also our friends and allies. As we develop missile 
defense, USEUCOM will continue to consult with our friends in the AOR. 
The argument that Europe would be more secure if the U.S. were less 
secure from a missile attack is unreasonable. An America less 
vulnerable to accidental or rogue attack will be less distracted from 
the issues associated with European defense and other common security 
interests. What we have found in discussions with our allies is not 
necessarily an argument with the concept of a missile defense, but 
rather concern for the future relationship between the U.S. and Russia. 
These concerns have softened significantly following the discussions 
last year between Presidents Bush and Putin. NATO Secretary-General 
Robertson, in tandem with U.S. policymakers, also continues to develop 
this issue through NATO's political structure.

                        REGIONAL CONSIDERATIONS

Russia
    Although newly assigned to USEUCOM's AOR [UCP Resolution 
Dependent], Russia clearly plays an immense role in the theater. U.S. 
and Russian forces maintain excellent working relationships within the 
two Balkan missions, SFOR and KFOR. Everyday, troops from our two 
countries conduct combined training and execute common missions side-
by-side as we continue to strengthen stability in the region. In 
addition to the strong cooperation in the Balkans, USNAVEUR has taken a 
leading role in security cooperation between the U.S. and Russian 
Federation navies. The Russian Federation Navy participated in this 
year's BALTOPS 01 exercise, and recent events between the Russian Black 
Sea Fleet and the U.S. Sixth Fleet have shown that our respective naval 
forces can successfully operate together. Planning for future events 
continues, as a Russia-U.S.-U.K. working group conference hosted by the 
Royal Navy in London laid the groundwork for a five-day conference and 
wargame to be held in May 2002. The shared threat of international 
terrorism, particularly that propagated by Islamic extremists, offers 
the chance for further political, diplomatic, and, potentially, 
military cooperation.
    While there are several signs of improvement in the U.S.-Russian 
military relationship, the Russian military has not yet completely 
committed itself to a wider, long-term security cooperation program. 
Although President Putin currently supports U.S. efforts to combat 
terrorism, Russian defense officials remain cautious of U.S. motives 
and intentions, particularly in Central Asia and the Caucasus. Still, 
the Putin administration's increased interaction with both the U.S. and 
NATO, offers us new opportunities to reduce suspicions and build mutual 
trust.
Caucasus
    The importance of Caucasus oil and gas reserves and their ability 
to meet growing European energy needs, comes precisely at a time when 
Russia is still immersed in its yet to be completed social, political, 
and economic evolution. It also comes at a time when China is emerging 
as a major regional economic and political power, with vastly increased 
energy requirements. With relief from the restrictions of Section 907 
of the Freedom Support Act, USEUCOM can more effectively embark upon a 
program of military interaction in the Caucasus. Contacts with 
Azerbaijan and Armenia will ensure these countries are exposed to a 
long-standing democratic military model, and will also enable us to 
exploit the opportunities these countries, particularly Azerbaijan, 
offer the United States in support of the war on terrorism.
    Azerbaijan is integral to the stability of Eurasia. Its geo-
strategic position; pro-western economic, political and military 
orientation; and its abundant energy resources, have already proven to 
be high priorities for USEUCOM security cooperation efforts. 
Azerbaijan's cooperation, as demonstrated through the offer of its 
airfields during OEF and its hosting of a NATO PfP exercise, sends a 
positive signal of its commitment to be a valuable and reliable ally. A 
stable Azerbaijan is necessary not only because of its vast energy 
deposits, but also because it can help forestall terrorism and the 
proliferation of weapons of mass destruction.
    Armenia, historically a strategic partner with Russia, has also 
persistently and vocally pursued closer ties to the U.S. at the highest 
levels. Armenia's motivation lies in its eagerness to enlist the U.S. 
to mitigate historically hostile relations with Turkey and attract 
potential economic development assistance and investment that Russia 
cannot provide. Armenia has asked for U.S. advice on establishing a 
program of instruction for a national military senior service college 
and for help in establishing peacekeeping units that could participate 
in international efforts such as the Balkans. With relief from the 
restrictions of Section 907, USEUCOM will be able to take advantage of 
these opportunities.
    Our military interaction with Georgia has continued to increase 
since that nation was added to USEUCOM's AOR 4 years ago. Georgia 
hosted its first multinational NATO PfP exercise with USEUCOM support 
in 2001, providing a good example of the kind of security cooperation 
opportunities we can achieve, not only there, but also potentially in 
Azerbaijan and Armenia. Based on Department of State guidance, USEUCOM 
is considering an ambitious program to assist in the reformation of the 
Georgian armed forces, from top to bottom, to provide the government of 
Georgia the ability to better defend and secure its sovereignty. It is 
important to note that Georgia's internal security situation has only 
recently begun to stabilize, and we remain concerned about the presence 
of terrorist-related activities there. We are addressing these concerns 
in our own counterterrorism campaign.
Middle East
    Israel, Syria, and Lebanon lie within USEUCOM's area of 
responsibility, and, of course, this is an area where tensions continue 
to run high. Our extensive military security cooperation with Israel 
continues. The U.S. is actively involved at all levels with the Israeli 
Defense Force in joint research and development projects, combined 
civil-military projects, joint commercial ventures, military-to-
military discussions, military exercises and many high level military 
and civilian visits. The U.S. provides Israel with over $2 billion 
annually in foreign military financing.
    Due primarily to its position on the State Department's list of 
state sponsors of terrorism, Syria currently receives no U.S. economic 
aid or support, is ineligible for any security assistance programs, 
receives few political visits from U.S. leaders, and maintains no 
routine military-to-military contact with USEUCOM. Similarly, our aid 
to Lebanon is nominal, including only a small amount of IMET funding. 
While Syria and Lebanon condemned the al Qaida attacks, they disagree 
with our identification of groups such as Hizballah as foreign 
terrorist organizations. They instead view such groups as ``freedom 
fighters'' battling against foreign occupation. We must endeavor to 
persuade Syria and Lebanon to join us in actively combating 
international terrorist groups.
North Africa
    Most nations of North Africa have condemned the 11 September 
attacks and have offered varying levels of support to our efforts to 
fight terrorism. Morocco and Tunisia remain two of our staunchest long-
term allies on the African continent, and we regularly conduct 
exercises and other activities with their armed forces. Both 
traditionally have been moderate voices in the Arab world, and we will 
continue to rely on them to help stem the tide of terrorism and radical 
extremism.
    Our current engagement strategy with Algeria is characterized by a 
slow, measured approach. While military security cooperation is closely 
tied to Algerian progress in implementing political and economic 
reform, the attacks on 11 September have brought about an interagency 
effort to increase cooperation with Algeria, specifically in those 
areas that will aid in countering terrorism. For example, small 
investments in border security will increase regional stability and 
reduce the threat of transnational terrorism emanating from Algeria.
    Libya has long been a key source of tension in North Africa. 
Qadhafi's traditional support to various subversive and dissident 
groups has been detrimental to regional stability and opposed to U.S. 
goals in Africa. Recently, however, as Qadhafi has attempted to reenter 
the world stage, Tripoli has made overtures seeking to normalize 
relations with the U.S. While it is too early to determine the 
legitimacy of these overtures, we should determine the best interagency 
approach to influence Libya's policy against terrorism, while promoting 
regional stability.
Sub-Saharan Africa
    Sub-Saharan Africa is a geographically immense and diverse region. 
Significant economic, ethnic, cultural, political, and environmental 
differences have contributed to a climate of conflict and instability 
in which no fewer than three major conflicts rage and others continue 
to smolder. Although there are pockets of terrorist-related activities 
in this region of Africa, we also find examples of peaceful change. 
There is ample evidence of democratic governance and integration of 
former opponents into governments and militaries earnestly striving for 
the advancement of the nations they represent and defend. Our challenge 
at USEUCOM is to accentuate these positive trends while helping to 
contain and resolve problems. USEUCOM has identified several objectives 
for its military cooperation activities in Sub-Saharan Africa, 
primarily based on the need to protect U.S. citizens or assets and 
support the global war on terrorism.
    Finally, one cannot address Sub-Saharan Africa without considering 
the Human Immunodeficiency Virus/Acquired Immunodeficiency Syndrome 
(HIV/AIDS) epidemic. This human tragedy is characterized in some areas 
by infection rates reaching 40 percent. This will be a destabilizing 
factor for years to come. USEUCOM seeks to ameliorate this disaster by 
leveraging tools such as the Department of Defense HIV/AIDS Prevention 
Program to support AIDS education and behavior modification efforts in 
African militaries. The goal is to prevent the spread of the virus when 
African armies deploy to support peacekeeping operations and respond to 
humanitarian crises.

                       CHALLENGES AND SHORTFALLS

    USEUCOM faces a number of challenges as we seek to best posture our 
forces for success against present and emerging threats to U.S. 
national interests. This section describes some of those challenges and 
how we are meeting them, and requests your assistance in addressing 
some of our shortfalls.
Antiterrorism/Force Protection (AT/FP)
    We view force protection in the accomplishment of our mission as a 
primary concern. The attacks on 11 September served as a painful 
reminder that terrorism can strike anywhere and at anytime. As we weigh 
our current intelligence capabilities in theater against the layered 
deterrent imperatives required for this new operational environment, we 
need your support to improve several areas. I will focus on our needs 
regarding infrastructure later in this statement, but at this point, I 
would like to address some other aspects of force protection.
    We are enhancing our security posture both through improved 
physical measures at our installations and by improving intelligence 
gathering and sharing with our coalition partners and law enforcement 
agencies to afford timely warning. Our programs and posture have 
increased dramatically in recent years to include public awareness, 
training, physical security upgrades, and formal agreements with U.S. 
ambassadors that clearly delineate force protection responsibilities 
for DOD personnel. In June 2001, we updated our USEUCOM AT/FP 
Operations Order to include recommendations from the Cole Commission. 
We also developed a program called the Vulnerability Assessment 
Management Program to track installation vulnerabilities and to take 
corrective actions when necessary. We trained 170 new unit level AT/FP 
officers in fiscal year 2001. Over the last year, we began developing a 
database called the Joint Risk Assessment Management Program to capture 
intelligence, operational, and logistical information and provide 
threat and vulnerability assessments for forces in transit in our 
theater.
    We have augmented these efforts with a new, complementary database 
that captures all local, USEUCOM-reported incidents and actions that 
might be related to terrorist activity. With these tools, we seek to 
improve the networked operations of warfighters in USEUCOM, other U.S. 
agencies, and our allies. We have broken new ground with DOD and non-
DOD law enforcement agencies to integrate into our data networks their 
sensitive information and intelligence in order to gain a clearer 
picture of terrorist activity. Our law enforcement and 
counterintelligence elements provide access to foreign counterparts and 
serve as conduits for time-sensitive information exchange. As a result, 
we have been able to provide timely intelligence information to foreign 
law enforcement entities regarding suspected terrorist travel and 
activity, resulting in surveillance operations, arrests, and 
detentions. Moreover, information provided to us by foreign law 
enforcement and counterintelligence counterparts has allowed us to 
refocus our own limited intelligence assets.
    We are working closely with other U.S. agencies, like the Federal 
Bureau of Investigation, and with our partner nations to eradicate 
support for global terrorism through a wide range of military, law 
enforcement, and economic means. While we have witnessed many successes 
in this effort, I am still concerned that we do not have the most 
efficient and effective processes to attain information dominance and 
decision superiority in this war. We need to examine ways for new 
technologies and information exchange to enhance our success. For that 
reason, we created a Joint Interagency Coordination Group to strengthen 
the relationship with all government agencies and USEUCOM partners on 
terrorist activities in this theater. We received strong support from 
the Secretary of Defense and the Chairman, Joint Chiefs of Staff in 
this effort. Several ambassadors in the region have also been very 
supportive. In order to defeat terrorist networks, it is essential to 
improve coordination among all instruments of national and 
international power that contribute to this objective. Your continued 
support of U.S. involvement in this and related activities is important 
and appreciated.
Theater Basing
    Last August the Secretary of Defense directed that all combatant 
commanders review their overseas basing requirements and examine 
opportunities for joint use of facilities and land by the services, 
consolidation of infrastructure, and enhanced training. USEUCOM will 
submit the findings of this Overseas Basing Requirements Study (OBRS) 
to the Joint Staff in March. In addressing the OBRS, we are seeking 
basing efficiencies through a detailed review of existing 
infrastructure utilization. By identifying potential excess 
installations and means of making more efficient use of our existing 
infrastructure, we are ensuring that our future military construction 
(MILCON) and sustainment, restoration and modernization (SRM) 
investments are focused on enduring installations.
    Much of the groundwork for the OBRS was well underway over a year 
ago when USEUCOM established a formal theater basing working group in 
an effort to bring together the basing plans of each of our service 
components, address the issues that cross service lines, and best 
posture our in-theater forces to meet current and emerging threats. The 
release of the Quadrennial Defense Review (QDR) provided the working 
group with the force structure information needed to pursue an 
appropriate basing strategy. The QDR does not cite any significant 
changes in force structure in the European theater other than planning 
for an Interim Brigade Combat Team (IBCT) over the Future Years Defense 
Program (FYDP). Preliminary planning for IBCT conversion is underway 
and is reflected in USAREUR's efficient basing initiatives.
    USAREUR's Efficient Basing East (EBE) consolidation is currently in 
the design phase. In addition to the $25 million appropriated by 
Congress for the design phase, $68.7 million of construction funding 
will be part of DOD's fiscal year 2003 MILCON request. Consistent with 
the objectives of the OBRS, EBE is an initiative to enhance readiness, 
gain efficiencies, and improve the well-being of 3,500 soldiers and 
5,000 family members by re-stationing a brigade combat team (BCT) from 
13 widely dispersed installations to a single location in Grafenwoehr, 
Germany. Executing this initiative will facilitate command and control, 
lower transportation costs, allow for better force protection, improve 
access to training areas, eliminate over 5 million square feet of 
excess inventory, and reduce annual base operations costs by up to 
$39.5 million. USAREUR's other major basing initiative, titled 
Efficient Basing South (EBS), is likewise consistent with the OBRS 
objectives. EBS, which consists of adding a second airborne battalion 
in Italy in the fiscal years 2002-2004 timeframe, will provide USEUCOM 
with enhanced early entry capabilities and increased flexibility. To 
reduce the total cost, USAREUR plans to base this unit at their 
existing facility near Vicenza. Approximately $120 million in 
additional MILCON funding in fiscal year 2003 has been included for the 
expansion of barracks, child development centers, and schools to 
support this efficient basing initiative.
    USAFE is also working to consolidate its geographically separated 
units throughout the AOR to its enduring, major operating bases. 
Similarly, USNAVEUR is proceeding with consolidations at Gaeta, La 
Maddalena, and London. Finally, in coordination with U.S. Special 
Operations Command (USSOCOM), we are investigating potential joint 
basing options for Special Operations Forces (SOF) stationed in our 
AOR. This, too, will provide greater crisis response capabilities, 
enhanced joint training opportunities, and improved efficiencies.
Intelligence, Surveillance, and Reconnaissance (ISR) Shortfalls
    USEUCOM requires an integrated architecture to collect, collate, 
filter, and process data from disparate sources of information, 
allowing analysts to detect, identify, analyze and predict potential 
threats within our AOR. DOD initiatives to provide unified commanders 
with organic, multi-discipline intelligence collection capabilities--to 
include airborne collectors like unmanned aerial vehicles and 
measurement and signature intelligence (MASINT) capabilities--are 
particularly helpful in this regard. We appreciate your support for 
these and similar initiatives that enhance our ISR architecture.
En Route Infrastructure
    En route infrastructure is critically important for strategic 
deployment and sustainment. Here again, the war on terrorism provides a 
useful example. Throughout Operation Enduring Freedom, USEUCOM and 
USTRANSCOM have partnered together with our NATO allies to support 
USCENTCOM. The European En Route Infrastructure Steering Committee 
provided the framework for this successful partnership and is the 
mechanism we must leverage to improve deployment capabilities. 
Virtually all of the forces and supplies transported to USCENTCOM went 
through and were supported by infrastructure belonging to our NATO 
southern flank allies: Portugal, Spain, Italy, and Turkey. The Spanish 
bases, Moron and Rota, in particular, are essential to ensuring optimal 
force flow in contingency operations; but they are not as well 
developed as we would like. While our allies have given their approval 
for our construction projects and all remaining construction is in the 
FYDP, we must maintain our commitment.
Air Traffic Control
    The tremendous growth in the air traffic and communication 
industries in Europe presents increasing challenges for air traffic 
control agencies, civil air carriers, and military aviation. At the 
same time, expansion of communication technologies is threatening to 
overtax a limited radio frequency spectrum. To address these 
challenges, many countries are mandating more efficient air traffic 
communications systems and avionics. Due to its current air traffic 
congestion, Europe is leading worldwide implementation in this regard. 
Accordingly, we need to equip our aircraft with the new communications 
capabilities they require for flight in European airspace.

                         KEY SUPPORT IN THEATER

    Considering the scope of our mission, along with the size and 
diversity of our AOR, we rely extensively on support from several 
organizations. I would like to point out the contributions of a couple 
of those organizations, in particular, upon which we rely daily.
Reserve Units
    The variability of USEUCOM missions and requirements demands full 
access to the total spectrum of service capability offered by the 
Reserve components (RC). Quite simply the mission cannot be 
accomplished without RC assistance across the full spectrum of 
operations. In fiscal year 2001, the RC provided approximately 1.5 
million man-days of support to the theater. This figure represents the 
equivalent of an additional 3,981 full time service members in theater.
    Over the past year there were on average 2,800 RC service members 
deployed in support of Balkans operations at any one time. They 
currently provide 60 percent of U.S. forces in SFOR and 10 percent of 
U.S. forces in KFOR. Since the start of Balkans operations, there have 
been over 14,000 Army reservists and over 9,000 Army Guardsmen deployed 
to the Balkans. We also requested the mobilization of nearly 150 
Reserve members to augment HQ USEUCOM for Operation Enduring Freedom. 
USEUCOM's four Joint Reserve Intelligence Connectivity sites in the 
continental United States--another invaluable RC contribution--play an 
integral role in the theater intelligence analysis and production 
architecture. The reservists at these sites provide 40 percent of the 
Joint Analysis Center's (JAC) scheduled production, allowing the JAC 
the flexibility to reorient its production effort to support expanding 
contingency operations.
    Reserve component contributions in support of USCINCEUR's Theater 
Security Cooperation plans are also significant. RC forces are a 
primary source of manpower for USEUCOM's Joint Contact Team Program and 
the PfP exercise program. RC forces and service members provide real 
world contributions through unilateral and combined exercises involving 
USEUCOM, NATO partners, and PfP countries. This RC involvement is the 
primary way to lower the active force operating tempo and capitalize on 
providing Reserve expertise to enhance USEUCOM exercises.
    Another important security cooperation program carried out by 
Reserve Forces is the State Partnership Program (SPP), which assists 
partner nations in making the transition from authoritarian to 
democratic governments. This program matches emerging democracies in 
the AOR with partner states in the U.S. Currently there are 19 states 
partnered with 17 foreign nations in the AOR. This past year was 
extremely successful as National Guard soldiers and airmen conducted 
over 250 events with partner nations. Civic leader visits to SPP 
partner nations are particularly important. Relations that began as 
simple military-to-military contacts within the SPP have blossomed into 
associations encompassing nearly every facet of society--unit 
partnerships, sister cities, student exchanges, scientific 
collaborations, and business ties. This ability to interact with our 
partner nations in all sectors of society is the key strength of the 
SPP. It has acted as a stabilizing influence throughout the USEUCOM 
AOR, and will continue to do so in years to come.
    SPP has been so successful that USEUCOM is aggressively seeking 
funding to expand the program to Africa, starting with South Africa and 
Morocco. Although the challenges faced by African nations differ from 
those of Eastern Europe, many nations are ready for the opportunity 
that SPP provides. For a small investment, we can provide candidate 
nations access to the expertise of an entire state government 
infrastructure ranging from public health to wildlife management. A 
state government more closely resembles the government structure of a 
small African nation. The SPP will serve as a tremendous complement to 
our traditional African engagement activities.
National Intelligence Support
    USEUCOM depends heavily on other government agencies for the 
intelligence and information needed to meet our mission requirements. 
The Defense Information Systems Agency--Europe (DISA-E) provides 
critical long-haul and other communications to USEUCOM, service 
components, and coalition partners during peacetime, contingencies, and 
wartime. DISA actively supports SFOR, KFOR, ONW, and other USEUCOM 
missions by engineering the communications needed to transport 
intelligence data from multiple collection sources via processing 
points and on to the warfighters. DISA is also developing the Global 
Information Grid, which promises to enhance our ability to maintain 
information superiority on the battlefield by increasing information 
access and transfer rates. We also depend heavily upon the Defense 
Intelligence Agency (DIA). DIA's Defense Human Intelligence (HUMINT) 
Service--to include both the Defense Attache System and the Forward 
Operating Bases--routinely provides critical information, and we 
strongly advocate expanding this program in the USEUCOM AOR. DIA's 
resources are critical to our counterterrorism efforts as well as to 
our other ongoing contingency operations. Another DIA initiative, the 
Joint Intelligence Task Force-Combating Terrorism (JITF-CT), is 
providing a much-needed conduit for strong collaborative doctrine and 
interoperable databases to service the unified command customer.
    Critical to these DIA efforts will be the release of data from the 
Central Intelligence Agency and the National Security Agency (NSA). NSA 
products and services continue to be force multipliers for USEUCOM, and 
we support NSA's transformation to a distributed architecture that 
promises to enhance the synergy between national and tactical signals 
intelligence (SIGINT) assets. Our SIGINT analytic capability must be 
robust and must keep pace with technology. Finally, the National 
Imagery and Mapping Agency (NIMA) provides important geospatial 
information, imagery, and imagery analysis to support USEUCOM 
operations. NIMA has repeatedly demonstrated its responsiveness to 
USEUCOM crisis operations; however, the geospatial resources required 
to support the global operations needed to meet today's crises are 
limited. Moreover, NIMA, and the intelligence community in general, 
suffers from a lack of experienced imagery analysts which threatens our 
ability to provide timely and accurate indications and warning and to 
support ongoing operations throughout the theater. We hope that you 
will look favorably upon providing DISA, DIA, NSA, and NIMA the 
resources they need to effectively support us.
U.S. Transportation Command (USTRANSCOM)
    Recent operations, including OEF, well illustrate the unified 
commands' critical dependence upon the strategic mobility afforded by 
USTRANSCOM. Quite frankly, without USTRANSCOM's strategic lift support, 
we would be hard-pressed to execute OEF or virtually any other 
contingency operation. The recent QDR and defense plans indicate an 
increased demand for strategic airlift support, and USTRANSCOM merits 
your help in this regard.

           INFRASTRUCTURE: USEUCOM'S FOREMOST INVESTMENT NEED

    The quality of our theater infrastructure impacts everything we do 
in USEUCOM. Sound infrastructure is critical to conducting our mission 
and to providing our service members and their families with an 
appropriate quality of life. Taking care of people enhances readiness, 
retention and, ultimately, mission accomplishment. To this end, the 
service men and women of USEUCOM should be afforded a standard of 
living equal to their counterparts stationed at home. To be quite 
frank, we are not there yet, and we need your support to make this 
imperative a reality. To simultaneously contribute to the global 
campaign against terrorism, maintain our ability to rapidly respond to 
regional threats to U.S. interests, and afford our forward-based forces 
a reasonable level of force protection and a suitable quality of life, 
we specifically need you to invest in four inter-related facets of our 
infrastructure. These four facets are improved force protection and 
antiterrorism measures; sustainment, restoration, and modernization 
(SRM) of our enduring facilities; new MILCON; and command, control, 
communications, and computers (C\4\) enhancement.
Antiterrorism/Force Protection (AT/FP) Infrastructure Improvements
    USEUCOM components received $30.4 million in fiscal year 2001 
Emergency Supplemental funding following the 11 September attacks. We 
greatly appreciate Congress' efforts to provide us with this much-
needed infusion of resources, which allowed us to significantly improve 
our secure communications capabilities, upgrade our physical security, 
and generally increase the protection of our installations. The 
Chairman of the Joint Chiefs of Staff Combating Terrorism Initiative 
Fund has also been instrumental in mitigating some of our force 
protection vulnerabilities. In fiscal year 2001 the command received 
$5.8 million in these funds, which helped eliminate some weaknesses 
identified through vulnerability assessments.
    While Emergency Supplemental funding and Combating Terrorism 
Initiative Funds are steps in the right direction, adequate resources 
continue to be a major challenge for AT/FP service priorities. As 
mentioned earlier, we have taken several procedural steps to improve 
our force protection posture through enhanced coalition intelligence 
and early warning systems, but we must still address physical 
installation vulnerabilities. Assessments at both the theater 
headquarters and component levels by the Defense Threat Reduction 
Agency's Joint Staff Integrated Vulnerability Assessment program have 
helped identify installation vulnerabilities and underscored the need 
for additional funding. We reviewed our most critical AT/FP shortfalls 
and prioritized our remaining unfunded requirements. These include 
strengthening U.S. facilities against chemical, biological, and 
radiological threats and mass casualty-producing explosive devices, as 
well as improving the access control features at installation entry 
points.
Sustainment, Restoration, and Modernization (SRM)
    Sustaining, restoring, and modernizing our work and living 
environments are critical to USEUCOM mission accomplishment. DOD has 
programmed full funding for USEUCOM housing SRM, but working areas and 
facilities continue to be a concern. Like barracks and family housing, 
the work environment is improving, but at a slower rate. Throughout the 
theater there are still work environments that are overcrowded and have 
inadequate and inefficient lighting and heating systems. From runways 
to repair docks to billeting and housing areas, the infrastructure that 
supports our operations and people has been under funded for many 
years. As might be expected, this problem has compounded annually.
    The average age of our facilities is now 32 years old, and our 
oldest facilities are 90 years old. Over 80 percent of the 
installations in USEUCOM are assessed as C-3, meaning that there are 
significant facility deficiencies that prevent performing some 
missions. Yet SRM to revitalize and modernize USAREUR and USNAVEUR 
installations is currently underfunded by $1.3 billion and is barely 
funded to sustain their present condition. The Air Force recently 
committed to fully fund sustainment for USAFE through 2007 and to start 
funding restoration and modernization toward the DOD goal with the 
intent of improving facilities to an acceptable level by 2010.
Military Construction
    We have begun to make the significant investments needed over the 
next decade to enhance our support infrastructure and take care of our 
most valuable resource--our people. Positive results continue from the 
increased funding we have received over the past 2 years, to include 
the $360.9 million approved in fiscal year 2002 (including $94.6 
million for DOD agencies in the theater). The Command's service members 
and families see the positive trend in our infrastructure and are 
grateful to Congress for providing the funding needed to make this 
possible. However, a great deal of our infrastructure remains 
inadequate and our service members continue to work in dilapidated 
facilities spread over inefficient, geographically separated 
installations. In many places we are still working to replace 
temporary, container office space with quality construction. In short, 
we need your continued investment to replace some of our single service 
member and family living quarters, work facilities, and quality of life 
infrastructure.
    The majority of our fiscal year 2003 MILCON budget request for non-
family housing is comprised of barracks and similar quality of life 
requests, while 34 percent of the requested funding is dedicated to 
work environment facilities. This 34 percent constitutes eight projects 
with a value of more than $110 million. We greatly appreciate your 
prior approval for the planning and design of the Efficient Basing East 
(EBE) initiative. This initiative is one that will provide new and 
efficient workspace for service members while gaining installation 
management efficiencies that will save taxpayer dollars. The first two 
MILCON projects to support EBE are in the fiscal year 2003 MILCON 
budget with a combined value of $59.3 million, along with $9.4 million 
for site preparation.
    Funding to meet the DOD requirements for quality housing for 
service members and their families continues to be a critical element 
in attracting and retaining the high caliber personnel who make our 
military forces the best in the world. Our components remain on track 
to meet the earlier DPG requirement for the year 2010, and are 
presently working with their respective service headquarters to meet 
the current DOD requirement to eliminate sub-standard family housing 
units by 2007. Inadequate living conditions do not convey the message 
we want to send to the young, committed patriots who volunteer to serve 
their Nation overseas.
    Build-to-lease housing is an option that provides quality 
accommodations with no capital investment and no acquisition of land 
from the host nation. The largest in-theater build-to-lease housing 
project to date will be the Residenza dei Marina complex to support the 
U.S. Naval Air Station, Sigonella. This complex is presently under 
construction and will provide 526 units of quality family housing with 
due regard for force protection measures. This area will be owned and 
maintained by the contractor and the lease is for 10 years with 
extension options. If at some time in the distant future this housing 
is no longer needed, we will end our contract and walk away because we 
own and owe nothing. This same concept will be applied to the build-to-
lease housing presently planned to support USAREUR's families that move 
to Grafenwoehr as part of Efficient Basing East. DOD has programmed 
full funding for USEUCOM housing through fiscal year 2009 with a total 
of $2.3 billion. We need your support to keep this critical quality of 
life program on line.
Command, Control, Communications, and Computers (C\4\) Infrastructure
    Theater C\4\ infrastructure shortfalls remain another of our most 
critical concerns. Our World War II-era C\4\ infrastructure continues 
to compromise our ability to communicate within and outside of the 
theater and deprives our posts, camps, stations and bases of the robust 
communications foundation needed to transition to network-centric 
operations. Our forces in theater are experiencing connectivity speeds 
similar to a home computer operating over a dial-up modem. Given the 
new strategic era and the internal and external challenges we face, it 
is imperative for both force protection and operational capability that 
we equip our people with the best capabilities to collect, process, and 
disseminate time-sensitive information quickly and accurately.

                     OTHER QUALITY OF LIFE PROGRAMS

    Beyond our infrastructure there remain a few other issues that 
impact the quality of our service and family members' lives. Schools 
and health services, in particular, have a significant effect on our 
personnel readiness.
Department of Defense Dependent Schools (DODDS)
    The quality of programs provided by DODDS in Europe ranks very high 
as a quality of life indicator for both military and civilian members 
of the Command. Continued congressional support for full-day 
kindergarten (FDK) and an optimal pupil-to-teacher ratio (PTR) for 
fiscal years 2000 and 2001 has produced substantive improvements. 
However, planned and programmed upgrades, alterations, and new 
construction in fiscal year 2003 remain crucial for meeting successful, 
timely program completion. FDK and a reduction of PTR in the first, 
second, and third grades provide services similar to those available to 
CONUS students. DODDS needs your continued support to implement FDK and 
PTR initiatives and to ensure adequate facilities are available for 
improving student achievement during the critical early stages of 
learning.
    Children overseas lack the options available to CONUS families for 
remedial and enrichment summer academic programs. Parents in Europe 
continue to urge commanders to offer no-fee school options for students 
overseas on par with what is available to students in the U.S. Funding 
and staffing have been the main impediments to offering these options, 
as Congress has not authorized DOD to use appropriated funds for summer 
school support. Congressional support for the DOD proposal to authorize 
a summer school program free of charge in overseas school systems would 
be greatly appreciated.
Health Care
    USEUCOM health services are pursuing several initiatives and 
programs designed to optimize health care support to our beneficiary 
population. We continue to improve or replace our aging facility 
infrastructure (in line with the Efficient Basing programs) with 
several major construction efforts. Our emphasis continues on improving 
our communications pathways to support state-of-the-art medical 
technology, diagnostic digital imagery, and automated medical 
information communications. We have improved health care availability 
for all beneficiaries with the TRICARE for Life and TRICARE Plus 
programs and the ``Open Access'' initiative. The Women, Infants, and 
Children (WIC) program provides essential nutritional education and 
nutritious food support to young, needy mothers and their children 
within the military community. WIC was implemented at several pilot 
sites and efforts continue to expand this program across the European 
military community. Due to your support, health care is a positive 
contributor to quality of life in the USEUCOM community.

                               CONCLUSION

    While we in USEUCOM are confronted by a vast array of challenges as 
we carry out our diverse missions, we have maintained our ability to 
respond to the full spectrum of conflict, from humanitarian assistance 
to major theater war and nuclear deterrence, and have done so with a 
moderate amount of resources and a reduced force presence. We are 
actively engaged today in the global campaign against terrorism and 
have developed a broad, multifaceted plan to defeat terrorism 
throughout our AOR. Our on-going operations, particularly with respect 
to the Balkans, have, thus far, been successful. While regional 
challenges remain and the risks of setbacks are ever-present, we remain 
optimistic that USEUCOM's continued activities will bring about the 
desired military end-state sought by the U.S., its allies and 
responsible regional entities. Security cooperation in the theater 
continues to pay significant dividends, recently highlighted in the 
support provided by our allies in the war against terrorism. U.S. 
security cooperation efforts in the theater help ensure continued 
cohesion between our traditional military counterparts, and sow the 
seeds for future cooperation in new areas such as the Caucasus.
    Throughout this statement, I have outlined many needs for your 
support, but none is greater than the need to improve our long-
neglected infrastructure, and this remains my foremost priority. To 
simultaneously contribute to the global campaign against terrorism, 
maintain our ability to rapidly respond to regional threats to U.S. 
interests, and afford our forward-based forces a reasonable level of 
force protection and quality of life, we need your continued investment 
in our infrastructure. To this end, we invite you to come and visit our 
installations, and scrutinize our plans to ensure that we are wisely 
investing the American people's treasure. Interact with our young 
service men and women as they perform their daily operations and view 
their work environment and living arrangements. They continue to be our 
best spokespeople, and I think you will be, as I am, immensely proud of 
them.
    In closing, I would like to thank Congress for its continued 
support, without which our soldiers, sailors, airmen, marines, and 
Coast Guardsmen would be unable to perform the tasks assigned to them 
by our Nation. With your continued assistance, they will remain ready 
and postured forward to defend freedom, foster cooperation and promote 
stability throughout Europe, the Middle East, Eurasia, and Africa. I 
sincerely appreciate this opportunity to outline the state of the U.S. 
European Command and will be pleased to provide the committee with any 
additional information it may require.

    Chairman Levin. Thank you very much, General Ralston. Thank 
you all for very helpful statements.
    I have a couple of questions which are not directly related 
to today's subject, but which are very pressing and very much 
on the mind of many of us and of our public. First, General 
Ralston, relative to the situation in the country of Georgia, 
yesterday a senior U.S. official said that the Pentagon will 
soon begin training several Georgian battalions to counter the 
growing terrorist threat in Georgia's Pankisi Gorge region. 
Today Russian officials expressed some concern about that 
mission. Has the decision been made to carry out this train and 
equip mission in Georgia?
    General Ralston. Mr. Chairman, let me give a little bit of 
an explanation before I answer directly to that.
    Chairman Levin. Let me interrupt for one second. We will 
have an 8-minute round the first round, so if you could keep 
all your answers brief. We will go in strict early bird order. 
I mistakenly deviated from that in one instance and we will 
have to go back to a strict early bird order. I thank the 
Senators who understand the mistake that I made.
    Now, General Ralston, let me go back to you.
    General Ralston. Mr. Chairman, Georgia is a member of 
Partnership for Peace. I was tasked last fall to send an 
assessment team to Georgia, which we have been working with for 
many years, to see if there was something that could be done to 
help them in their anti-terrorist efforts in Georgia. That 
assessment was provided to the Pentagon in December. I have not 
been given any tasking or any order to carry out that mission. 
We are prepared to do so if given the order, but to my 
knowledge a decision has not been made, because I have not been 
tasked to do that.
    Chairman Levin. Thank you, General.
    Secretary Feith, there is a quote this morning on the 
Internet by the official spokesman of Russia's Ministry of 
Foreign Affairs, Mr. Yakavenko, regarding the Russian-American 
talks at the expert level focusing on the progress in preparing 
a draft treaty on reduction of strategic offensive arms. This 
is what he said: ``There is some progress. First of all, a 
common understanding was reached that a treaty on the reduction 
of strategic offensive arms will bear a legally binding 
character and the sides will submit it for the consideration of 
their legislative bodies.''
    Is that accurate?
    Mr. Feith. Mr. Chairman, what we agreed to is that there 
would be an agreement of a legally binding nature. We did not 
make a decision as to whether that agreement would be a treaty 
or what is known as an executive-legislative agreement.
    Chairman Levin. Thank you.
    One other matter. Mr. Feith, I wrote Secretary Rumsfeld a 
letter, which is apparently now in your office for drafting a 
response, regarding the proposed Office of Strategic Influence. 
I know now the decision has been made not to proceed with it. I 
asked for a number of documents, and I had other questions. 
Will that information be forthcoming promptly to me?
    Mr. Feith. Yes, it will, sir.
    Chairman Levin. Thank you.
    Let me ask General Ralston this question relating to the 
possibility that there be some role specialization within NATO. 
British Defense Secretary Hoon is reported to have stated 
recently that the European allies should seek to improve their 
defense capabilities by cooperation among themselves and 
perhaps role specialization. Can you give us your views as to 
whether you believe that role specialization, particularly on 
the part of smaller European nations, might be appropriate as a 
way of addressing some of the new threats and capabilities 
which we are all struggling with relative to both existing 
members and new members of NATO?
    General Ralston. Mr. Chairman, a complex subject, but I 
will give you a short answer. I think some of it is 
appropriate. We have a defense planning process where all the 
nations come together. We try to make sure that we have the 
capabilities that we need.
    Let me give you an example. Let us take the Czech Republic, 
one of the new members that has just come in. The Czech 
Republic has very good chemical, biological, and radiological 
defense capabilities. They have provided those capabilities to 
us. This is an example where a country has a certain expertise 
and if you call that specialization then I think that is good 
for the Alliance and it is something that could be looked at in 
a broader context.
    Chairman Levin. Is there a possibility of new roles and 
missions, particularly the possibility of NATO special forces?
    General Ralston. This is something that the nations have to 
look at. Right now many of the Alliance members have extremely 
capable special forces. That is not the issue. I think the 
issue is whether NATO should have NATO special forces, like 
NATO AWACS. There are some significant issues with that and I 
think that is something we just have to look at.
    Chairman Levin. Will you keep us informed on any progress 
along that line?
    Mr. Feith. Yes, sir, I will.
    Chairman Levin. Thank you.
    I believe that Secretary Feith made the statement that the 
results of the commitment of NATO allies in 1998 to improved 
capabilities in five functional areas has produced, in his 
words, meager results. General, would you give us your 
assessment on the overall result of our NATO allies in 
achieving the objectives of the defense capabilities initiative 
which was launched by Secretary of Defense Cohen in June 1998?
    General Ralston. Mr. Chairman, first of all, the Defense 
Capabilities Initiatives (DCI) were 58 specific issues. They 
were broken down among the five categories, but they included 
such things as strategic lift, for example. While some progress 
has been made on some of the issues, I would have to tell you 
that my overall assessment is that it has not been as 
successful as what any of us wanted. We still have, I think, 
some very glaring holes in our capabilities, strategic lift 
being one of them in order to get troops anywhere soon.
    One of the things that is being looked at is the A-400M 
Airlifter, if you will. That has not moved forward, although 
there is a lot of talk and a lot of rhetoric about it. I might 
add that if it did move forward it would be 2008 or 2010 before 
we would have the first one. That is the type of thing that I 
think needs to be worked on very hard.
    Chairman Levin. Thank you.
    Secretary Feith, you mentioned that you visited the Russian 
defense ministry. You discussed NATO enlargement, I think you 
said, with them. What was their reaction to it, briefly?
    Mr. Feith. We discussed actually the NATO-Russian 
relationship. I do not think we explicitly discussed NATO 
enlargement.
    Chairman Levin. Thank you.
    Let me ask Secretary Grossman this question. It is one I 
have been concerned about. In a way it goes back to Senator 
Sessions' question about the difficulty of getting consensus 
when it comes to something like targets. It is a very 
debilitating kind of a requirement in the middle of a war.
    I want to push that problem beyond even what Senator 
Sessions has raised, to a more fundamental problem, but which 
is similar. What happens if a NATO member no longer is 
committed to the fundamental values, as we have talked about 
here, of NATO? What happens if it turns from democracy to 
dictatorship? The more countries that are involved in NATO, the 
greater the statistical likelihood of that happening, without 
any identification of any country where it is more likely than 
not. Statistically it is more likely that sooner or later one 
of the countries in NATO or that might join NATO could turn 
from a democracy to a dictatorship. Yet, there is no way of 
suspending or removing a country from NATO who no longer 
complies with the fundamental values that are set forth in the 
Washington Treaty.
    Should NATO have available a mechanism to suspend a member 
which no longer adheres to the fundamental principles of the 
Washington Treaty--democracy, individual liberty, and the rule 
of law--to get around this problem of blocking a consensus in a 
very specific way, as Senator Sessions has pointed out?
    Mr. Grossman. Senator, let me try to answer that question a 
couple of ways. First, to where Senator Sessions started, of 
course the consensus principle at NATO has applied since 1949 
and I would argue has been quite successful. Yes, there are 
times when one country or another country may object to a 
certain NATO policy. Since these are all democracies and have 
to get together, we think it is a useful thing for the 
consensus principle to exist. That matters whether you are 
Iceland or Luxembourg or the United States of America. That is 
a fundamental principle of the Alliance.
    The reason I start there, Mr. Chairman, is that I think 
that is part of the answer to your question, which is that this 
consensus principle that we have is the biggest incentive to 
keep people on the right track.
    Chairman Levin. That assumes they are all democracies. Now 
go to my assumption. One becomes a dictatorship and vetoes what 
everyone else in NATO sees as essential for NATO self-defense.
    Mr. Grossman. I think that what we would have to do is make 
sure through the Membership Action Plan (MAP) process that we 
are trying to get people in what we are sure are going to stay 
democracies. I do not mean to avoid your question here.
    Chairman Levin. You are doing it. Not successfully, but you 
are avoiding it.
    Mr. Grossman. I deal with this at the front end, which is 
to make sure that people have met a certain standard before 
they get in. To kick people out, it seems to me, would lower 
our standards rather than raise them. The consensus principle 
is what keeps it all together.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you.
    Secretary Feith, in response to Senator Levin's question 
about your successful meetings in Russia a few days ago, you 
replied that the current thinking with regard to this type of 
agreement between Russia and the United States would be in the 
nature of an executive agreement, or something less than a 
treaty?
    Mr. Feith. What we have said to the Russians is that we are 
interested in reaching agreement on a number of issues. It 
could be one agreement, it could be multiple agreements, and 
depending on what the agreements are and what their subject 
matter is, they would be suited for different forms. We are 
perfectly happy to enter into a treaty with them if we can come 
up with an agreement that warrants treaty status.
    Senator Warner. There is no effort to reach some type of 
understanding that would circumvent the advise and consent role 
of the Senate with regard to that type of agreement?
    Mr. Feith. No, there is not, and there is actually a 
recognition of the value of having Congress, the Senate in 
particular, involved with us as we go forward on this.
    Senator Warner. That answers my question.
    Chairman Levin. Would you yield just for 10 seconds on that 
subject?
    Senator Warner. Yes.
    Chairman Levin. If you do not enter into a treaty, it is 
not legally binding on any other than the current 
administration. I think you should be aware of that--not just 
the wisdom of involving the Senate in that we ultimately have 
the power of the purse and can technically override whatever 
you do, it is the fact that it does not bind this country 
beyond the current administration if you do it by executive 
order.
    I thank you for yielding.
    Mr. Feith. Mr. Chairman, I was referring to a particular 
kind of international agreement that is often referred to as an 
executive-legislative agreement, where both houses of Congress 
have a vote on it.
    Senator Warner. It seems to this Senator--and I have 
followed the relationships between the United States and the 
Soviet Union now for over 30 years--that we are enjoying under 
President Putin a positive trend. There are certainly many 
things which any one of us could pick out as entirely 
unsatisfactory, but overall there is a positive trend. If we 
were to go into a situation where, for example, the Baltic 
nations were recommended for membership, would that not affect 
our relationship with Russia, for example their participation 
in the Balkans and their participation in the Afghan situation?
    In other words, in a broad front now they are working with 
our President on the war on terrorism and to me that is an 
imperative of the highest order as compared to expansion of 
NATO. Maybe I am looking at it selfishly, but I think our 
country is beginning to look inward with homeland defense and 
the extraordinary attack that we suffered on the 11th and how 
best to deter and, if necessary, defend against another attack.
    To the extent Russia helps, we are protecting the homeland 
of the United States of America to some degree. Of course, we 
are relying on a wide range of allies to help us. Nevertheless, 
they have stepped forward as a partner.
    If we were to proceed on an issue like the Baltics, which 
has been a difficult question all along, it seems to me it 
could be disruptive. Do you have some views on that?
    Mr. Feith. Senator, it is a serious concern that you raise. 
We have, though, in recent months had some experience that I 
think allows us to evaluate the danger that you are flagging. 
The discussion about NATO expansion and the possibility that it 
may include the Baltic states has been very lively and very 
prominent now for months. Over these same months while this 
discussion was going on, we have been working with the Russians 
on creating this new framework for relations between the United 
States and Russia.
    What is remarkable is in the course of these very intense 
discussions that we have had in the foreign ministry channel, 
the defense ministry channel, and of course the summit meetings 
between our Presidents, what is clear is, although the Russians 
understand, recognize, pay close attention to this debate, and 
understand the possibility of NATO's expansion, their reaction 
has not been to say that this will destroy our relationship. On 
the contrary, they are eager to get closer to NATO.
    I think that we have things to learn from the way the 
dialogue has developed about the Russian recognition over the 
time that we have been working with them that NATO is not a 
threat to them. I think that we can proceed with these 
decisions about how we want the Alliance to grow without really 
worrying that it is going to set back a relationship that we 
consider enormously important and are intent on improving, 
which is our relationship with Russia.
    Senator Warner. This is one Senator who will be watching 
that issue, because I am gravely concerned about our homeland 
defense and the need for a wide range of assistance from many 
nations, including Russia, as we hopefully deter and then 
defend against terrorism.
    General Ralston, I think you quite properly brought up the 
mission that we are flying around the clock in the north and 
the south of Iraq. I think it would be important in this 
hearing if you give us an update on the threat that Iraq poses, 
and the need for the continuance of those operations, 
presumably, in your professional judgment. Also, how do we 
reconcile the fact that our men and women are flying those 
missions together with Great Britain, and taking a risk of 
life, with what is my understanding that at the same time we 
are openly trading with Iraq to meet our demands here at home 
for petroleum. We are importing now over 50 percent, and Iraq 
is a growing figure in that 50 percent.
    General Ralston. Senator Warner, let me state from the 
European military perspective. We have this ongoing operation 
that we are flying in conjunction with the U.K. and Turkey. 
These are the three countries that are involved. We have been 
enforcing the no-fly zone north of the 36th parallel. 
Everything in Operation Southern Watch and the rest of Iraq, 
General Franks in Central Command is responsible for.
    It is a significant effort that we undertake. Last year we 
flew over 6,000 sorties enforcing the no-fly zone in the north. 
As I said before, there are numerous times when our aviators 
are fired upon. We respond whenever we can to take out any 
threats in order to ensure their safety.
    Whether or not the benefit that comes out of enforcing that 
no-fly zone offsets the risk and expense that goes into it, I 
am not in a position to judge. That is properly a call for the 
policymakers in Washington. We do our very best to carry out 
the mission that we have been given. We have been doing that 
for 11 years now, and it is a significant effort.
    Senator Warner. General Ralston, lastly, as we approach 
this new round of consideration of new members, we took in 
three new members last time--Hungary, the Czech Republic, and 
Poland. What were the criteria that we laid down for their 
admission, and what did they have to do to fulfill that 
criteria in a period of time? Where are they today in meeting 
that criteria, and will they have met it by the fall when we 
are looking at a new round of membership?
    General Ralston. There were numerous criteria that were 
outlined, Senator Warner, and let me try to list some of those. 
One is to reform and restructure their military, and let me 
give an example. Only a nation can decide what level of 
expenditure they are going to commit to their defense. Let me 
talk about Poland for a moment. In the case of Poland, that is 
approximately 2 percent of their GDP. Those of us in uniform, 
once a country decides what level of resources they are going 
to provide, we give the best advice we can on getting the 
proper balance between the size of the military, the training 
of that military, and the equipment that the military has.
    In the case of Poland, Poland had something like 400,000 
troops in uniform. There is no way that Poland can adequately 
train and equip a force of that size. So our advice was, in 
order to get that into balance, you need to draw down the size 
of your force, but make it better trained and better equipped.
    I was in Poland a year ago. They had drawn down to 207,000 
troops. I was there a month ago and they are now at 165,000 
troops, en route to 150, which is their goal. They have been 
coming down each year, approaching that goal that was outlined.
    With regard to the interoperability of their equipment, it 
is no secret that the new members had Soviet era equipment. You 
do not replace that overnight. They are trying to get the 
proper balance in the size and put the expenditure now into 
western systems, if you will, that will be more interoperable 
with NATO. We are not there yet with any one of the three 
countries, but I do not believe there was any expectation that 
we would be there by 2002. This was at least a decade-long 
project and in my judgment will probably take longer than that.
    Senator Warner. My time is up. You failed to answer about 
the present threat of Iraq today to our security and indeed to 
the security of the region. Can you give us a capsule estimate 
of that threat?
    General Ralston. I think that the concern that I have--and 
let me speak personally here. The issue with regard to the 
threat from Iraq is not so much one of whether they were tied 
to 11 September and what happened here. You have to look at 
their capability in terms of weapons of mass destruction, the 
ability to deliver weapons of mass destruction, and what is 
their intent to do that.
    My own judgment is that they have a capability. I am less 
certain as to what their intent is. That is where I think the 
policymakers need to focus in that regard.
    Senator Warner. Mr. Chairman, I ask unanimous consent that 
a letter asking for this hearing be placed into the record.
    Chairman Levin. The letter will be placed in the record at 
the appropriate place.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Also a statement of Senator McCain on the 
future of NATO will be placed at the appropriate place in the 
record as well.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr. Chairman, I appreciate this opportunity to explore the 
administration's agenda to transform and enlarge NATO at the Prague 
summit this November. Other than the defeat of global terrorism--an 
endeavor in which our NATO allies play a key role--few issues are more 
important to the international order we wish to build in this new era 
than enlarging our community of values and giving it the means to 
defeat the new threats of terrorism and unconventional weapons.
    I have communicated with the President on this issue and am very 
encouraged by his strong support for a new and far-reaching Atlantic 
agenda. I fully endorse the President's vision of an Alliance that 
stretches from the Baltics to the Black Sea, created by a robust round 
of enlargement driven not by ``how little we can get away with, but how 
much we can do to advance the cause of freedom,'' as he said in Warsaw 
last June. I share the administration's determination that even as we 
work to enlarge the Alliance, we share a mandate with NATO's existing 
members to ensure that they are capable of meeting the new threats, and 
that our Alliance is structured to respond to them.
    That said, I believe the hand-wringing in Washington academic 
circles and the corridors of Brussels about the Alliance's existential 
crisis is misplaced. Rather than engaging in a stifling, bureaucratic 
debate about NATO's core purpose, we should devote our attention to 
sustaining the success our Alliance has enjoyed in deterring Soviet 
aggression, bringing a stable peace to the Balkans, and uniting our 
community of values. Our task is to invigorate the Alliance with this 
premise: that the Atlantic community is not a group of Cold War-era 
military allies looking for new missions to stay relevant, but a 
political community of like-minded nations that is dedicated to the 
principles of democracy, and to fostering a continent where war is 
unimaginable, security is guaranteed, and prosperity unbounded. This 
pledge reflects our common values, which are universal, and whose 
potency is multiplied, not diluted, as more and more people share in 
them.
    As we share those values, so we must urgently work together to put 
in place the means to defend them. We live in a new era, and the 
Alliance has no choice but to adapt to the new threats. Lest we forget, 
NATO has successfully taken on new challenges before--in the 1950s, 
when it integrated West Germany; in the 1960s and 1970s, in responding 
to the Soviet missile buildup; in the 1980s, in working through the INF 
debate; and in the 1990s, when it brought peace to Bosnia, integrated 
former members of the Warsaw Pact, and defeated Slobodan Milosevic's 
tyranny. We are a strong Alliance, and debate within our circles about 
capabilities, roles, and missions can be healthy.
    Our fundamental goal at Prague must be to transform what has become 
a somewhat divisive trans-Atlantic debate about the role and relevance 
of our NATO partners in the war on terrorism into a concrete plan of 
action to align the Alliance's purpose of collective defense with the 
threats of terrorism and weapons of mass destruction--dangers that 
threaten the people of Europe no less than the American people, as 
demonstrated by the number of terrorist plots that have been foiled on 
European soil in the last year alone. In the face of this threat, I 
agree completely with Under Secretary Grossman's statement that NATO is 
not less important after September 11, it is more important. Because it 
is more important--as demonstrated by the Alliance's invocation of 
Article V for the first time in its history--we and our allies must 
devote ourselves to building the capabilities to defeat the threat that 
has required us to come together in our common defense.
    Like other members of the committee, I am eager to learn more about 
the proposed operating guidelines of the new NATO/Russia Council. I 
appreciate the witnesses' assurances that the North Atlantic Council 
will maintain deliberations separate from the NATO/Russia Council, and 
that the NAC itself will determine which issues and decisions to bring 
to the NATO/Russia Council for consideration. I look forward to better 
understanding how these principles will operate in practice, in order 
to ensure that NATO's institutional integrity is not compromised by a 
well-meaning effort to give our friends in Moscow a meaningful role in 
our councils. I and other members of this committee will need 
assurances that this new NATO/Russia body will, as Under Secretary 
Grossman states, offer Russia the opportunity to participate in shaping 
mechanisms for cooperation in areas that we choose, leaving the North 
Atlantic Council free to determine when and to what extent Russia will 
participate in NATO-related actions.
    I am also interested in the witnesses' views on how NATO 
enlargement will affect the interests of our Turkish allies. Turkey is 
a front-line state in the war on terrorism, as was Germany a front-line 
state during the Cold War. Turkey has made important contributions to 
securing the peace in Afghanistan and will be integral to any campaign 
against Iraq. It is also central to our objectives of ending terrorism 
and promoting democratic stability in Central Asia. A tolerant Muslim 
nation with a secular government, Turkey's strong support and active 
cooperation demonstrate the fallacy our enemies would have the world 
believe: that our campaign against terrorism is a war against Islam. 
The support of Turkey, a loyal friend and ally, lays this myth to rest 
and stands in stark contrast to the disappointing cooperation we have 
received in this campaign from another erstwhile Muslim ``ally,'' Saudi 
Arabia.
    For too long, Europe has held Turkey at arm's length. NATO's 
southeastern expansion would secure Europe's southern flank, enhance 
stability in the Western Balkans, and end Turkey's strategic isolation 
from the Alliance. It would help diminish continuing frictions in 
Turkey's relationship with the EU, minimizing Turkish grievances over 
ESDP and opening the door to the development of effective coordination 
between the EU and NATO. A visionary enlargement of the NATO Alliance 
to the south combined with the EU's historic expansion to the east 
would bring about a new and welcome cohesion of Turkey to Europe. The 
recent joint statement by Greece and Turkey in favor of NATO membership 
for Bulgaria and Romania is a promising demonstration of how 
enlargement can positively influence regional dynamics.
    The Prague summit's task will be to institutionalize these 
changes--new capabilities to defeat the new threats, new members who 
are ready and willing to join in the defense of our common values, and 
perhaps a new relationship with Russia--laying the foundation for an 
invigorated Euro-Atlantic alliance. If Prague is to provide a 
foundation for a stronger and more coherent Alliance, the summit cannot 
be ambiguous about its purpose or temporize about the size and 
membership of the community it commits to defend.
    That said, our Alliance is strong: we defeated Slobodan Milosevic's 
rogue regime, and we stand shoulder-to-shoulder as peacekeepers in the 
Balkans--where American troops should remain for as long as they are 
needed. Our continuing operations to consolidate Balkan peace reflect 
both America's commitment to our European partners and our joint 
responsibility to uphold a boots-on-the-ground leadership role in 
Europe.
    The events of September 11 have already served to clarify NATO's 
role and mission. American leadership within NATO has been enhanced by 
our leading role in the ongoing war. The terrorist assaults have bound 
the Alliance more closely together in a tangible way, with NATO assets 
helping to defend the American homeland and forces of member and 
aspirant nations working together in Central Asia. I hope it has helped 
us put aside our previous differences over an emerging, if unrealized, 
European security identity in favor of NATO's existing security 
architecture. It has laid a strong foundation for NATO's future 
relations with Russia.
    I look forward to working with the administration and members of 
this committee to transform and enlarge our Alliance to meet the 
threats of this age and secure the freedom of our people, as NATO has 
successfully done for the past half century.

    Chairman Levin. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Not only is NATO expanding outward, but also within Europe 
there is a conscious attempt to develop a European identity for 
their defense forces, the European security and defense policy. 
In addition to that, you have already mentioned the NATO ``At 
20,'' where Russia is being approached to have some type of 
counselor role, if not an active role.
    Could you comment on these developments, particularly the 
independent initiatives for European security forces, Secretary 
Grossman, Secretary Feith, and then General Ralston?
    Mr. Grossman. Sure, I would be glad to, Senator. First of 
all, let me say that we support Europe's efforts to get 
stronger, and we support Europe's efforts to have a European 
security and defense identity and a European security and 
defense policy. What we did in 1999 and have since is to make 
sure that European security and defense identity and policy is 
built up in support of the NATO Alliance. We have always felt 
that the actions or the possible actions of that European 
security and defense identity and policy should come only if 
the NATO Alliance is not engaged as a whole, is not engaged 
militarily. That is a diplomatic way of saying that we want to 
make sure that NATO has a right of first refusal.
    In terms of Europe building up its capabilities, and 
meeting the headline goal that they set for themselves for 
2003--to have 60,000 forces deployable in 60 days, sustainable 
for a year--we think that would be an outstanding thing and 
something that would really help in terms of Euro-Atlantic 
security.
    Senator Reed. Secretary Feith?
    Mr. Feith. I agree with what Secretary Grossman said. If 
the European security and defense concept is the spur 
necessary, if it is the vehicle that will succeed in increasing 
European capabilities that will be available to NATO, then it 
will have proven to be a good thing. I would like to say it is 
extremely useful that this committee does stress this point, 
and we are pleased to make reference to the interest that this 
committee takes in NATO capabilities when we are talking with 
our allies.
    But, as has been stressed, there has been overpromising and 
underdelivery on the whole issue of capabilities, whether it is 
specifically regarding NATO or the ESDP.
    Senator Reed. General Ralston?
    General Ralston. Senator Reed, first of all, I agree with 
the two previous statements there. In particular, if the 
European Union is going to increase their military capabilities 
for their own reasons or whatever, then that is a capability 
that also is available to NATO. I support that, with one 
proviso. I have said we need to do that in a way that does not 
detract from the NATO Alliance. In particular, if the European 
Union builds a duplicative planning mechanism to that of NATO, 
then I think that would be very destructive.
    I will give you three quick reasons why that is bad. If you 
tried to duplicate, for example, the planning headquarters that 
we have at Supreme Headquarters Allied Powers Europe (SHAPE), 
you are talking about thousands of military officers and the 
physical plant by which to house them. Where are those 
resources going to come from? There is only one place. They 
would come from the battalions and the squadrons and ships that 
we need to do the fighting.
    The second reason: What do military planners do in times of 
crisis? We make options for our political masters. We come up 
with options A, B, and C. Option A has a certain set of forces 
and a certain risk factor and a certain chance of success, and 
option B a different set of forces, different risk, different 
chance of success. If the European Union does this 
independently, they will not come up with options A, B, and C; 
they will come up with options 1, 2, and 3, and then the two 
political bodies, the European Union and NATO, are going to 
have great confusion as they try to talk through this issue 
together because one of them is using option 2 and the other 
one is talking about option B.
    The third reason: If the European Union goes off and plans 
this on their own and they want battalion X for their 
operation, someone has to ensure battalion X is not committed 
to a NATO plan and a NATO operation.
    Now, these are solvable problems and I would offer at least 
for consideration that this is not hard to solve. You can take 
the four nations that are not in NATO that are in the European 
Union, they are all good nations--Sweden, Finland, Austria, and 
Ireland--and bring their planners to SHAPE headquarters and we 
will together plan options A, B, and C. You have not wasted 
resources by having extra planners and extra headquarters. You 
have not introduced confusion into the system because both 
political bodies will have the same set of options. You have 
not double-tasked units to do that.
    By the way, I have officers from all four of those nations 
at my headquarters today. So I think, with the proviso that you 
do not duplicate the planning mechanism, this can be a positive 
thing.
    Senator Reed. Let me raise another issue that has been 
addressed by practically all of my colleagues. That is the gap 
between our capabilities and the capabilities of all of our 
allies, those that are in NATO and those that aspire to become 
part of NATO. It seems to me that they have a very daunting 
task because the gap keeps dramatically widening.
    I am wondering--and maybe this is all just back of the 
envelope analysis--in your view, General, and perhaps the 
Secretaries, is that gap so wide now that it could never be 
effectively breached unless there is an inordinate amount of 
spending? As you indicated in the case of Poland, they have 
basically decided they are going to spend 2 percent and that is 
it, and then they structure their forces around that.
    Are we in a perennial sort of mismatch, even if there is a 
bit of accelerated spending in Europe, in terms of our 
capabilities and their capabilities?
    General Ralston. First of all, there is a gap today, there 
is no question about that. It is not across every nation, 
because there are certain nations in the Alliance that can 
perform and do perform every day very well with their United 
States counterparts. But as a general rule, as you look at the 
defense spending of each of the European nations and as that 
continues to go down, here is the problem you get into. If 
defense budgets go up slightly, procurement goes up a lot. 
Conversely, if defense budgets go down even slightly, 
procurement goes down dramatically, because such a high 
percentage of the budget is taken up by the personnel costs and 
the base infrastructure costs.
    If you have a country that has a 10 percent decrease in 
their budget 3 years in a row, their procurement is going to go 
absolutely to zero. That is the problem we have. That is why I 
think Lord Robertson has been so aggressive in trying to get 
the European nations to increase their defense budgets. Even a 
slight increase helps you on the procurement side, because 
again that is something that can go into the research, the 
development, and the procurement of systems.
    Senator Reed. Now, just a follow-on question, General 
Ralston and Secretary Grossman. In your prospective planning, 
particularly looking at the countries who are aspiring to 
enter, have you suggested a budget pathway for them in terms of 
getting up to a level where they can operate with us, and then 
to an ultimate level where they are fully interoperable with 
the kind of expertise and technical skill that we have? Do you 
have anything like that in your plans?
    General Ralston. Let me try that and then also have 
Secretary Grossman and Secretary Feith address that. Once 
again, as I look at it, once a nation decides how much they are 
going to spend--and let us talk about the Baltics here for a 
moment. Let me talk about Lithuania, Latvia, and Estonia. I was 
very impressed by the job that has been done there in terms of 
trying to get their people programs right. They said, the first 
thing you have to do is work with your people. I think they are 
right about that: Educate the people, give them a decent place 
to work as you start through it.
    They have collectively gotten together and said: Let us put 
together an air defense network that would be useful to NATO if 
we become NATO members. I have visited their air defense 
centers there and, quite frankly, I was in one in Estonia that 
I would have been proud to have had when I was commander of the 
Alaska NORAD region. It was absolutely up to date and 
modernized. Nokia had done, from Finland, a lot of work in 
terms of wiring their things together. There was a young 
lieutenant on this radar scope who was a graduate from West 
Point. There was a young lieutenant on this radar scope who was 
a graduate of the United States Air Force Academy at Colorado 
Springs. They were working very hard on training their people 
from the bottom up, and I think they made a remarkably good 
start on working that.
    So what do we do? We encourage them to keep doing that and 
to keep working in that direction.
    Senator Reed. Thank you.
    My time has expired, but if Secretary Grossman would 
respond.
    Mr. Grossman. I just wanted to say, Senator Reed, that I 
support a point that General Ralston made in his opening 
comments. If you look at the number of defense capabilities in 
the defense capabilities initiative, 58, we have now concluded 
not only did we not get what we needed from that, but it was 
too many. So the points that Secretary Feith made about 
focusing in on getting people to the fight, sustaining them 
there, focusing on weapons of mass destruction, that is how we 
are going to be working toward the Prague summit. There are too 
many now; we want to get that number down so that we can 
actually produce some results.
    Senator Reed. Thank you very much.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    I want to make a comment on the Levin doctrine, i.e., no 
treaty, no binding commitment from one administration to 
another, the strategic concept that was adopted 2 years ago. As 
a matter of fact, I wrote a rather detailed letter to the 
Clinton administration asking if in fact those commitments as 
outlined in the strategic concept represented a treaty. It took 
a while to get that back. They indicated no, it was not. I 
think that is subject to change. Not that we want to change it. 
I am not trying to either say I am for it or to perjure it. I 
just think it is an important point that the chairman made.
    I have several observations. I am going to read again what 
Senator Lugar said: ``If we fail to defend our societies from a 
major terrorist attack involving weapons of mass destruction, 
we and the Alliance will have failed in the most fundamental 
sense of defending our nations and our way of life, and no one 
will care what NATO did or did not accomplish on enlargement at 
the Prague summit. That is why the Alliance must fundamentally 
rethink its role in the world in the wake of September 11.'' I 
agree with this statement.
    I am on the Intelligence Committee. It is my opinion that 
the sober reality is that the danger of Americans and Europeans 
being killed today at work or home is perhaps greater than at 
any time in recent history. I believe that and so I think from 
the threat standpoint we should consider that, which 
underscores the value of intelligence and the analytical 
ability of our intelligence.
    The other observation I would make is that this threat is 
global. We have to have allies, and we have to have alliances. 
NATO has to play a part. They cannot be circumscribed by any 
artificial boundaries. All of our alliances are going to be 
reviewed and recast in the light of this new challenge.
    Let me say also that, rightly or wrongly, the legacy of 
Kosovo has reinforced the concern that NATO is not up to the 
job of fighting a modern war. Again, I do not mean to perjure 
NATO, but we did not do that in Afghanistan, obviously, or 
wherever else that we will conduct our military missions.
    Now, having said that, in the Emerging Threats and 
Capabilities Subcommittee on the Armed Services Committee, 
chaired by Senator Landrieu, I am the ranking member. I always 
ask people, what keeps you up at night in regards to any 
emerging threat or real threat? I would like to ask each of you 
what emerging threat to NATO keeps you up at night.
    Mr. Grossman. Weapons of mass destruction, Senator.
    Mr. Feith. Senator, I think it is clear that the danger of 
nuclear weapons or biological weapons in the hands of 
terrorists is about the most troubling prospect that we have 
from the point of view of I think the whole range of national 
security officials in our Government.
    General Ralston. I would only add to that. First of all, I 
agree with that. Second, the reason that I stay awake at night 
worrying about it is not that there are not other threats out 
there, but I know how to handle the other threats. I have 
capabilities to handle the other threats. We are not where we 
need to be in terms of handling that kind of a threat, and that 
is why we need to put effort into that.
    Senator Roberts. If that is the case and if any 
justification for the expansion, continuation, and 
modernization of NATO has to be threat-based, then I think 
Senator Warner and Senator Lugar's advice is well-taken. But 
how do we do this?
    NATO has always operated as a consensus organization. 16 
was difficult. 19 has been challenging, and that is the nicest 
way I can put it, especially after Kosovo. 28? This is like 
trying to transport frogs in a wheel barrow, and I do not mean 
to make light of it. I would assume we are going to continue as 
a consensus organization. If the answer is yes, it seems to me 
we are going to have to have a coalition of the willing or 
maybe follow Senator Warner's suggestion. Although I am not 
sure I want to call it the Warner suggestion, but it seems we 
would have to have something like the U.N. and the Security 
Council or a coalition of the willing.
    If the answer is no, how are we going to handle that 
problem from a simple military procedure standpoint?
    Mr. Grossman. Senator, if I could try to answer your 
question in three ways. First, in terms of weapons of mass 
destruction, you received essentially the same answer from all 
of us. Our objective, it seems to me, in transforming NATO and 
in bringing new members into NATO is to make sure that they 
understand that this is the threat. Again, you talked a little 
bit in your opening statement about the strategic concept. If 
you go back to strategic concept before 1991, there is nothing 
in there about weapons of mass destruction. The 1991 strategic 
concept starts to talk about it. The 1999 strategic concept 
holds it out as a real threat to the Alliance.
    We said in 1999 that NATO had to do more in the area of 
weapons of mass destruction (WMD). We now have a WMD Center, 
but much more needs to be done.
    The second thing is, like General Ralston, I will give you 
an example of how new members actually are quite useful in 
changing people's perception of the threat. One of the ways to 
deal with weapons of mass destruction, of course, is missile 
defense. I think if you go around now and see who in the 
Alliance are among the most enthusiastic supporters of missile 
defense, you will find Poland, for example, which is a new 
member, recognizes a new threat and has a new policy. In a way, 
I think those things, the new members and the new threats, 
allow us to transform the Alliance.
    A final point, and that is that I think none of us would 
want to say here that what our objective is is to make NATO 
into the OSCE or the U.N. Security Council or anything else. 
This is an alliance for collective defense, and it is my 
judgment that the way to keep it an alliance of collective 
defense is to keep it based on consent, to keep it based on 
standards, but to recognize that sometimes those threats 
change.
    Senator Roberts. Would anybody else like to comment?
    Mr. Feith. I think Secretary Grossman did a pretty good 
job.
    Mr. Grossman. I would actually add one sentence if I could, 
Senator. That was about this question of coalitions. I may be 
getting out of my lane here because I do not work at the 
Defense Department, but I think Secretary Rumsfeld has this 
right where he says that one of the lessons of Operation 
Enduring Freedom is that you want the coalition to match the 
mission and not the other way around. I think that is a very 
important point and something that NATO can use to build on.
    Senator Roberts. I yield back my time, Mr. Chairman. Thank 
you.
    Chairman Levin. Thank you very much, Senator Roberts.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Building a little bit on what Senator Roberts asked on what 
keeps you up at night, can I assume--and I think, Secretary 
Grossman, you have already responded to this--that when you say 
weapons of mass destruction you are also concerned about the 
missile delivery of those weapons? Is that correct?
    Mr. Grossman. The whole package. The whole package, not 
only of delivery, but, as Under Secretary Feith said, the 
connection to terrorism.
    Senator Inhofe. Yes, thank you.
    Let us go back to something Senator Reed was talking about 
in terms of the capabilities gap. I think he was referring to 
how that would affect the new nations coming into the Alliance. 
Secretary Feith, I believe you said Bosnia and Kosovo exposed 
the capabilities gap between the United States and its allies. 
Do you have any way of quantifying that? Have you thought about 
that? I am interested in two things: First is the lesson we 
learned in Bosnia and Kosovo on the capabilities gap; and then 
second, how that might apply to new partners coming into the 
Alliance.
    Mr. Feith. Senator, I think that General Ralston may be 
better able to talk about what kind of quantifiable measures we 
have for that.
    General Ralston. Let me talk in terms of capabilities. What 
we desperately need are abilities to get forces wherever they 
need to be around the globe. That is the strategic lift piece. 
There is a deficiency there, something we need to work on.
    Let me talk air systems for a moment--precision attack. The 
United States has made great progress in terms of our ability 
to attack not only with laser-guided bombs. Many of the other 
allies have laser-guided bombs, but we have gone the next step, 
the Joint Direct Attack Munition (JDAM), so that it will work 
in all weather. That is something that needs to be worked upon.
    There is a huge deficiency that needs to be worked upon in 
capabilities for electronic warfare in terms of jamming of 
enemy defenses. If we are going to go in an operation anywhere 
today, it is almost imperative that the United States of 
America provide the EA-6B jamming platforms wherever you are 
going to go, because nobody else does that. I can quantify it 
in terms of those kinds of capabilities that we need to carry 
out modern warfare. I cannot quantify it and put a number on 
it.
    Senator Inhofe. If you later on can decide there is some 
way when we are talking about this gap that would help us in 
quantifying it, just for the record you might send anything in 
that you can.
    [The information follows:]

    One document that sought to quantify the capabilities gap between 
the U.S. and Europe is a recent RAND study on the Kosovo campaign. 
Operation Allied Force was almost entirely an air campaign. Therefore, 
capability differences were mainly shown in the areas of air forces and 
command and control.
    The United States provides over 700 of the 1,055 aircraft deployed 
in the allied effort. The U.S. flew over 60 percent of the sorties 
during the campaign including 90 percent of the advanced intelligence 
and reconnaissance missions, over 90 percent of the electronic warfare 
missions, fired over 80 percent of the precision guided air weapons, 
and launched over 95 percent of the cruise missiles. About 35 percent 
of the roughly 23,000 bombs and missiles used during the campaign were 
precision guided. The U.S. flew virtually all the strikes in the early 
phases of Operation Allied Force because it was the only member with 
all-weather, precision-guided munitions. In addition, the U.S. deployed 
several intelligence, surveillance, and reconnaissance (ISR) and other 
high-tech platforms with capabilities that allies simply don't have. 
These included: 4 RC-135 Rivet Joint, 5 Predator and 7 Hunter UAV 
systems, 2 EP-3s, 4 EO-P3s, 5 U-2s, 7 Guardrail aircraft, 2 E-8 Joint 
Stars, and 4 EC-130 Compass Call.
    U.S. and allied forces showed similar differences during Operation 
Deliberate Force in Bosnia. The U.S. flew 2,318 of 3,515 coalition 
(about 66 percent) combat sorties between 29 August and 21 September 
1995.

    Senator Inhofe. General Ralston, let me carry that a little 
bit further. Senator Sessions brought up the problem with 
strategic lift. I chaired the Readiness Subcommittee for 4 
years, and that is one of the things I have really been 
concerned with. That is one of the great drains that Kosovo and 
Bosnia have made. Now we find out in our refueling capacity we 
have bladder problems in fuel cells in the KC-135 that are 
going to have to be addressed.
    All these lift problems are very expensive problems. We 
know where we are with the C-141s now. They are going to go 
out. We are talking about, and I see growing support, for 
increasing our C-17 capabilities. Then, of course, the aging C-
5.
    What do you see out there as a solution to this problem? We 
have been talking about the lift capability and what is 
happening right now with the use of our C-17 fleet. It has been 
a great success. It has been wonderful. But we also know that 
it is wearing out.
    General Ralston. Let me try to address it two ways. I think 
there is a U.S. issue here. The United States of America needs 
to decide how you are going to keep a modernized strategic lift 
capability, not only air but at sea.
    Senator Inhofe. We need to do that, but we are depending on 
you to help us do that.
    General Ralston. Yes, sir. What I have to state as a 
unified commander is I need the capability to get X amount of 
stuff to Y place in a certain time period. I am going to have 
to depend upon General Jumper, the United States Air Force, and 
Secretary Roche to decide what is the right acquisition 
strategy here, whether you upgrade C-5s or you buy more C-17s 
or some combination of both, or what you do about the tankers. 
Those are the types of things that I am not staffed for. I am 
trying to fight the war this afternoon, not 15 years 
downstream. We do have a mechanism in our military to do that.
    Now let me take that to NATO. Here is where I think we 
really have to put as much pressure as we can on the other 
nations to come up with their strategic lift. I am not going to 
tell them what kind of airplane it needs to be, but it 
certainly has to be able to get from point X to point Y, carry 
the types of things you need to carry, and be responsive. Right 
now that capability does not exist.
    Senator Inhofe. I appreciate it.
    One of the things that I would like to ask you just for 
clarification: I am very proud that you are able to get this 
down, looking to the future in Bosnia for example, getting down 
to 10 percent of the force that we had in back when we were 
only supposed to be there for 12 months. I think we need also 
to talk about the fact that, while the lift capability drian 
may be 10 percent, the logistical support that comes out of 
what they used to call the 21st TACOM--I do not know what they 
call it any more--is probably going to be up around a quarter 
of it, as opposed to 10 percent of it.
    So the total effort and expenditure and the use of our 
assets, even when the number of troops is down to 10 percent of 
what they were before, would actually be greater than 10 
percent. Would you not agree with that? Are we using our 
logistics support down there that could be used somewhere else?
    General Ralston. I would have to do some thinking about 
that. The reason I might slightly quarrel with that 
characterization is because we do not provide logistics support 
for the other nations. We support only the United States. So if 
the U.S. forces are 10 percent of what they were, I do not know 
that it is exactly linear, but I think it is pretty close.
    Senator Inhofe. Is it? I am glad to hear that if it is.
    I just got back from, as I say, the former 21st TACOM and 
talked about what they are doing, what their drains are, and 
what their expectations are for other incursions.
    General Ralston. Yes, sir. I might say that they are very 
busy. They are doing an extraordinarily fine job. Some things 
they are doing are not normally appreciated. Rather than 
sending everything to Afghanistan by air, 21st TACOM worked out 
a capability to send it by train. So we sent a couple of 
practice trains to let us see if we could get through all of 
the diplomatic hurdles to get a train from Germany to 
Afghanistan, and they were successful in doing that. Now in 
something like 2 weeks we can get a huge train from Germany to 
Afghanistan, which reduces tremendously the capability to have 
to ship it by air.
    Senator Inhofe. I saw that over there, and I am very 
grateful that they were able to accomplish that.
    Secretary Feith, one of the things that people have talked 
about is perhaps waiting for this expansion until such time as 
they are more suited to be allies in terms of what their 
capabilities are and what their contributions could be. Is this 
something that is being discussed now?
    Mr. Feith. Senator, the issue of timing is being discussed. 
There is a recognition that it is important when we issue 
invitations that we have countries that are ready to enter the 
Alliance and have met the standards. So while we have not as an 
administration made a firm decision on the point, this issue of 
timing is very much at the fore of our minds. We have been 
discussing it, and we are undoubtedly going to be discussing it 
a great deal more as we head up toward the May meetings and 
then on to Prague.
    Senator Inhofe. Secretary Grossman, I know you were quoting 
the first George Bush when you talked about the 
characterization of sitting quivering in your storm cellar. I 
am not one of those who is sitting quivering, but I am one of 
those who has not really decided yet on what we are going to do 
in terms of all the things that we have been discussing.
    Senator Levin brought up the process of termination. You 
said, of course, you are on the front end of that. Secretary 
Feith, do you have any thoughts on that? Let us say somebody 
comes in, they are qualified, we rejoice and we embrace them, 
and then we find out that they are not making their 
contribution. What are your thoughts on a policy on that?
    Mr. Feith. It has been a subject, while it has been raised 
over the years, that has not been thought of as an imminent 
problem. Nobody has worked out an answer to it because, I 
guess, number one, it is not viewed as imminent; and number 
two, the working out of the answer may be more disruptive than 
constructive.
    Senator Inhofe. That is fine. Thank you very much.
    My time has expired, but I think, General Ralston, I may 
send some questions for the record on this issue of troop 
strength that we are dealing with in the Guard and Reserves, 
the 60,000 that we have over there right now, their OPTEMPO, 
and some of the problems in the critical MOSs. That is of great 
concern to me, and I know it is to you, too.
    Thank you very much.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Secretary Grossman, I appreciate your effective testimony, 
directness, and candor as we have discussed some difficult 
issues. You noted that Secretary Rumsfeld said the coalition 
needs to meet the mission. We were able to do that in 
Afghanistan. We were able to put together the kind of coalition 
we needed to do that.
    Now, if this were a conflict in NATO would we under the 
NATO rules of unanimity not have that flexibility? As we expand 
NATO, does not that add to a limitation on our ability to put 
together a coalition that fits the mission?
    Mr. Grossman. Maybe General Ralston can help me if I get 
this wrong, but it seems to me that the unanimity principle in 
NATO is a decision that NATO will do the work, and then those 
people who want to go ahead and do the work sign up to do the 
work. So whether it is the Czech Republic coming with chemical 
weapons and biological weapons defenses, the United States with 
what we bring, or the British with what they bring, then 
essentially you have a coalition inside of NATO.
    I do not mean to answer both questions at the same time, 
but NATO would have to decide as a group, yes, we are going to 
take on that mission, and then it would fall to General Ralston 
to carry out that mission with a group of countries that would 
be interested in doing so.
    Senator Sessions. Let us follow that a little bit further. 
Let us say, as Senator Levin suggested, that there is a 
significant ethnic problem, not unlike the Balkans, and 
everybody is putting pressure for reform and trying to avoid 
war, as we did in Kosovo. Let us say as a result of these 
tensions one NATO member has a regime change, just like that.
    Now we have a group that identifies with the people we are 
trying to correct, and they vote solidly against any action 
whatsoever. What do we do then?
    Mr. Grossman. Senator Sessions, first, I do not think we 
should have too rosy a view of what has happened in NATO on 
this issue since 1949. It has not been without its bumps and 
its lumps in the road. I do not want to name countries here, 
but countries have changed regime in NATO over time, and 
sometimes that has been a big challenge.
    We believe that if countries are in NATO that they signed 
up to these values, that they will in the end do the right 
thing. As I say, that has been our practice, it has been our 
experience really for 50 years.
    You and Senator Levin might be right, and we may all be 
here 5 or 6 years from now with a big problem on our hands. 
That is why we are so focused on getting the standards right in 
the membership action plan.
    Senator Sessions. Secretary Feith suggested it could be 
disruptive, it surely would be somewhat contentious, to discuss 
this openly and directly. I am inclined to think that we 
should. There would be two ways that come to my mind. I would 
think one would be less than unanimity in a vote; or the other 
would be the ability to vote out a member who rejects the 
ideals and overall commitment of the NATO group. What would be 
the possibility if those were discussed openly with our NATO 
members?
    Mr. Grossman. I do not mean to be flippant here, but if you 
look at the history of NATO and what the United States has 
tried to do in pushing new missions, new mandates, new things, 
I would not be surprised if there are some afternoons that 
there are a number of countries who would like to vote us out 
of the Alliance. I think we have to be careful of that.
    Again, I tried to answer Senator Levin's question, although 
it was not to his satisfaction.
    Senator Sessions. That would really break my heart.
    [Laughter.]
    Mr. Grossman. Well, it would break mine.
    Senator Sessions. There is something a lot deeper afoot if 
that occurred than just a dispute over----
    Mr. Grossman. Indeed. As I said, I did not answer the 
question very well for Senator Levin. I think that if the 
standard is set----
    Senator Sessions. You answered it. As he said, it just was 
not real satisfactory, or we are not sure we agree with it.
    Mr. Grossman. Fair enough.
    The standard has to be higher rather than lower, and I 
believe if there was a way out of the Alliance, standards would 
go down rather than would go up. That is my perspective.
    Senator Sessions. What if a nation does not opt out of the 
war, sends a token force, but wants to micromanage the mission? 
We had this last time, General Ralston. What do we do then?
    General Ralston. I do not want to give a long answer here, 
but I take a little bit of issue with the characterization that 
we had it wrong last time. There are some things we could have 
done better. I take blame for this because I was here in 
Washington. For the first week of the war, we struggled. At the 
end of that first week, we drew up a piece of paper on a 
Saturday morning in the Pentagon, and I got it coordinated with 
my allied friends. It said: For 95 percent of the targets, we 
do not ever want to hear about them in nations' capitals; 
General Clark has the authority to do whatever he needs to do 
on those fielded forces.
    There were some categories of targets that we said rightly 
need to go to nations' capitals. Let me give you an example: 
Should we or should we not attack a target in Montenegro? There 
was a valid political reason as to why you might want to keep 
Montenegro out of the war. We said: Before you attack anything 
in Montenegro, go back to the capitals and get a political 
consensus that that is the right thing to do. Even that had an 
escape clause that said if there is anything there that 
threatens an air crew or an airplane, then you are 
automatically cleared to take it out.
    Once we put that piece of paper out, from my perspective 
things got much better. If I had to do it all over again, we 
should have put that piece of paper out before day 1, not after 
we were into the conflict.
    Senator Sessions. If a nation asserts itself and does not 
agree with your directive about what the targets ought to be 
and says, we insist on being involved, you are not going to 
attack Belgrade, you are not going to knock out electric 
plants, you are not going to knock out bridges--and that was 
discussed during this time----have we not hamstrung ourselves?
    General Ralston. Once again, I would take the construct 
that if we were looking solely at the tactical aspects of the 
Kosovo campaign, then I might have done it differently than 
what the Alliance did. But I do not think that is the 
significant point. The significant point is at the end of 78 
days we had 19 nations that were even more strongly united, and 
I think that was by far the most important event for the 
successful outcome of that campaign.
    Senator Sessions. I appreciate that, and I do not say that 
this was a failure or a disaster as a campaign. I just say that 
it evidences a potential for a greater problem in the future. 
Maybe we will have an even greater gulf between what we need to 
be doing to effectively complete a combat mission than we had 
in Kosovo. How can we get around that? Particularly, the 
``lowest common denominator'' was the phrase that you heard 
used, and as we increase the number the lowest common 
denominator gets lower. It is more difficult to maintain 
unanimity.
    General Ralston. Yes, sir. Let me try one other thing. On 
the political side of the house that Secretary Grossman has 
talked about, we have a parallel on the military side of the 
house. We have a military committee where every one of the 19 
nations has a military officer who represents their national 
military view. We get a mission from the political authorities. 
We then have a force generation exercise that we conduct in the 
military headquarters, and that is when we decide what 
capabilities we are going to pick from what nations.
    We are not going to pick capabilities from a nation if that 
nation is not up to snuff or up to standard. So there are many 
operations that we do today where we do not have all 19 
nations' military forces involved. There may be 16 nations or 
12 nations or 6 nations as we do that. You have a mechanism by 
which you can pick the capabilities that you need to carry out 
that mission.
    Take Task Force Fox in the Former Yugoslav Republic of 
Macedonia right now. You only have a handful of nations that 
are involved in that. There may only be five or six nations 
doing that. Those people who do not have troops involved in 
that, my personal experience is we have not had a problem at 
all. They recognize they do not have troops at risk in that, 
and so they are not going to try to drive the operation, even 
though they may have views on it.
    Senator Sessions. I just felt like it was honest to say 
that NATO met and directed the deployment of the United States 
Air Force in Kosovo, and that is a big deal. We are a great 
Nation, and I want us to work in partnership and harmony. But 
we have to be pretty clear that we are not unnecessarily tying 
the hands of our military that sometimes have to act decisively 
and quickly, without delay, and maybe 19, 22, 25, 27 votes may 
not be so readily available.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    I do not think there is any doubt that the challenge or the 
complications of working in a coalition are greater than if you 
act unilaterally. I think that is clear. The advantages of 
working in a coalition, at least in the case of Kosovo or in 
Bosnia, clearly outweighed those constraints. Would you not 
agree with that, General?
    General Ralston. Yes, sir, I would agree with that.
    Chairman Levin. You described the value that we ended up 
with, which is the strength, the cohesion, the message that is 
sent when you have 19 nations acting together for a common 
goal. If you can achieve that, even though along the way there 
are more complications in working out some things, that can far 
outweigh, and I think it did outweigh in Kosovo and in other 
places, those complications.
    You are shaking your head, so I assume that you all would 
agree with that. Is that accurate?
    Mr. Feith. If I may, Mr. Chairman. You point out that it is 
not all black and white and that what you have is a real 
problem, and I think what Senator Sessions is calling attention 
to is a real problem. We should not leave the impression that 
we are denying the premise of his question, which is that the 
larger the group gets the more the danger of it being unwieldy. 
That is absolutely correct.
    That does have to be balanced against the whole range of 
benefits of enlargement. It needs to be netted out. I think 
that the point that my colleagues have made is that, first of 
all, the problem in practice has not been as great as one might 
think theoretically. Second, the irreducible problem still has 
to be netted out against the other points.
    There is one additional point that I think is important to 
highlight. What has happened in the war on terrorism is we have 
developed a new model, a very interesting model, where NATO as 
an institution has functioned as part of the war, and yet we 
have this concept of rolling coalitions that Secretary Rumsfeld 
has expounded and Secretary Grossman was referring to earlier. 
It is not the case that the United States cannot act in the 
world in its own defense under any circumstances without 
consensus at NATO, and I do not think we should leave anybody 
with that impression.
    We have the ability to act, and even when we are acting, as 
we are in the war on terrorism, where it is not entirely a NATO 
war, NATO is not irrelevant and NATO has contributed valuably. 
This shows how valuable it is to be able to be flexible in your 
policymaking and for NATO to be flexible as an institution to 
deal with new circumstances.
    Chairman Levin. I hope that the value of coalitions will be 
remembered when we talk about the war on terrorism. I think 
some of the rhetoric which has flowed from Washington has made 
it more difficult to put together essential coalitions, which 
will be so essential to carry out that war. I will leave it at 
that because that is not the subject of today's hearing, but it 
is an important subject. Since you raised the question of the 
war on terrorism and the value of having coalitions to fight 
that war, even though you want to reserve the right to act 
unilaterally, I would make that statement.
    I want to go back to the enlargement issue. There have been 
some recent reports that NATO may decide to issue invitations 
to several nations in November, but to stagger their admission 
into NATO as they meet the criteria for membership. This would 
be a departure from the last enlargement round. It would seem 
awfully complicated to me and create lots of problems, 
including any problems relative to the procedures here to 
ratify or approve those admissions.
    Can you tell us if there is any truth to the reports that 
there may be staggered enlargement and, if so, what the 
justification for that process might be? Secretary Grossman?
    Mr. Grossman. I would be glad to answer, Senator. There has 
been that conversation, mostly in Europe. People have talked 
about this as a way to deal with a number less than nine. I 
think it is fair to say that, although the President has not 
decided and I do not think our direct bosses have decided. At 
our level we are not attracted to this at all, for precisely 
the reasons that you say.
    The additional reason I would put in is I would have a hard 
time understanding how you give somebody a partial Article V 
guarantee. So I think at our level when we talk about it this 
is not something we are very much interested in at all.
    Chairman Levin. Now, on another matter: European members of 
NATO that have adopted the euro as their common currency have 
pledged not to run deficits higher than 3 percent of their 
gross domestic products. Germany, for instance, which has only 
been devoting about 1.5 percent of its GDP to defense, is 
already bumping up against its 3 percent of GDP ceiling, which 
is something they adopted when they adopted the euro. They are 
up against that ceiling, so, for instance, they were unable to 
recently give a guarantee to the partners that they would fund 
a full share of the development of a new Airbus military 
transport aircraft.
    Secretary Grossman, is the 3 percent ceiling I referred to 
a problem for NATO members who have adopted the euro, but who 
seek to and should spend more to improve their defense 
capabilities?
    Mr. Grossman. Senator, I would say, of course, it is really 
for them to respond. From my perspective it is not the 3 
percent limit that is the problem. It is the choices that they 
make in their own societies about what to spend their money on. 
We make choices all the time. You here make choices between 
social programs and defense and all the things that we do.
    When you are dealing with European countries, they have 
made a series of choices over the years that have been 
different. Our message to them is that in the society that you 
have, if you are going to defend yourself, you have to spend 
more money on defense. If you have simultaneously as a European 
Union member pledged yourself to the 3 percent, then you need 
to change your priorities inside your society.
    Chairman Levin. General Ralston, you have commented on the 
reduction of forces in Bosnia. When Senator Warner and I 
visited Bosnia during Thanksgiving, we talked to the 
Stabilization Force Commander, General Silvester, and 
Ambassador Bond about an exit strategy from Bosnia. They both 
emphasized, as you have emphasized, the need for addressing all 
of the elements of the rule of law in Bosnia, including 
prosecutorial, judiciary, and penal system reform.
    I understand that the UN's task force, the International 
Police Task Force, mandate expires in December and that the 
European Union is going to provide a follow-on police mission 
that is not going to address fully the issues involved with the 
rule of law. You have also pointed out, I believe, that the 
international community's approach in Kosovo does address those 
other elements of the rule of law.
    Can you describe to us the approach that is being taken in 
Kosovo and Bosnia, tell us which approach is preferable, and 
what changes you believe would need to be made in Bosnia, if 
any, to provide that exit strategy?
    General Ralston. Mr. Chairman, as you have stated, the two 
situations are different. I think what everyone agrees upon is 
that we do need the rule of law, which is more than police. It 
includes all the things that you mentioned. I think everybody 
agrees with that.
    Now, the question is how do you get there quickly? In the 
case of Bosnia, as you have pointed out, the United Nations has 
provided the International Police Task Force there for the last 
6 years. They have today about 1,500 unarmed police officers 
that are in Bosnia. Their mandate does expire at the end of 
this year. The European Union has recently made the decision 
that they would take over that particular mission.
    My understanding is, and these are approximate, that there 
are about 530-some officers, I think 460-some uniformed 
officers, another 60-some civilians, unarmed, that would go in 
to replace those 1,500.
    The concern I have with that in my own personal view is you 
need to get the local people involved in their policing of 
their own functions and their rule of law. In Kosovo, for 
example, OSCE set up a police academy. It happens to be run by 
a retired American military officer. They have trained 4,300 
local Kosovar citizens--Serb, Albanian, minority, female, male. 
We have those 4,300 on the streets and every 3 months we are 
putting out about another 300. The next class graduates in 
March. We will have about 6,000 by the end of this year.
    The difference is it is the local people that are there on 
the street doing the police functions and ultimately the rule 
of law, whereas in Bosnia we do not do that. Again, these are 
decisions that the nations have to make.
    If I could offer an idea, I think there is some merit to 
having the police academy and training local people as opposed 
to depending upon the United Nations or the European Union to 
do the policing.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Mr. Chairman, I think our witnesses today 
and the participation by our colleagues have made this a very 
important hearing. I commend each of you.
    Secretary Grossman, I have to tell you in the business in 
which the Senator and I were engaged, when a Senator whispers 
in my ear that they would not want you as an opponent that 
measures up in our estimate.
    Chairman Levin. It was not me, by the way.
    Mr. Grossman. I was going to say, I have not convinced the 
chairman of that.
    Chairman Levin. But it very well could have been me.
    Senator Warner. You are a great tribute to the marvelous 
career force that our Nation has in the foreign service.
    Mr. Grossman. Thank you, sir.
    Senator Warner. Thank you. I can remember when you were 
Deputy Chief of Mission in Turkey and now you are third in 
rank. Well done.
    Mr. Grossman. Thank you, sir.
    Senator Warner. Therefore, I will give you this question.
    [Laughter.]
    Mr. Grossman. I knew there was no free lunch.
    Senator Warner. On the subject of missile defense, we have 
watched our President, Secretary of State, and Secretary of 
Defense, in a very brilliant way, work through concerns of 
Russia. Those concerns were expressed somewhat perhaps--this is 
my judgment--in a less strong way than we anticipated at the 
time, and allied reaction was in some areas rather high for a 
period in the negative sense.
    What is the status of the European allies now that we are 
working through? Secretary Feith, you will be given a chance to 
comment on this. Are there significant residual concerns about 
the proposed U.S. missile defense among our allies? Are they 
beginning to get, and I say this respectfully, a more realistic 
appreciation after September 11 of what can happen even by way 
of not state-sponsored attack, but terrorist attack and/or the 
accidental firing of a weapon, which is a threat in itself?
    Mr. Grossman. Yes, sir.
    Senator Warner. Why do you not take it just generally, so 
that I can get one or two other questions in, and then expand 
that for the record, because this response will be very 
carefully examined.
    Mr. Grossman. OK. First of all, I think there is an 
increasing recognition of the threat on the part of our allies 
because of September 11, as you say. Also because all of us in 
our own way have tried again and again to make them recognize 
that, if you look at the map and see the circles from places 
like Iraq and Iran and other countries that are developing 
weapons of mass destruction, those circles include lots of 
Europe. We think that we are making some progress there.
    Second, I always believed that if we were going to be 
successful, and I think the President and Secretary Rumsfeld 
and Secretary Powell were very successful in, as you say, 
making the Russia issue come out right, that our allies would 
be much relieved, and I think they are. So we have an opening 
to do more.
    Third, since we are talking about NATO, I am still 
convinced that NATO is going to be one of the ways into this 
issue of missile defense, what used to be known as theater 
missile defenses in NATO. Who is working on missile defenses 
today? NATO is. For some countries, theater missile defense is 
missile defense. So we can build on that.
    Senator Warner. Absolutely.
    Secretary Feith, if you have anything to add, if you would 
put it in the record. General Ralston, likewise put it in the 
record.
    [The information follows:]

    Mr. Grossman. In the wake of the September 11 attacks on the United 
States, our NATO allies are focusing greater attention on the threats 
to security posed by weapons of mass destruction (WMD) and ballistic 
missiles as a means of delivery. NATO as an organization is also very 
much engaged in assessing the WMD threat and trying to improve Alliance 
capabilities against it. In our consultations with our NATO allies, we 
continue to point out that without an ability to protect their 
territory and population centers, they will be increasingly vulnerable 
to coercion or blackmail as well as possible physical attack from rogue 
states with ballistic missiles armed with weapons of mass destruction. 
We believe we share with allies a strategic interest in examining 
defense options against the full spectrum of missile threats.
    The NATO allies' views toward missile defense vary, but overall, 
there has been greater allied interest in missile defense cooperation 
and improving WMD response capabilities. Nevertheless, many allies 
continue to reserve their positions on specific aspects of missile 
defense cooperation until they can examine more detailed, concrete U.S. 
proposals in this area. We intend to continue to consult closely with 
allies as our missile defense research, development, test, and 
evaluation program advances, and offer specific opportunities for 
European participation.
    Although some NATO allies have expressed concerns about the 
potential impact missile defense would have on broader U.S.-Russia and 
NATO-Russia relations, our consultations with Russia to create a new 
strategic relationship have done a great deal to assuage their 
concerns. We have kept allies informed on the status of U.S.-Russian 
discussions. Moreover, NATO is also engaged in discussions with Russia 
on how to broaden their political-military relationship and enhance 
cooperation in a number of areas, including missile defense.
    Many allies would like to know more about the potential costs 
associated with their participation in the missile defense program. In 
our continuing consultations with our NATO allies, we will be 
addressing these issues as we determine what the missile defense 
architecture will look like.

    General Ralston. [For the administration] The defense departments 
of Germany and the Netherlands, and U.S. forces stationed in Europe are 
doing the majority of the work with missile defense systems today. 
Patriot Advanced Capability (PAC) II missiles are the only active 
missile defense system used by NATO forces. Germany, the Netherlands, 
and Greece as well as United States Army, Europe (USAREUR) forces 
stationed in Germany, employ them.
    As the most active defense players, the U.S., Germany, and 
Netherlands force, participate in an annual exercise sponsored by the 
Royal Netherlands Air Force called ``Joint Project Optic Windmill'' 
(JPOW). This exercise provides participating NATO forces the 
opportunity to practice joint and combined theater missile defense 
(TMD) operations. Various European nations have participated as passive 
defense or counterforce operations players.
    Future exercises, including JPOW VII, to be held in the Netherlands 
in late fiscal year 2002 and JPOW VIII, now being planned for fiscal 
year 2004 with Turkey as the exercise location, will continue to train 
our forces to respond to various theater missile threats.
    Our forces in U.S. Army Europe are scheduled to upgrade one of two 
battalions from PAC-II to PAC-III in fiscal year 2008. The PAC-III 
missile is smaller than the current PAC-II missile and will increase 
the firepower from 4 to 16 missiles per launcher. PAC-III also provides 
for earlier detect:ion and expanded engagement of theater ballistic 
missile targets. The Netherlands plans a similar upgrade, possibly as 
early as fiscal year 2005, and Germany is still considering the cost 
and scope of PAC-III upgrades.
    NATO Shared Early Warning (SEW-N). NATO continues to progress with 
their SEW-N program and is following a three-phase program that 
involves the U.S. Joint Analysis Center (JAC) Molesworth and the NATO 
Ballistic Missile Command, Control, Communications, and Intelligence 
network. To support a 1994 U.S. Government directive to share regional 
ballistic missile early warning information with NATO and individual 
Alliance members, the U.S. proposed a three-phase program:

    1. Phase I: Radiant Mercury (RM) installed as multi-level security 
(MLS) guard. RM strips various data from J-series messages so that data 
is releasable to various partner nations. This was completed in 1999.
    2. Phase II: RM provides geographically filtered data to Linked 
Operations and Intelligence Centers Europe, and both the Global Command 
and Control system SEW server and the NATO Interim Combined Air 
Operations Center Capability SEW server at Supreme Headquarters Allied 
Powers Europe. Scheduled to be completed in late 2002.
    3. Phase III: NATO extends data dissemination to its critical C2 
nodes. Completion date is not yet determined.

    Finally, USEUCOM is continuing to develop its relationship to NATO 
through various memoranda of agreement. Efforts to better define SEW-N 
information architecture, availability, maintenance support, and costs 
will enhance the overall effectiveness of the system. USEUCOM expects 
to complete these efforts by mid-year 2002.

    Senator Warner. Secretary Feith or Mr. Grossman, the United 
States is providing a substantial amount of dollar assistance 
to the aspirant nations looking to the fall meeting on 
expansion. In the last year, $55 million were distributed. To 
what extent are other nations in NATO providing comparable 
assistance to the nine nations seeking to join NATO, and which 
nations provide assistance that dollar-wise approximates that 
of the United States taxpayer?
    Mr. Feith. Senator, with your permission, I would like to 
respond for the record. I do not have the answer off the top of 
my head.
    Senator Warner. Fine.
    [The information referred to follows:]

    Almost all NATO allies are providing some level of assistance to 
the nine nations seeking to join NATO. The assistance covers many 
different areas, to include:

        <bullet> Excess military equipment.
        <bullet> Combat training of military forces.
        <bullet> Language training.
        <bullet> Slots at military schools.
        <bullet> Military advisors seconded to aspirant Ministries of 
        Defense.
        <bullet> Support of military exercises.

    [Deleted.]
    As many NATO allies are members of the European Union, we have 
included EU assistance to the aspirant states in a separate line.

    Senator Warner. I raised that issue the night that I 
interjected my opposition to the passage of the proposal that 
Mr. Lieberman discussed. I would like to know what the others 
are doing, because this had a very significant dollar amount in 
it as proposed.
    To all of you gentlemen, if you want to put it in the 
record because it is quite voluminous: Give us the views of our 
allies on NATO expansion in a summary of what each of the other 
18 nations feel, each of the other 18 nations, because I think 
it is important for the Senate to have that information as we 
begin to proceed, hopefully as a partner, in the deliberations 
on this expansion issue.
    [The information referred to follows:]

    Mr. Grossman. [For the administration] All allies support further 
enlargement and share the U.S. view that the events of September 11 
highlight the importance of building the broadest, strongest possible 
Alliance. A broad consensus is forming behind President Bush's vision 
of the most robust round possible, for all aspirants that are ready to 
assume the responsibilities of membership.
    I will be travelling to many NATO capitals in Europe April 15-19 to 
consult further on a common allied approach to the upcoming Prague NATO 
summit. Enlargement will be a key focus of this trip.
    We have encouraged allies not to advocate for specific candidates 
until we can develop an agreed Alliance consensus. Allies have 
concurred that the question of ``who'' should be invited should not be 
addressed until closer to the Prague Summit in order to give aspirant 
countries the maximum opportunity to meet their reform goals. We are 
also seeking to avoid early and conflicting commitments among allies to 
facilitate efforts to build a NATO consensus.
    We will be consulting closely with the Senate in the months ahead 
on the progress of individual candidates and the views of our allies.

    Senator Warner. Lastly, I will read this one and you can 
respond for the record. NATO's Membership Action Plan, called 
MAP, established a program of activities to assist aspiring 
countries in their preparations for possible future membership 
in NATO. The MAP states that aspirants would be expected ``to 
settle ethnic disputes or external disputes, including 
irredentist claims, or internal jurisdictional disputes by 
peaceful means in accordance with OSCE principles and to pursue 
good neighborly relations.''
    This is an area of the world, that is the proposed nine 
aspirants, those nine nations seeking to join, with many ethnic 
minorities and longstanding border and other internal or cross-
border disputes. We all recognize that. What progress have the 
nine aspirants made with regard to settling such disputes 
within the framework of the MAP?
    I presume that progress has been made. If you can say that 
much and then place the rest of it in the record. Anyone wish 
to comment?
    Mr. Grossman. I was just trying to think where to start. 
Senator, I want to go back to your first question, which was 
what other allies think about expansion. We have asked our 
allies, and we have tried very hard to live by this rule 
ourselves, that nobody start choosing particular names until 
some time later in the year. We want to avoid a beauty contest. 
We would like to make sure that we continue to get progress 
from these countries.
    What I am about to tell you would be my judgment, which is 
to say that I believe that the vast majority of allies, 
certainly all the people I have talked to, are interested in 
some expansion. I believe there is a consensus forming around 
President Bush's statement that we ought to do as much as we 
can and not as little as we can.
    I think it will not surprise you also that there will be, 
as I think Senator Landrieu said, differences in perception 
between countries in the North and countries in the South. 
Those are all conversations yet to come. But I believe that 
there is nobody in the Alliance today who stands up and says it 
would be the absolutely wrong thing to do. As I say, we have 
tried very hard to keep ambiguous, for reasons that you would 
understand. I hope you will support us, and we want as much 
progress as we can possibly make.
    On the second question, yes, I would be glad to respond for 
the record. I can tell you that in every single one of the 
visits to the nine countries that Ambassador Burns and his team 
made this was high on their agenda. I will give you one from 
the past and one from the future. What we saw between the Czech 
Republic and Hungary as both of them were getting ready to join 
NATO was a settlement of some of their disputes, a positive 
thing. In aspirants, I would cite the very good work that has 
been done in the Baltic states to deal with people who speak 
Russian, their Russian minorities, through OSCE and other ways. 
I am sure there are others, and I would be glad to submit them 
for the record.
    [The information referred to follows:]

Albania:
    Albania has no significant ethnic problems within its borders. The 
Constitution provides for ``pluralism'' and ``religious coexistence'' 
and protects the rights of minorities to ``freely express, without 
prohibition or compulsion, their ethnic, cultural, religious, and 
linguistic belonging . . . to preserve and develop them, to study and 
be taught in their mother tongue, and to unite in organizations and 
associations for the protection of their interests and identity.'' A 
National Minorities Section in the Ministry of Local Government 
monitors the participation of national minorities in policymaking, both 
at the local and national levels, while the Office of National 
Minorities in the Ministry of Foreign Affairs monitors Albania's 
compliance with international obligations and commitments as they 
relate to minority issues.
    While no recent official statistics exist regarding the size of 
various ethnic communities in Albania, the ethnic Greek community is 
clearly the largest minority group in Albania, estimated at 
approximately 3 percent of the population. Ethnic Greeks in Albania 
have complained about the government's failure to recognize the 
existence of ``ethnic Greek towns,'' to determine the exact size of 
their population, to utilize Greek on official documents and public 
signs in Greek areas, and to provide adequate Greek language education. 
Ethnic Greeks, however, led by their cultural association Omonia, have 
access to government leaders at all levels and are represented in 
government, parliament, and other public sectors. Other, smaller 
minority communities (Vlachs, Montenegrins, Macedonians, Roma and 
Egyptians) together represent approximately 2 percent of the population 
in Albania.
    Albania maintains good relations with its neighbors Serbia and 
Montenegro, Kosovo, Macedonia, Italy, and Greece and continues to play 
a constructive role in the region. The Albanian government has 
consistently condemned Albanian extremism in Macedonia and southern 
Serbia, promoted peaceful dialogue and Macedonian territorial 
integrity, and supported moderate Albanian leaders in the region.
    Weak borders continue to plague Albania as crossborder trafficking 
in weapons, persons, and contraband contributes to regional 
instability. The U.S. and NATO are presently working with Albania on 
ways to strengthen its border security.

Bulgaria:
    Bulgaria has no outstanding border disputes with any of its 
neighbors (Romania, Yugoslavia, Macedonia, Greece, and Turkey). Rather, 
Bulgaria has been actively seeking  greater cooperation with 
neighboring states on such crossing border problems as drug smuggling 
and trafficking in persons. It has initiated high-level bilateral and 
trilateral (Bulgaria-Greece-Turkey and Bulgaria-Romania-Turkey) 
consultations to coordinate on issues of mutual interest.
    Bulgarians pride themselves on their tolerance of various ethnic 
groups and religions, and the country has been an island of ethnic 
stability in the troubled Balkans. The Armenian and Jewish communities 
are particularly well integrated. The new government is reviving a 
council to address ethnic issues, has announced plans to set aside some 
police academy slots for minorities, and has declared its interest in 
seeking economic development in areas with large minority populations.
    However, as noted in the 2001 Human Rights Report, serious 
discrimination exists in practice, particularly against the Roma 
community. Bulgaria's large ethnic Turkish minority (10 percent of the 
population) is relatively well integrated, though more can be done in 
this area. The current government includes ethnic Turkish cabinet 
ministers for the first time. Relations with Ankara (and with Athens) 
are very good.
    Though many Bulgarians believe Macedonians are really ethnic 
Bulgarians and the government does not recognize a Macedonian 
``ethnicity,'' Bulgaria was the first state to extend recognition to 
the FYROM. Bulgaria has been a staunch supporter of Macedonia's 
sovereignty and territorial integrity, and has sought to improve 
economic links with Macedonia both bilaterally and through regional 
initiatives.
    Bulgaria has been concerned about the treatment of ethnic 
Bulgarians in Serbia, particularly under the Milosevic regime, but has 
pursued these concerns exclusively through diplomatic means.

Estonia:
    Estonia currently has no external or ethnic disputes of note. The 
OSCE mission established to monitor integration of the Russian-speaking 
minority (28 percent of the population) in Estonia was closed on 
December 31, 2001 after determination that Estonia met the criteria for 
integration. The United States continues to work with the GOE to assist 
with its ongoing integration efforts.
    In March 1999, Estonian and Russian officials initialed a border 
agreement after 4 years of negotiations. While the GOE is prepared to 
sign the agreement, Russian officials have held back, citing lack of 
sufficient support in the Duma for ratification. The GOE continues to 
await action by the Russian government.

Latvia:
    Latvia currently has no ethnic or external disputes of note. Russia 
has criticized Latvia for not paying sufficient attention to the rights 
of its ethnic Russian minority (30 percent of the population), however, 
Latvia has made good progress, demonstrated by the closing of the OSCE 
mission in Riga on January 1, 2002. Almost all Latvian residents, 
regardless of their ethnic status, are eligible to apply for 
naturalization, and Latvia has made naturalization easier over the last 
year by reducing fees and accepting school certificates in place of 
naturalization examinations. In addition, Latvia's social integration 
foundation is operational and making grants for projects designed to 
bring the ethnic Russian-speaking minority into fuller participation in 
civil society; Latvia's education, language, and citizenship laws are 
all in compliance with international norms, and it has mounted a public 
awareness campaign to promote citizenship.
    Social integration is an ongoing process. Latvia is in the process 
of amending its election law to remove a requirement that candidates 
for public office speak fluent Latvian.
    Latvia and Russia have initialed a border treaty, but the GOR has 
not yet submitted the treaty to the Duma, citing insufficient support 
among parliamentarians.

Lithuania:
    Lithuania has no major outstanding ethnic disputes, irredentist 
claims, or jurisdictional disputes. Lithuania settled its land borders 
with Latvia in the late 1990s and with Poland in the early 1990s. While 
only 8.7 percent of its population are of Russian descent, Lithuania 
has not had problems in the integration of ethnic Russians. A 
Lithuania-Belarus agreement has been signed, but Belarus has yet to 
complete the demarcation of its border. Lithuania has signed and 
ratified agreements on its borders with Russia, but is waiting for 
Russia to ratify the agreements.

Former Yugoslov Republic of Macedonia:
    Macedonia has been a strong promoter of cooperation in the region 
and strives to maintain good neighborly relations. Through the 
Southeast Europe Cooperation Process, Macedonia has been a driver for 
multilateral regional cooperation, especially in the trade sphere.
    Relations continue to improve with the Federal Republic of 
Yugoslavia in the post-Milosevic era. Both sides resolved long-standing 
differences over their common border in a February 2001 agreement, 
which delimited their heretofore indefinite and un-demarcated border. 
We are encouraging the Macedonian government, in cooperation with 
UNMIK, NATO, and Kosovar institutions of self-government, to take steps 
to implement the agreement's provision for resolving practical problems 
of property access and cross-border movement as they relate to the 
border with Kosovo.
    Macedonia's relations with Albania are deepening, and we are 
encouraging both governments to further strengthen the relationship, 
especially in the areas of border security cooperation. In March, they 
signed a Free Trade Agreement. Macedonia's relations with Bulgaria are 
positive and constructive, as witnessed by a steady exchange of high-
level visits. Greece and Macedonia have taken great strides in recent 
years to strengthen bilateral political, economic, and security 
cooperation. Talks on resolving outstanding differences over the name 
continue under U.N. auspices, but this issue has not hindered the 
continued development of constructive bilateral relations.
    With the signing of the Framework Agreement in August 2001 by 
Macedonia's President and multiethnic government coalition leaders, and 
the subsequent passage of constitutional amendments called for in the 
agreement, the foundation has been laid for Macedonia's return to peace 
and stability in a context of improved civil rights for minority 
groups. Together with our international community partners, we will 
continue to work with Macedonia's government, elected representatives, 
and citizens to move the country back from crisis toward normalcy, 
achieve full implementation of the Agreement, and restore trust and 
cooperation among all of Macedonia's citizens.
Slovakia:
    Slovakia continues to be committed to good neighborly relations, 
and has been an active supporter and promoter of cooperation in the 
region, in particular by means of the Visegrad 4 (V4). In the field of 
human rights and the protection of people belonging to national 
minorities, the current government has made significant progress. 
However, continued close attention will be required for those groups in 
society most likely to suffer from abuse or discrimination.
    Slovakia's stance vis-a-vis the Hungarian ``status law,'' clearly 
demonstrated its commitment to maintain good neighborly relations. 
While concerned by what the Slovaks view as a provocative tone coming 
from Hungary, they nonetheless are committed to resolving the issue via 
the experts working group rather than in the media. As noted, the V4 is 
Slovakia's most important vehicle for developing neighborly relations. 
The V4's main goal remains cooperation in the context of EU accession, 
but it is also developing an internal dimension in the fields of 
environment, justice, culture, and recently also certain defense 
issues. As for Slovenia, Austria, and the Ukraine, there are several 
issues under negotiation at the working level.
    As for human rights, a law establishing a public defender of rights 
(ombudsman) entered into force on January 1, 2002. The office is to 
start functioning September 2002. A draft law on equal treatment and 
the creation of an equal opportunities center remains pending. 
Regarding treatment of persons belonging to national minorities, the 
current government undertook a significant number of steps that put in 
place a stronger institutional and legislative basis to deal with 
minority issues. The funding for the plenipotentiary for the Roma 
community was nearly doubled in 2002. However, serious cases of 
racially motivated crime, police brutality, and discrimination 
concerning the Roma continue to be reported by NGOs.

Slovenia:
    Slovenia enjoys cordial relations with its neighbors. While there 
are some as yet unresolved disputes related to borders and ethnic 
minorities, Slovenia has consistently demonstrated its commitment to 
pursue peaceful resolutions bilaterally or through multilateral 
channels.
    According to the 1991 census, 23 different minorities make up about 
12 percent of the population of Slovenia. Upon achieving independence, 
Slovenia offered citizenship to all residents, regardless of ethnicity 
or origin. Slovenia later offered permanent resident status to (non-
Slovene) former Yugoslav citizens who had immigrated to Slovenia, but 
had not taken up the citizenship offer. The Constitution provides 
special rights and protections including the right to use their own 
national symbols, enjoy bilingual education, and benefit from other 
privileges--to the two ``autochthonous'' minority groups, namely, the 
Italians and Hungarians. The government of Slovenia continues to work 
with the Romani community on the implementation of legislation 
addressing Roma issues. Roma still face problems with housing, 
education, and unemployment, among others, but the government's Roma 
Assistance program, adopted in 1995, is helping. The government is 
particularly focusing on involving more Roma in education, as the key 
to progress in other areas.
    States of Yugoslav Succession: Slovenia has played a positive role 
in ongoing discussions among the successor states to the former 
Yugoslavia. Along with the other successor states, Slovenia signed the 
framework state succession agreement in June 2001. Macedonia and Bosnia 
have already ratified the agreement; Slovenia, Croatia and the FRY hope 
to sign in the near future. Issues remain on the division of financial 
and other assets and government representatives hold regular meetings 
toward this end. The two most controversial questions concern some $600 
million alleged to have disappeared from the accounts of the former 
central bank of Yugoslavia and how to cover outstanding deposits of 
Bosnian and Croatian account-holders in the former Ljubljanska Banka.
    Croatia: On July 2001, Slovenia and Croatia reached agreement on 
the delineation of their border and on the joint ownership and 
management of the Krsko nuclear power plant. Both governments have 
initialed the border agreement, but Croatia subsequently declined to 
sign, citing a lack of support in its parliament for the agreement. 
Croatia has suggested setting aside the agreement and submitting the 
border issue to international arbitration, but Slovenia prefers not to 
reopen the issue. The government of Slovenia is hopeful that Croatia 
will choose to sign and ratify the existing agreement. Both governments 
signed the Krsko nuclear plant agreement in December 2001. Although 
both have still to ratify it, a joint working group that is to lay the 
foundations for the establishment of a new company to manage the plant 
began meeting in January 2002.
    Italy: Slovenia's border with Italy was settled through the Treaty 
of Osimo, signed by Italy and Yugoslavia in 1975. Slovenia formally 
undertook the obligations of the Treaty via an exchange of diplomatic 
notes in 1992. The Treaty additionally acknowledged the right of 
Italian claimants to compensation for property expropriated in 
Yugoslavia and the right to protection of the Italian ethnic minority 
in Yugloslavia and the Slovene minority in Italy. In 1983, Yugoslavia 
and Italy finalized the Rome Agreement on compensation to Italians who 
had lost property in Yugoslavia. In accordance with that agreement, 
Slovenia has been depositing funds into a special account in 
Luxembourg. Italy has not yet drawn on those funds to compensate its 
citizens. Some of those entitled to compensation, including some 
Italian-Americans, have expressed displeasure with the provisions of 
the agreement and/or its implementation. The government of Slovenia 
works with the Italian government to ensure that the rights of the 
Slovene ethnic minority are respected. Slovenia continues to call on 
Italy to implement Italy's February 2001 law on the protection of the 
Slovene minority and to provide bilingual documents, such as ID cards 
and census forms, where warranted.
    Austria: Slovenia enjoys generally excellent relations with 
Austria. The government of Slovenia works through diplomatic channels 
to try to ensure that Austria protects the language and other rights of 
the Slovene ethnic minority. One issue that disturbs the relationship 
concerns the 1945 decisions by Yugoslavia (the ``AVNOJ decrees'') to 
expel most German citizens or people of German origin and confiscate 
their property. Some Austrians, such as Carinthia's Governor Joerg 
Haider, have demanded that Slovenia rescind these decrees and/or pay 
reparations to those expelled or their families. In addition, it is 
much more difficult for these people (or their heirs) than for others 
to claim their lost property or compensation for it under Slovenia's 
1991 denationalization law.
    Hungary: Slovenia and Hungary enjoy good relations. There are no 
disputes over their border, nor are there serious concerns over the 
treatment of the Hungarian minority in Slovenia or the Slovene minority 
in Hungary.

Romania:
    Romania seeks to contribute to regional stability by maintaining 
generally good relations with all of its neighbors.
    Hungary: Romania and Hungary maintain good relations, and finalized 
in December 2001 an agreement to resolve a contentious Hungarian Status 
Law implementation issue. Romanian-Hungarians are Romania's largest 
ethnic minority group (7 percent of the population), and in February 
2001, the Romanian government (GOR) passed a law that implements a 20 
percent clause for official use of another language in constituencies 
where 20 percent or more of the population speak a language other than 
Romanian. The ethnic Romanian-Hungarian party (UDMR) signed a protocol 
with the ruling Social Democratic Party (PSD), and generally votes in 
support of the government.
    Serbia: Romania and Serbia maintain good relations. The GOR 
supported democratization efforts there in cooperation with the U.S. 
and the international community, and continues to support re-
integration of Serbia into the regional community (i.e., into trade and 
regional base organizations such as Stability Pact).
    Bulgaria: Romania has good relations with Bulgaria, and seeks to 
strengthen ties and increase cross Danube commerce. Both countries 
mutually support each other as NATO candidates in the upcoming Prague 
summit, as well as for eventual EU membership.
    Ukraine: Relations are generally good, although occasional disputes 
have occurred concerning treatment of ethnic Romanians in the Ukraine. 
Most recently, there have been discussions between the two governments 
at the expert level to resolve issues concerning education for their 
respective minorities in the other country. The situation in Moldova 
has also precluded the launching of the trilateral (Romania, Ukraine, 
Moldova) commission.
    Moldova: Romania seeks to maintain generally good relations with 
Moldova, but tension has arisen recently subsequent to the communist 
electoral victory one year ago in Moldova. For the most part, the GOR 
tends to say little about Moldova, since Moldova is sensitive to 
statements that might be seen as impinging on its sovereignty. Romania 
has aligned itself with the EU, the council Europe, and the OSCE 
regarding the situation in Moldova.
    Russia: Romania maintains generally good relations with Russia, 
seeking to ensure that Russia will accept Romania's decision to join 
any collective security arrangement (such as NATO). Romania also hopes 
that Russia will return gold deposited in 1916 with the Czar's 
government.
    Regarding internal ethnic disputes, relations with the ethnic 
Hungarian community are generally good and improving. The GOR strategy 
on the Roma community is being fine tuned in consultation with the Roma 
leadership. The GOR and the Roma community admit that the difficulties 
the Roma face will take many years to fix.

    Senator Warner. At this time I am glad the chairman 
recognized the presence today of several ambassadors from those 
nations in the category of aspirants. I and other Members of 
the Senate and perhaps the House are frequently invited to 
various functions here in the Nation's capital. I know a person 
for whom I have high regard, Mrs. Finley, often hosts a number 
of these informal discussions where Members of Congress have 
the opportunity to talk with the ambassadors and other 
representatives from these nations. In every instance in which 
I have participated, I think it has been done on a very high 
level, an absolutely superb professional exchange of views. I 
think that their active participation, be it the ambassadors, 
defense ministers, secretaries of state, or foreign affairs 
ministers, it has been done very well. It will continue, I am 
sure. The intensity is likely to pick up in the months to come. 
We should encourage it.
    I think it would be wise that we do not begin to have a 
short list developed until we look at the overall issue. I come 
back to the basic proposition, do we need to get the house more 
in order before we decide to acquire more teams? You can look 
at the baseball franchises here in the United States. There is 
a lot of concern that that house is not in order before they 
get new franchises.
    Thank you, gentlemen, very much.
    Chairman Levin. Talking about houses being in order, NATO 
Secretary General Robertson on February 3 in a major speech 
titled ``NATO's Future,'' after urging the Europeans to get 
their house in order and to spend more on defense, said that: 
``The United States must do more, too. Not in terms of soldiers 
on the ground or aircraft in the air, but in facilitating the 
process of European defense modernization. By easing 
unnecessary restrictions on technology transfer and industrial 
cooperation, Washington can improve the quality of the 
capabilities available and diminish any problems our forces 
have in working together.''
    Secretary Feith, do you agree?
    Mr. Feith. Yes.
    Chairman Levin. Are those efforts being successfully made?
    Mr. Feith. Yes, we are working on harmonizing export 
control policies with our allies so that we can have a more 
open exchange of technology.
    Chairman Levin. You are not talking rhetoric here.
    Mr. Feith. No, we are talking technology.
    Chairman Levin. Just one quick comment on missile defense 
because it is irresistible.
    Senator Warner. That is why I am waiting.
    Chairman Levin. In that case, I am tempted to make it a 
very long comment, because I love to have you at my side.
    Secretary Grossman, you talked about more realistic 
appreciation of threats after September 11. I could not agree 
with you more. I think September 11 gave us a very realistic 
appreciation of where the real threats lie. We differ as to how 
to answer that question, but that is the test: What is the 
lesson of September 11 in terms of realistic threats to us and 
the likely threats? We will leave it at that. Otherwise we will 
be here all afternoon.
    I think we join Senator Warner in thanking you all for your 
testimony. Next time you are here together, we will give you a 
little wider table. We thank again our special visitors for 
joining us today, and we will stand adjourned. Thank you.
    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Joseph I. Lieberman

                         NATO-RUSSIA RELATIONS

    1. Senator Lieberman. Secretary Grossman, how will the proposed 
NATO-Russia Council avoid the antagonism that crippled the Joint 
Permanent Council?
    Secretary Grossman. Creating the new NATO-Russia Council will be an 
important milestone for the new era of Russia's relationship with the 
West. With the decision of President Putin to advance Russia's 
interests by seeking cooperation with Euro-Atlantic institutions rather 
than opposing them, the path was cleared to make NATO an instrument to 
enhance security for all countries in Europe and North America. Of 
course, it will be up to the Russian authorities how much use they will 
make of this opportunity to develop a positive relationship between 
Russia and NATO.
    We are confident that the new NATO-Russia Council will provide for 
smoother and more effective cooperation between the Alliance and Russia 
through the substantive issues it will be dealing with and through its 
procedure.
    With its focus undertaking practical, well-defined, mutually 
beneficial projects the new Council will be built around shared 
interests of allies and Russia to address commonly perceived security 
threats. In the struggle against terrorism, in crisis management, on 
non-proliferation of weapons of mass destruction, but also in the areas 
of civil emergencies, search and rescue, and scientific cooperation, 
NATO allies and Russia dispose of useful and important resources to 
improve security for their mutual benefit. The new Council will build 
upon the strengths of the existing NATO-Russia cooperation, such as the 
military cooperation in the peacekeeping missions in Southeastern 
Europe that has been marked by a professional approach, to develop and 
achieve well-defined goals. On the procedural side, the new Council 
``At 20'' will allow Russia to participate in the consultation and 
decision-making process as an equal partner, while not giving Russia a 
veto on NATO decisions or the ability to restrict NATO's freedom of 
action.

    2. Senator Lieberman. Secretary Grossman, what issues or areas of 
policy can we say today will remain the exclusive concern of the North 
Atlantic Council?
    Secretary Grossman. Our approach in developing a new mechanism for 
NATO-Russia relations has been to identify concrete, practical, well-
defined projects to serve as the basis for building cooperation between 
NATO and Russia. The intent is to identify projects of mutual interest 
to both NATO and Russia where we believe there is a high probability of 
success. We have deliberately avoided building the new relationship on 
ill-defined generic lists of issues or areas, which impinge on the key 
equities of the NATO Alliance.
    It is clear to all parties, including Russia, that the work of the 
new body will in no way inhibit the North Atlantic Council (NAC) from 
taking a decision on any issue. Russia also understands that the new 
Council will have no say on core NATO policies and areas such as 
individual and collective defense (Article V), membership (Article X), 
and the military planning process, which will remain the exclusive 
domain of the North Atlantic Council.
    A consensus in the North Atlantic Council will be necessary to put 
and keep any issue on the agenda of the new NATO-Russia Council. Any 
ally can remove an item from the agenda of the new body at any time. 
The primacy of the North Atlantic Council in NATO's decisions and 
actions will not be affected.
    Within this framework, our aim is to start with a modest agenda for 
cooperation and, as a solid record of achievement develops, expand the 
agenda and with it the NATO-Russia contribution to our larger goal of a 
Europe whole, free, and at peace that works together to meet the 
threats to our security.

                    FOREIGN MILITARY FINANCING FUNDS

    3. Senator Lieberman. Secretary Feith, what systems and 
capabilities are aspirant states buying with U.S. Foreign Military 
Financing (FMF) funds?
    Secretary Feith. FMF funds provided to aspirant states are used 
primarily to advance the objectives of Partnership for Peace. These 
funds allow recipient countries to acquire defense equipment and 
services that facilitate participation in peacekeeping activities and 
interoperability with U.S. forces and NATO. FMF funds have been spent 
on priorities such as the Regional Airspace Initiative/Air Sovereignty 
Operations Centers, National Military Command Centers, and English 
language training. In addition, provision of NATO-interoperable 
equipment such as tactical communications equipment, tactical vehicles, 
computers, search and rescue equipment, as well as uniforms and 
individual equipment help to support peacekeeping units and elements 
that participate in Partnership for Peace activities. Countries have 
also utilized this FMF to undertake contractor-led reform initiatives 
suggested by Department of Defense studies, non-commissioned officer 
and officer development, and personnel management reform. The focus has 
been to facilitate greater compatibility with NATO, strengthen 
democratic control of the military, and improve defense planning, 
budgeting, logistical, acquisition, and data management processes.

    4. Senator Lieberman. Secretary Feith, is the administration 
satisfied that these FMF procurements are optimal in fulfillment of 
each country's Membership Action Plan?
    Secretary Feith. We are satisfied that the aspirants' FMF 
procurements are in line with the goals of their respective Membership 
Action Plans.
    While the U.S. and NATO provide specific guidance and 
recommendations to the NATO aspirants through the Membership Action 
Plan, any decisions made by the aspirants on the basis of such advice 
remain national decisions undertaken and implemented at the sole 
responsibility of the country concerned. We would also note that some 
of the aspirants have been provided military equipment by other states, 
which would drive the specific support packages that would be needed by 
such aspirants.

                         CONSISTENCY OF ADVICE

    5. Senator Lieberman. Secretary Grossman, the U.S. and several 
larger NATO allies consult bilaterally with partner states about the 
development of their military capabilities. Are individual partners 
getting consistent advice?
    Secretary Grossman. Yes. In the same way that we confer with allies 
on the range of issues that come before the North Atlantic Council, we 
have adopted similar or complimentary messages to deliver to the 
aspirants regarding necessary reform efforts.
    The aspirants have come before the NAC on a number of occasions 
since they began the Membership Action Plan process. This March and 
April each aspirant once again is having its progress reviewed. Prior 
to these meetings, allies review the aspirants' progress and develop 
consistent messages. It has been our experience that allies share our 
concerns and are urging aspirants to focus or similar priorities. These 
include the demonstration of a broad and enduring commitment to 
democratic values; a clear commitment to a free market economy and 
continued economic reforms; broad and sustainable public support for 
membership; continued progress toward meeting all MAP objectives, and 
the ability to contribute to the security of the North Atlantic area 
and contribute to NATO's core mission of collective self-defense.

                           NATO PARTNER GOALS

    6. Senator Lieberman. General Ralston, are partner states pursuing 
(or drawn into) overly ambitious goals, redundancies, or 
contradictions? How is this coordinated among NATO members?
    General Ralston. There are numerous checks and balances within the 
NATO PfP Planning and Review Process (PARP) that ensure goals addressed 
to partners are not overly ambitious, redundant, or contradictory, but 
instead represent a realistic challenge to nations. The North Atlantic 
Council established the objectives of PARP to improve interoperability 
with NATO, increase transparency of defense planning processes, and 
prepare aspirant nations for NATO membership. The Partnership Goals 
(PGs) are designed to fulfill these objectives. Partners are 
discouraged from accepting PGs that represent an unreasonable burden on 
their national resources.
    The many levels of consultation within PARP also help to prevent 
partners from over-extending their resources or setting redundant 
goals. First, in the development of PGs, the SHAPE staff consults with 
the International Staff to ensure the PGs comply with political 
guidance and to ensure they pose a reasonable challenge. Then, NATO 
sends a team of military, political, and financial experts to the 
nations for ``bilateral'' discussions. One focus of these meetings is 
to ensure the principle of reasonable challenge is not violated. After 
the bilateral discussions, the Political-Military Steering Committee 
(PMSC) holds discussions with the partners in Brussels, prior to the 
PGs being forwarded to the Euro-Atlantic Partnership Council for 
approval. Again, partners' ability to resource the PGs is closely 
scrutinized by the PMSC. Furthermore, the adoption of, or commitment 
to, specific goals is entirely voluntary. In order to lessen the 
burden, partners are encouraged to leverage bilateral assistance 
programs as much as possible in the fulfillment of these goals. In 
previous PARP cycles, NATO discovered a few nations had been overly 
ambitious in their acceptance of PGs. This was possibly motivated by 
their aspirations for NATO membership and their desire to appear to be 
making an acceptable effort. NATO has sought to correct this problem in 
the current cycle and most nations have had the number of PGs addressed 
to them reduced significantly.

                          CONSENSUS OF ALLIES

    7. Senator Lieberman. Secretary Grossman, assuming that we and our 
allies in NATO would be best served by achieving consensus before the 
Prague Summit on which aspirant states to offer accession negotiations, 
how will the United States manage the consultation process over the 
coming 7 months to achieve such a consensus?
    Secretary Grossman. Our goal is to build a strong allied consensus 
on specific candidates by Prague. All allies support further 
enlargement, and a broad consensus is forming behind President Bush's 
vision of the most robust round possible, as long as aspirants are 
ready to assume the responsibilities of membership. We have encouraged 
allies not to advocate specific candidacies until we can develop are 
agreed Alliance consensus. In mid-April, we are beginning those 
consultations with a visit by Under Secretary for Political Affairs, 
Marc Grossman, to NATO headquarters in Brussels and the capitals of 
nine of our allies to discuss matters related to the Prague Summit.
    Allies have agreed that the question of ``who'' should be invited 
should not be addressed until after the May ministerial at Reykjavik. 
Instead, we are seeking to keep aspirant countries focused on meeting 
their reform goals through the Membership Action Plan and avoid early 
and conflicting commitments among allies.

                          DIVERGENCE OF VALUES

    8. Senator Lieberman. Secretary Grossman, Secretary Feith, and 
General Ralston, our consultations at the Munich Security Conference 
earlier this month suggested a significant divide between U.S. and 
European societies and political leaders about what we have to defend 
ourselves against. We spent proportionally so much more on defense 
because, some people assert, we are arming against threats the 
Europeans ignore. In what respects do you find this depiction of the 
situation correct or mistaken?
    Secretary Grossman. We believe the events of September 11 attest to 
the enemy we are now confronting. I think the support we have received 
from our allies both individually and collectively attests to their 
commitment to help defend our common values. With their contributions 
to Operation Enduring Freedom, they are proving that commitment by air, 
by land, and by sea.
    Both we and our allies and partners must maintain and enhance the 
capacity to address today's asymmetric threats, terrorism foremost 
among them. We are encouraging allies to address key shortfalls through 
collective investment to ensure the continued ability to defend 
ourselves in a world that is both less familiar and more dangerous. The 
Europeans have acknowledged their shortcomings particularly in 
logistics, strategic lift, personal protection/detection for biological 
and chemical weapons, and communications--during its recent 
Capabilities Improvement Conference. Many would tell you themselves 
that European nations have not done as much as they or we believe 
necessary to meet their military shortfalls and narrow the growing 
transatlantic capability gap.
    This is why we have included capabilities as one of the main 
thrusts of the Prague Summit. We are looking for ways by which the 
Europeans can redress and prioritize these continued shortcomings. 
Among the options we propose are increased focus and prioritization on 
the most essential areas capabilities.
    Our bottom line is that even with a more concentrated focus, these 
capabilities can only be achieved with a significant increase in 
defense spending aimed at capabilities instead of non-deployable force 
structure. To further focus their efforts and make improvement in 
capabilities more affordable, we are encouraging allies to consider 
pooling their resources so that they can do collectively what they are 
incapable of doing as individuals.
    Secretary Feith. Our European allies broadly share our view of the 
threats to transatlantic security in the 21st century, including the 
growing dangers associated with terrorist efforts to obtain weapons of 
mass destruction. Despite the broad convergence of our views on the 
threats to the Alliance, we do sometimes disagree with certain allies 
over aspects of how we--individually or as an Alliance--should respond 
to those threats. We also see different emphasis among our allies. For 
example, with the exception of the UK and France, none see themselves 
in a role as a global military power. As a result, overall European 
defense spending often reflects a more regional perspective. That said, 
a number of allies have been willing to contribute to ``coalitions of 
the willing'' far from NATO territory, as in the case in Afghanistan 
today.
    The current and projected levels of allied defense spending are a 
source of concern. Allies will need to make the necessary investments 
to field a 21st century force, but it is estimated that overall allied 
defense spending will fall roughly 1 percent from 2001 to 2002. Budgets 
are unlikely to rise soon because allies are dealing with sluggish 
economies and continued pressure to increase domestic spending. 
Moreover, as European officials have acknowledged, their defense 
budgets produce proportionately much less in terms of real military 
capabilities than does the United States. Europe's fragmented defense 
industries and, in some cases, continued investments in outdated force 
structures also contribute to some capabilities shortfalls among our 
NATO allies.
    General Ralston. In one crucial respect, our European allies and 
friends share our view of the threat--they agree that terrorism must be 
at the top of the agenda. They put their soldiers--for them, as for us, 
their most precious asset on the line in Afghanistan. They have 
provided everything we have formally asked for to support Operation 
Enduring Freedom.
    That said, the Europeans do view defense issues differently and 
spend less money on defense. They choose a different set of priorities 
with more emphasis on social programs and accept the fact that they 
will play a much smaller role in world affairs. With the exception of 
France and the UK, the European nations have chosen to not maintain 
nuclear weapons and the associated infrastructure.

    9. Senator Lieberman. Secretary Grossman, what is the content of 
your dialogue with allies about this divergence of values?
    Secretary Grossman. I believe that the state of the Euro-Atlantic 
partnership is strong. From East Timor to Sierra Leone, when a crisis 
looms or fighting erupts, we turn to Europe just as Europe turns to us 
to bring our combined strengths to bear. Witness the offers of 
assistance and actions that have flowed from September 11. Our European 
allies responded meaningfully to the attacks where many of those killed 
were Europeans. Together with us, our allies instantaneously understood 
that terrorists struck at the heart of our shared values.
    When differences with our allies arise, they tend to arise over 
means, not ends--over how to accomplish an objective, not the 
fundamental values that lie beneath.
    As I say, many Europeans governments have acknowledged their 
defense shortcomings and would tell you themselves that they have not 
done as much as we believe necessary to meet their military shortfalls 
and narrow the growing transatlantic capability gap. At the same time, 
our allies stand beside us in NATO, ready and willing to act, as we saw 
to the unquestioned invocation of Article V following the attacks 
against their ally, the United States, on September 11.
    As NATO adapts to address the different threat environment we have 
encountered over the past 6 months, it will continue to be the 
guarantor of security and stability in Euro-Atlantic region for the 
21st century. This is not just an American interest, but a view also 
shared by our allies. By adding new members, developing new 
capabilities, and nurturing new relationships, NATO will be prepared to 
meet 21st century challenges and fulfill its mission to protect the 
freedom and security of its members and continue to promote stability 
in Europe.

    10. Senator Lieberman. Secretary Feith, how do you respond to the 
assertions that this administration assigns little value to the 
transatlantic Alliance or inclines to interact with the allies as 
satellites?
    Secretary Feith. Such assertions are false.
    For over 50 years, NATO has been the most successful military 
alliance in history. As Secretary Rumsfeld has made clear during his 
meetings with allied counterparts, the U.S. has a vital interest in 
NATO, which will remain the anchor of America's security commitment to 
Europe. We value highly our bilateral and multilateral security 
relationships with our NATO allies and recognize their central 
importance to peace and security; any suggestion to the contrary is 
flat wrong.
    The value that the administration sees in NATO can be seen by how 
NATO responded to the September 11 attacks: NATO and our NATO allies 
responded quickly, loyally and usefully. Soon after invocation of 
Article V of the North Atlantic Treaty for the first time, NATO took a 
series of steps to assist us in the war against terrorism. In addition 
to seven NATO Airborne Warning and Control System (AWACS) aircraft 
patrolling U.S. skies, individual NATO allies and partners are 
contributing to the war effort and to the post-Taliban reconstruction 
and security effort in Afghanistan. Some of the allies' contributions 
have come through formal Alliance structures and some outside those 
structures. All those contributions, however, should be appreciated as 
the fruit of more than 50 years of joint planning, training, and 
operations within the NATO Alliance.

                            CAPABILITIES GAP

    11. Senator Lieberman. Secretary Grossman, Secretary Feith, and 
General Ralston, Secretary Grossman stated that the U.S. favors a 
shorter, more focused agenda than the 58 measures of the Defense 
Capabilities Initiative (DCI). How should we revise the DCI to prepare 
for global counter-terrorism operations and bind allied governments to 
more robust spending?
    Secretary Grossman. We believe the events of September 11 have 
added new urgency to our efforts to enhance NATO's ability to meet the 
threats of the new global security environment. We believe the capacity 
for collective action remains the foundation of collective security. 
Toward this end, we favor a shorter and more focused agenda for the 
Defense Capabilities Initiative which will address key shortfalls and 
allow the Alliance to field and sustain more flexible and survivable 
forces. The Alliance should make capabilities a focal point for the 
Prague Summit to ensure the quantity and quality of forces necessary to 
meet today's asymmetric threats, terrorism foremost among them.
    To meet this objective, we believe allies should consider 
specialization, joint procurement, and collective investment. We will 
also encourage allies to focus their defense spending on key priorities 
to ensure that the Alliance meets its capability goals.
    Secretary Feith. In many respects, progress toward DCI has been 
disappointingly slow with only modest progress in fulfilling DCI 
requirements. In the follow-on program to DCI, we want to keep the 
message simple and focused. As an Alliance, we need to field real 
capabilities in four areas:

        - Defending against weapons of mass destruction
        - Transporting forces promptly to the fight and sustaining them 
        there
        - Connecting friendly forces with timely, secure communications 
        and targeting data
        - Fielding a more balanced and modern allied contribution to 
        combat operations

    Over the next several months, we intend to work closely with our 
allies to prepare for the Prague Summit and identify tangible, 
significant capabilities improvements in these four areas. These needed 
improvements are relevant to the entire range of NATO missions, 
including NATO's contribution to the war on terrorism.
    General Ralston. NATO Secretary General Lord Robertson has 
repeatedly encouraged improved capabilities along two fronts: more 
efficient use of available resources, and when necessary, increased 
funding.
    Since the DCI was launched in Washington in March 1999, it has 
provided much justification for increased defense spending. The DCI was 
based on the fundamental fighting tasks of move, shoot, communicate, 
protect, and sustain. Those fundamental skill sets remain as valid for 
a NATO Article V operation as they do for the global war on terrorism 
(GWOT). The High Level Steering Group (HLSG) has identified a number of 
long-standing deficiencies, particularly: strategic air and sea lift, 
alliance ground surveillance, combat identification, and suppression of 
enemy air defenses. Another area of concern rests with weapons of mass 
destruction (WMD). Our experience with anthrax-tainted mail has been a 
bit of a wake-up call to our allies, who recognize we must address 
nuclear, chemical, and biological (NBC) defensive capability 
shortfalls.
    The GWOT provides us with another opportunity to highlight these 
shortfalls. I don't see a need to revamp the concept behind DCI, as 
those principles are still valid; however, I believe a simplified 
approach is warranted. Strategic lift is a vital concern shared by all 
allies; terrorist cells often hide in remote places for the very 
protection that isolation provides. Precision munitions are vital to 
prosecute combat operations and to minimize unintended casualties. 
Communications, particularly compatible, secure communications are 
critical to coordinating our Alliance efforts. Logistics, especially 
over the long distances required, demand the small footprint that only 
light, deployable combat forces possess. Lastly, force protection, 
particularly NBC protection, must be a top priority.

                             TECH TRANSFER

    12. Senator Lieberman. Secretary Feith, do our defense trade 
controls and protection of American firms' competitive advantages work 
against the advancement of interoperability?
    Secretary Feith. In general, no. NATO's European members can close 
the capabilities gap and increase interoperability significantly 
through increased investment in strategic lift and intelligence, 
surveillance, and reconnaissance (ISR) capabilities. European firms 
offer a wide variety of relevant systems, but our European allies do 
not always procure them in sufficient numbers. At the same time, 
comparable American systems are often as readily available to our NATO 
allies as the non-lift and non-ISR systems we routinely supply to our 
European allies.
    In some cases, exports of certain sensitive ISR systems may be 
subjected to additional scrutiny by both the executive and legislative 
branches. While this may complicate the ability of NATO's European 
members to increase interoperability through the purchase of U.S.-made 
systems by adding extra steps, we have generally provided such items to 
our NATO allies to enhance the Alliance's overall capabilities.

    13. Senator Lieberman. Secretary Feith, we have the market power 
within NATO countries of both overwhelming supplier and overwhelming 
consumer of military equipment. Please discuss how we are managing the 
economic, political, and technology impacts on Alliance nations of this 
imbalance in our favor.
    Secretary Feith. The United States is the world's principal 
supplier and consumer of military equipment. We export nearly three 
times as many arms worldwide as our NATO allies combined, and spend 
more than twice as much on defense procurement.
    This imbalance is largely a result of choices made by our NATO 
allies, who as a group, have opted to spend proportionately less on 
defense procurement and defense research and development, and together, 
have settled on less capability and less advanced technology than we 
feel is necessary. This contributes to the so-called ``capabilities 
gap'' between the United States and our NATO allies. The new 
capabilities initiative that we are working with our allies to 
implement will help to remedy this imbalance, but insufficient defense 
spending by our NATO allies remains an issue.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                       RUSSIA'S NEW ROLE IN NATO

    14. Senator Thurmond. Secretary Grossman, according to a February 
26, 2002 article in the New York Times, after months of internal 
discussion and dispute, NATO has offered Russia a new form of 
relationship that will see a Russian ambassador sitting between 
Portugal and Spain at meetings to discuss and decide significant issues 
of mutual concern. What specifically will be Russia's role in NATO's 
military deliberations and how will it influence that process?
    Secretary Grossman. In developing the proposal for the NATO-Russia 
Council (NRC), allies agreed that Russia would not be able to use this 
new body to restrict NATO's freedom of action (have a veto) and that 
consensus among the 19 allies will always be required to place any 
specific issue on the agenda of the NRC and to continue working an 
issue in the NRC. NATO allies will always be in a position to take a 
decision on any issue at any time, regardless of the state of 
discussions in the NRC.
    Under these same arrangements, Russian military reps will continue 
to meet with NATO's Military Committee (MC) to work on an agenda agreed 
by NATO allies in the NAC, but this will not affect in any way the MC's 
ability to provide independent military advice to the NAC based on the 
MC's internal consultations (without the Russians).

                      EXPANSION OF NATO MEMBERSHIP

    15. Senator Thurmond. Secretary Grossman, I understand that during 
the upcoming NATO Summit in Prague, as many as nine countries are 
hoping to be invited to become NATO members. What nations does the 
United States consider the prime candidates for new NATO membership and 
why?
    Secretary Grossman. All allies support further enlargement, and a 
broad consensus is forming behind President Bush's vision of the most 
robust round possible, as long as aspirants are ready to assume the 
responsibilities of membership.
    In order to achieve this goal, we are seeking to keep aspirant 
countries focused on meeting their reform goals through the Membership 
Action Plan, and have been urging allies not to advocate for specific 
candidates until we can develop an agreed Alliance consensus. In order 
to give aspirant countries as much time as possible to implement 
reforms, we have all agreed that the question of ``who'' should be 
invited would not be addressed until the fall.
    Before any country is invited, all allies will want to be convinced 
that its admission will contribute to Euro-Atlantic security and that 
its commitment to democracy and the rule of law is irrevocable.

                             NATO'S FUTURE

    16. Senator Thurmond. Secretary Feith, with Russia's new role and 
NATO's enlargement to the East, there is the fear that NATO's military 
role will be secondary and politics will take a predominant role since 
the new nations have little to add in terms of military capability. Do 
you agree with this assessment? If not, why not?
    Secretary Feith. I disagree strongly.
    NATO is first and foremost a military alliance. The Alliance 
succeeds because it is an organization of shared values, such as 
civilian control of the military, democracy, and respect for individual 
rights. Naturally, these values create a need for a considerable amount 
of policy coordination and political leadership within NATO. In a 
sense, NATO's military strength derives from its political activities.
    NATO aspirants have varying levels of military capabilities based 
on their inherent sizes and recent histories. Through NATO's Membership 
Action Plan, the U.S. and NATO have worked with these aspirants to 
strengthen their militaries through serious reform, planning, and 
implementation. While some of the aspirants may have a less than robust 
military capability to provide the Alliance, we are confident that they 
have pragmatic and achievable plans that will contribute serious 
military capabilities in the future. Even with limited capabilities, 
most of the NATO aspirants have demonstrated ``allied-like'' behavior 
by providing military support to KFOR, SFOR, Operation Enduring 
Freedom, and the ISAF.

                           NATO'S IMPORTANCE

    17. Senator Thurmond. Secretary Feith, as the United States focuses 
on the worldwide terrorist threat and the Pacific region as suggested 
by the QDR, Europeans are concerned that our role in NATO will 
diminish. What is your response to these concerns?
    Secretary Feith. These concerns are not valid.
    For over 50 years, NATO has been the most successful military 
alliance in history. As Secretary Rumsfeld has made clear during his 
meetings with allied counterparts, the U.S. has a vital interest in 
NATO, which will remain the anchor of America's security commitment to 
Europe. We value highly our bilateral and multilateral security 
relationships with our NATO allies and recognize their central 
importance to peace and security; any suggestion to the contrary is 
flat wrong.

                          BOSNIAN POLICE FORCE

    18. Senator Thurmond. General Ralston, in your prepared comments 
regarding Bosnia, you say that the way ahead in Bosnia remains 
contingent upon the international community. A key provision is the 
establishment of a competent Bosnian police force and the presence of 
an international police force. The issue of establishing a police force 
has been on the agenda for some time. What is the status and why is it 
taking this long to establish a reliable police force?
    General Ralston. Since 1996, the United Nations Mission in Bosnia 
and Herzegovina (UNMBIH) has had the responsibility of assisting the 
Bosnians in establishing the foundation for effective, democratic, and 
sustainable law enforcement agencies. Their mandate expires on 31 
December 2002, and the European Union (EU) plans to fill the police 
training void with their own police mission (called the EU Police 
Mission, or EUPM; the EU currently plans a 3-year mission beginning 1 
January 2003).

    19. Senator Thurmond. General Ralston, how many nations are 
contributing to the international police force?
    General Ralston. As of 18 February 2002, there were 43 contributing 
nations to the International Police Task Force (IPTF). The U.S. 
contribution is 59 officers out of a total of 1,850.

                         EFFICIENT BASING EAST

    20. Senator Thurmond. General Ralston, I complement you on the 
extensive description of the major basing initiatives and military 
construction requirements in Europe. It is important that the committee 
get a better appreciation of these issues since both require a 
substantial investment. How much support, either cash or payment-in-
kind, are the Europeans providing to support our facilities improvement 
program?
    General Ralston. For Efficient Basing East (EB-E), the Federal 
Republic of Germany has committed to provide payment-in-kind (PIK) of 
$28.0 million for the Brigade Complex consisting of a General 
Instruction Building, Army Reserve Center, Communications Center, 
Information Processing System, and an Administration Facility at 
Grafenwoehr Training Area, GE.
    Since the fall of the Berlin Wall in 1989, installation closures 
and negotiations have resulted in total payments of $142.5 million to 
the DOD Overseas Military Facility Recovery Account (DOMFIRA) and PIK 
made by the Federal Republic of Germany (FRG) totaling $354.8 million. 
Additionally, the FRG is providing facilities at Ramstein and 
Spangdalhem Air Bases that recreate capabilities that the U.S. will 
return at Rhein Main AB. The new facilities at Ramstein and Spangdalhem 
equal an additional $487.5 million worth of projects provided by the 
FRG as part of the ``Quid Pro Quo'' agreement.
    In summary, the RV and PIK programs have provided key quality of 
life facilities such as housing, dormitories, and barracks in the early 
1990s when there was minimum MILCON funding in the EUCOM AOR. Further, 
the program continues to provide essential strategic facilities at 
Ramstein and Spangdalhem Air Bases, key facilities in the future at 
Grafenwoehr Training Area in support of EB-E, and at other locations 
throughout the theater.

   PAYMENTS RECEIVED THROUGH RESIDUAL PAYMENT MONETARY COMPENSATION RECEIVED IN DOD OVERSEAS MILITARY FACILITY
                                                RECOVERY ACCOUNT
----------------------------------------------------------------------------------------------------------------
                     Site                       Payment ($000)       Date                    Source
----------------------------------------------------------------------------------------------------------------
Woensdrecht Ground Launch Cruise Missile Site.        30,000.0       Oct. 1989  The Netherlands
168 Sites Returned to Germany Prior to 1990...         3,026.8      April 1992  Germany
Pfullendorf Communications Tower..............            49.1       Apr. 1993  Germany
Decimomannu Air Weapons Training..............         1,676.0            1993  Italy
Facility (3 payments: 1 each from.............           782.0            1993  Italy
Germany, United Kingdom, and Italy)...........         2,842.0      March 1995  Italy
Donges Metz Pipeline..........................        32,956.7       Dec. 1994  France
Wildflecken Training Area Targetry Equipment..         3,500.0       Dec. 1994  Germany
Holy Loch.....................................           680.6       Feb. 1995  United Kingdom
Bremerhaven (Phone Equipment).................           124.1       Aug. 1995  Germany
Soesterberg Air Base..........................        31,000.0      Sept. 1996  The Netherlands
Lucius Clay Kaserne...........................        31,700.0       Oct. 1996  Germany
Doerverden Communications Facility............           180.0       Mar. 1997  Germany
Duensen Communications Facility...............           253.0       Mar. 1997  Germany
Koeterberg Radar Relay Site...................            65.0       Mar. 1997  Germany
Soesterberg Family Housing Annex..............        11,876.8       Aug. 1997  The Netherlands
Florennes Air Base (18 buildings).............        17,600.0      Sept. 1997  Belgium
Mohammedia Storage and Fuel Facility..........         3,150.0       Dec. 1998  Morocco
Site 54, Israel, (Total $2M, payable in 4               1000.0       Dec. 2001  Israel
 increments of $500K, 2 increments received to
 date.
                                               ----------------
  Total.......................................  142,462.1 \1\
----------------------------------------------------------------------------------------------------------------
\1\ Payment of $30 million for the return of the Woensdrecht Ground Launch Cruise Missile site, The Netherlands,
  was received in 1989, prior to the establishment of the ``Department of Defense Military Facility Investment
  Recovery Account.'' The payment was deposited to the Treasury as a miscellaneous receipt.


           MILITARY CONSTRUCTION PAYMENT-IN-KIND COMPENSATION
                                 Germany
------------------------------------------------------------------------
                                      Amount (in
                                     millions of     Date       Source
                                       dollars)
------------------------------------------------------------------------
  Quid Quo Pro
 
Rhein Main (Ramstein Air Base               62.5                 Germany
 benefit)..........................
Replicate Rhein Main Air Base              425.0                 Germany
 strategic capabilities
 (Spangdalhem and Ramstein benefit)
                                    -------------
  Total............................        487.5
------------------------------------------------------------------------
  PIK
 
PIK#1 (1 project)..................         25.5   Apr. 1993     Germany
PIK #2 (12 projects)...............        110.0   Dec. 1993     Germany
PIK #3 (14 projects)...............         67.1  Sept. 1994     Germany
PIK #4 (8 projects)................         55.0   Nov. 1996     Germany
PIK #5 (1 project).................          5.0   Feb. 1998     Germany
PIK #6 (4 projects)................         44.4   Dec. 1998     Germany
USAFE PIK (1 project)..............          8.8   Nov. 2000     Germany
PIK #7 (4 projects)................         39.0   Feb. 2001     Germany
                                    -------------
  Total (PIK)......................        354.8
------------------------------------------------------------------------

                                 ______
                                 
               Questions Submitted by Senator John McCain

                        TURKEY--NATO ENLARGEMENT

    21. Senator McCain. Secretary Grossman, Turkey is a front-line 
state in the war on terrorism, as was Germany a front-line state during 
the Cold War. Turkey has made important contributions to securing the 
peace in Afghanistan and will be integral to any campaign against Iraq. 
It is also central to our objectives of ending terrorism and promoting 
democratic stability in Central Asia. Turkey's strong support and 
active cooperation demonstrate the fallacy our enemies would have the 
world believe: that our campaign against terrorism is a war against 
Islam.
    For too long, Europe has held Turkey at arm's length. NATO's 
southeastern expansion would secure Europe's southern flank, enhance 
stability in the Western Balkans, and end Turkey's strategic isolation 
for the Alliance. It would help diminish continuing frictions in 
Turkey's relationship with the European Union (EU). A visionary 
enlargement of the NATO Alliance to the south combined with the EU's 
historic expansion to the east would bring about a new and welcome 
cohesion of Turkey to Europe. The recent joint statement by Greece and 
Turkey in favor of NATO membership for Bulgaria and Romania is a 
promising demonstration of how enlargement can positively influence 
regional dynamics.
    Could you share your views on how you believe the administration's 
agenda for Prague will affect our Turkish allies, and what role they 
will play in this process?
    Secretary Grossman. We believe the U.S. agenda for the Prague NATO 
summit will work well for Turkey. On membership, the administration 
favors as robust a round of NATO expansion as possible and understands 
the argument for geographic balance as NATO enlarges. While decisions 
will not be made until the fall, Turkey's joint support with Greece in 
favor of membership for Bulgaria and Romania is noteworthy and will 
certainly carry weight as NATO members collectively decide which 
countries to invite to join the Alliance at Prague. On capabilities, we 
count on Turkey's support to adjust and enhance NATO's ability to deal 
with the asymmetric threats that the attacks of September 11 brought 
home. Turkey spends proportionally more on defense than any other ally, 
and, within the constraints of a difficult domestic economic situation, 
Turkey is making commendable progress in modernizing its forces. It is 
our view that deeper, closer NATO relations with Russia and Ukraine 
will contribute significantly to improvement of the overall security 
situation in Europe and Eurasia, including Turkey's special areas of 
interest.

                            NATO'S SUCCESSES

    22. Senator McCain. General Ralston, we live in a new era, and the 
Alliance has no choice but to adapt to the new threats. Lest we forget, 
NATO has successfully taken on new challenges before--in the 1950s, 
when it integrated West Germany; in the 1960s and 1970s, in responding 
to the Soviet missile buildup; in the 1980s, in working through the INF 
debate; and in the 1990s, when it brought peace to Bosnia, integrated 
former members of the Warsaw Pact, and defeated Slobodan Milosevic's 
tyranny. We are a strong Alliance, and debate within our circles about 
capabilities, roles, and missions can be healthy.
    Despite all the recent hand-wringing about NATO's purpose, I 
believe the events of September 11 have already served to clarify 
NATO's role and mission. American leadership within NATO has been 
enhanced by our leading role in the ongoing war. The terrorist assaults 
have bound the Alliance more closely together in a tangible way, with 
NATO assets helping to defend the American homeland and forces of 
member and aspirant nations working together in Central Asia. I hope it 
has helped us put aside our previous differences over an emerging, if 
unrealized, European security identity in favor of NATO's existing 
security architecture. It has laid a strong foundation for NATO's 
future relations with Russia.
    Could you share your views on NATO's fundamental strengths, and 
help us put existing differences with the allies over the war on terror 
in the context of other differences we have successfully overcome in 
the Alliance's history?
    General Ralston. NATO's fundamental strength is the ability of 
nations with similar values to reach consensus on tough issues, like 
those enumerated in the question. Another strength is its set of 
technical standards and doctrine that can be practiced in exercises to 
form the basis of interoperability in war. Harmonization of deployed 
multinational forces is far simpler when commanders can refer back to a 
common NATO way of doing things. The Defense Planning Process, while 
not perfect, is a good way of ensuring that NATO has the forces and 
capabilities it needs to meet the threat in a more coherent way than if 
each nation did its planning independently. Years of cooperation in 
these areas have produced the ability to generate effective 
multinational forces. For example, the war in Afghanistan has been 
fought with an effective multinational force including participants 
from numerous NATO allies, even though it is not a NATO operation. The 
conduct of the GWOT is under American leadership, with varying 
coalitions supporting us as we operate in theaters around the world. 
Given the many locations and means of struggle possible, not all allies 
will agree with our approach all the time. The Alliance needs to agree 
on its future role in dealing with terrorism, based on a common 
assessment of the threat. From a military perspective, our allies have 
many forces that could be brought to bear in situations requiring an 
international response, for example, consequence management for a WMD 
incident occurring across borders. The Alliance needs to agree on the 
best way to take advantage of the capabilities of its members to defend 
itself against the spectrum of possible terrorist acts. This should not 
be as difficult a decision process as some of the previous challenges 
NATO has faced.

            VALUABLE CONTRIBUTIONS OF NATO'S NEWEST MEMBERS

    23. Senator McCain. Secretary Grossman, when the Senate debated the 
last round of NATO enlargement, there were many questions about the 
military and political value of inviting Poland, Hungary, and the Czech 
Republic to join the Alliance. Yet days after their accession they 
joined us in going to war against Slobodan Milosevic. Since then, they 
have been among our staunchest supporters within NATO councils--better 
friends of the United States than some of our older allies.
    I believe the performance and strong support we have received from 
our newest allies in Warsaw, Budapest, and Prague are instructive as we 
consider inviting new members to join the Alliance in the next round of 
NATO enlargement. Could you give us your views on this?
    Secretary Grossman. Senator McCain, I could not agree more. Our 
three newest allies have made consistent and invaluable contributions 
to the Alliance. The aspirant countries have been demonstrating an 
equal commitment to cooperative behavior among themselves and have 
worked closely and well with NATO--in many cases over the past 3 years.
    Poland, the Czech Republic, and Hungary have all made good progress 
and developed forward-leaning plans to continue their defense reform 
efforts. As you say, all three supported NATO's Kosovo mission from 
their earliest days as allies, and all three provided immediate offers 
of support after September 11. In the Balkans, the three together have 
provided approximately 2000 troops on average in SFOR and KFOR. Each 
country offers unique capabilities and expertise such as the Poles with 
demining assets, the Czechs with reconnaissance capability, and the 
Hungarians with engineering skills.
    While all nine aspirants still have important work to do between 
now and Prague, they also deserve recognition for their reform efforts 
and for their support in the struggle against terrorism and their 
participation in NATO peacekeeping efforts in the Balkans. Through the 
Vilnius Group, they are acting as partners in preparing themselves for 
NATO membership, not as rivals. In the aftermath of September 11, they 
all made significant contributions to Operation Enduring Freedom and 
the International Security Assistance Force, providing overflight 
rights, access to bases, specialized units, troops for ISAF, and solid 
political support. Even in the Balkans, the aspirants (except for 
Albania) have been providing contributions to SFOR and KFOR consistent 
with their capabilities.

                  CAPABILITIES OF OUR EUROPEAN ALLIES

    24. Senator McCain. Secretary Feith, I have been very encouraged by 
the President's strong support for a new and far-reaching Atlantic 
agenda. I fully endorse the President's vision of an Alliance that 
stretches from the Baltics to the Black Sea, created by a robust round 
of enlargement driven not by ``how little we can get away with, but how 
much we can do to advance the cause of freedom,'' as he said in Warsaw 
last June. I share the administration's determination that even as we 
work to enlarge the Alliance, we share a mandate with NATO's existing 
members to ensure that they are capable of meeting new threats, and 
that our Alliance is structured to respond to them.
    Our fundamental goal at Prague must be to transform what has become 
a somewhat divisive Trans-Atlantic debate about the role and relevance 
of our NATO partners in the war on terrorism, into a concrete plan of 
action to align the Alliance's purpose of collective defense with the 
threats of terrorism and weapons of mass destruction. Could you discuss 
some of the concrete ways we can work with our European partners to 
develop the specialized capabilities to respond to the new threats.
    Secretary Feith. In many respects, progress in fulfilling DCI 
requirements has been disappointing. In the follow-on program to DCI, 
we want to keep the message simple and focused. As an Alliance, we need 
to field real capabilities in four areas:

        - Defending against weapons of mass destruction
        - Transporting forces promptly to the fight and sustaining them 
        there
        - Connecting friendly forces with timely, secure communications 
        and targeting data
        - Fielding a more balanced and modern allied contribution to 
        combat operations

    Over the next several months, we intend to work closely with our 
allies to prepare for the Prague Summit and identify tangible, 
significant capabilities improvements in these four areas. These needed 
improvements are relevant to the entire range of NATO missions, 
including NATO's contribution to the war on terrorism.

                          NATO/RUSSIA COUNCIL

    25. Senator McCain. Secretary Grossman, like other members of the 
committee, I am eager to learn more about the proposed operating 
guidelines of the new NATO/Russia Council. I appreciate your assurances 
that the North Atlantic Council will maintain deliberations separate 
from the NATO/Russia Council, and that the North Atlantic Council 
itself will determine which issues and decisions to bring to the NATO/
Russia Council for consideration. I look forward to better 
understanding how these principles will operate in practice, in order 
to ensure that NATO's institutional integrity is not compromised by a 
well-meaning effort to give our friends in Moscow a meaningful role in 
our councils. I and other members of this committee will need 
assurances that this new NATO/Russia body will, as you say, offer 
Russia the opportunity to participate in shaping mechanisms for 
cooperation in areas we choose, leaving the North Atlantic Council free 
to determine when and to what extent Russia will participate in NATO-
related actions.
    Will you explain in more detail how you foresee the interaction 
between Russia and NATO once the NATO/Russia Council is established at 
Reykjavik?
    Secretary Grossman. We expect that the new NATO-Russia body will 
operate as follows:

        - The North Atlantic Council (NAC) will decide by consensus 
        whether to put an issue on the agenda of the NATO Russia 
        Council;
        - If Russia proposes a topic for discussion or an issue for 
        decision, the NAC will decide, again by consensus, whether NATO 
        can agree to this proposal;
        - In either case, whether NATO or Russia put forward the 
        proposal, the NAC will also have to decide for NATO how the 
        issue will be handled, i.e. whether allies will need to pre-
        coordinate their position or whether no pre-coordination is 
        necessary;
        - All allies will have to agree to any decision or action taken 
        by the NATO-Russia Council;
        - Moreover, the NAC can, at any time, take a decision on any 
        issue, whether or not that issue is or has been discussed in 
        the NATO-Russia Council;
        - Any ally can pull back any issue to ``At 19'' at any time 
        without revealing its concern or identity.

    Building on the expressions of commitment from allies and Russia to 
forge a new relationship, and operating within these guidelines, we 
expect that the new NATO-Russia Council, starting with a modest agenda, 
will focus on those issues where allies and Russia are ready and 
capable for joint decisions and actions ``At 20.''
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                        TACTICAL NUCLEAR WEAPONS

    26. Senator Smith. Secretary Feith, in 1991 and 1992, Presidents 
George H.W. Bush, Mikhail Gorbachev, and Boris Yeltsin annnounced their 
intention unilaterially to reduce U.S. and Russian tactical nuclear 
weapons (TNWs) arsenals--both by reducing the warhead stockpiles and by 
eliminating some entire classes of these weapons. The current U.S. 
arsenal of TNWs has been drastically reduced to around 1,670 warheads 
and there are few concerns about the safety of storage conditions of 
these weapons. There have also been reductions in the Russian force, 
but significant uncertainty remains about the size and safety of the 
Russian TNWs arsenal--estimates of which range from anywhere between 
3,500 to upwards of 18,000. In 1997 the United States outlined its 
concerns about security of Russian TNWs and raised the issue in tandem 
with bilateral efforts to reduce strategic forces in the context of 
START III framework discussions. More recently, NATO expressed its 
concerns about the large number of Russian ``tactical nuclear weapons 
of all types'' and has called upon Russia ``to bring to completion the 
reductions in these forces announced in 1991-1992, and to further 
review tactical nuclear weapons'' acknowledging that there could be 
serious problems with Russia's tactical nuclear weapons arsenal and the 
Alliance. Aside from vague references in speeches, however, little of 
substance has been done by Russia to clarify what it has done to 
address the concerns about its TNWs arsenal. What are the United States 
and NATO doing to attain more clarity from Moscow on the status of 
Russian follow-through on the 1991 and 1992 Presidential Nuclear 
Initiatives on TNWs, and the status of the current stockpile of the 
Russian tactical nuclear arsenal?
    Secretary Feith. There are presently no official U.S.-Russian 
exchanges on the status of the Presidential Nuclear Initiatives (PNIs). 
In the early to mid 1990s, the Russian Ministry of Defense sent 
periodic progress reports to DOD about the elimination of tactical 
weapons returned to Russia from other former Soviet republics. However, 
these proffered Russian status reports ceased about 1995. President 
Yeltsin pledged that Russia would honor its PNI pledges by the end of 
2000. The Russians stated in multiple venues that, except for the 
elimination of Ground Forces' nuclear weapons, their PNIs have been 
completed.
    Moscow has never declared the number of nuclear warheads in the 
Russian stockpile. While bilateral declarations of stockpiles could 
become part of some future agreement, Russia has argued that non-
strategic weapons are outside the scope of START.

    27. Senator Smith. Secretary Feith, what is the United States doing 
to ensure the safety and the reduction of Russian tactical nuclear 
weapons?
    Secretary Feith. The Department of Defense, through the Cooperative 
Threat Reduction (CTR) program, is working closely with the Russia 
Federation to prevent nuclear proliferation by improving the safety and 
security of both strategic and tactical nuclear weapons. Under 
applicable international agreements, we are working with the Russian 
Ministry of Defense (MOD) to enhance the security of nuclear weapons 
storage sites that hold both tactical and strategic warheads. We also 
are working together to improve the security of warheads during 
transportation.
    In recent years, we have provided ``quick fix fencing'' and other 
equipment for storage site improvements, inventory control systems, 
personnel reliability and safety equipment, emergency response 
equipment, and guard force equipment. We also conduct railcar 
maintenance, and your assistance has helped to reduce MOD's response 
and recovery times to respond to nuclear accidents or incidents. We are 
encouraged by the reduction and consolidation of tactical and strategic 
weapons in Russia by transporting warheads to consolidation and 
dismantlement facilities. Since the nuclear weapons transportation 
security project's inception in January 2000, shipments of nuclear 
warheads to such facilities have increased to seven or eight a month.

    28. Senator Smith. General Ralston, the threat of a terrorist 
attack using a nuclear weapon has become more urgent as organized 
terrorism increases. Russia's stored TNWs are potentially vulnerable to 
terrorists or unfriendly nations who will buy or steal them. Compared 
to the United States, Russians lack stringent, centrally coordinated 
procedures for ensuring the safety of its TNWs. Russia has an 
indeterminate number of these weapons, which could pose a proliferation 
and terrorist threat. TNWs are smaller and more portable than strategic 
nuclear weapons and some models could be used by terrorists without the 
authority of centralized command and control oversight mechanisms. What 
steps are currently being taken by NATO and the United States to ensure 
that Russian TNWs are secure and will not fall into the hands of 
terrorists?
    General Ralston. [Deleted.]

    29. Senator Smith. General Ralston, now that the United States has 
a better relationship with Russia and both nations are cooperating to 
prevent terrorism, what is being done to specifically address the 
proliferation and terrorist dangers associated with TNWs?
    General Ralston. [Deleted.] CTR has promoted non-proliferation 
through constructive engagement and represents a proactive approach to 
mitigating the threat of residual Russian nuclear weapons.

                           COST OF EXPANSION

    30. Senator Smith. General Ralston, the costs of NATO expansion 
have been estimated as low as $1.5 billion over 10 years--but I 
understand RAND and CBO may have had alternative cost estimates that 
were much higher. Do we have any accurate costs for expansion, 
particularly for those additional nations that are seeking membership, 
such as Slovenia and the Baltic States?
    General Ralston. Estimating the cost of NATO expansion depends on 
the assumptions and parameters chosen, and different assumptions can 
yield widely varying estimates. EUCOM does not have cost estimates for 
the potential addition of new members, but DOD is currently studying 
the cost implications of enlargement to provide to the President for 
his mandated report to Congress on enlargement. The President is 
required to report before any decision by the North Atlantic Council to 
invite any country to join NATO.

                             NATO AND ASIA

    31. Senator Smith. General Ralston, where would NATO stand on the 
U.S. meeting any threat in Asia, with Asia still the most likely 
flashpoint in the world today?
    General Ralston. A NATO operation outside of the Euro-Atlantic area 
is not excluded by the Strategic Concept of 1999. Precedent for 
operating outside NATO's immediate borders was set in the Balkans. The 
position of NATO on an Asian contingency would depend on the 
circumstances of the threat or conflict the U.S. would meet, in 
particular to what extent the member nations assessed their vital 
interests to be at stake. As with the current contingency in 
Afghanistan, bilateral support from allies would be more likely than an 
agreement to involve NATO as a whole at considerable distance from the 
Euro-Atlantic area.

                            NATO AND TAIWAN

    32. Senator Smith. General Ralston, would NATO support the U.S. 
with forward deployment of forces, overflight rights, etc., if the U.S. 
were to intervene to defend Taiwan in the event of a Chinese attack?
    General Ralston. The position of NATO on a U.S. contingency in 
Taiwan in the event of a Chinese attack would likely be neutral, as it 
would not involve an attack on a member state. However, individual 
allies would grant transit and basing rights according to their 
assessment of their national interest in doing so.

                             NATO AND IRAQ

    33. Senator Smith. General Ralston, where would NATO stand on 
military action against Iraq, given NATO's past weak position (except 
Britain) during Operation Desert Fox?
    General Ralston. I believe NATO's position on military action 
against Iraq would depend on the evidence that would be produced 
regarding Iraq's possession of WMD and their intent to use WMD. An 
attack by Iraq against any member state would be met with overwhelming 
NATO military action.

    [Whereupon, at 12:20 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
